<html>
<title> - WASTEWATER INFRASTRUCTURE NEEDS IN OHIO</title>
<body><pre>[Senate Hearing 107-320]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-320
 
                WASTEWATER INFRASTRUCTURE NEEDS IN OHIO
=======================================================================

                             FIELD HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                     FISHERIES, WILDLIFE, AND WATER

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

     IDENTIFYING WATER SYSTEM PRIORITIES AND POLICIES THAT PROMOTE 
           ENVIRONMENTAL PROTECTION AND ECONOMIC DEVELOPMENT

                               __________

                      APRIL 30, 2001--COLUMBUS, OH


                               __________

  Printed for the use of the Committee on Environment and Public Works









                           U.S. GOVERNMENT PRINTING OFFICE
78-071                             WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             first session
                   BOB SMITH, New Hampshire, Chairman
             HARRY REID, Nevada, Ranking Democratic Member
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
MICHAEL D. CRAPO, Idaho              RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island         THOMAS R. CARPER, Delaware
ARLEN SPECTER, Pennsylvania          HILLARY RODHAM CLINTON, New York
BEN NIGHTHORSE CAMPBELL, Colorado    JON S. CORZINE, New Jersey
                Dave Conover, Republican Staff Director
                Eric Washburn, Democratic Staff Director
                                 ------                                

             Subcommittee on Fisheries, Wildlife, and Water

                   MICHAEL D. CRAPO, Idaho, Chairman

CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
LINCOLN CHAFEE, Rhode Island         RON WYDEN, Oregon
BEN NIGHTHOUSE CAMPBELL, Colorado    HILLARY RODHAM CLINTON, New York
                                     JON S. CORZINE, New Jersey

                                  (ii)







                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 30, 2001
                           OPENING STATEMENTS

Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     1
Voinovich, Hon. George V. U.S. Senator from the State of Ohio....     2

                               WITNESSES

Gsellman, Patrick, manager, Environmental Division, Akron 
  Engineering Bureau, Akron, OH..................................    32
    Prepared statement...........................................    92
Jones, Chris, director, Ohio Environmental Protection Agency.....    19
    Prepared statement...........................................    53
Karney, Patrick, director, Metropolitan Sewer District of Greater 
  Cincinnati.....................................................    31
    Prepared statement...........................................    88
Odeal, Erwin, executive director, Northeast Ohio Regional Sewer 
  District, Cleveland, OH........................................    28
    Prepared statement...........................................    58
Reid, Lydia J., mayor, Mansfield, OH.............................     7
    Prepared statement...........................................    51
Stevenson, Robert, commissioner, Department of Public Utilities, 
  Toledo, OH.....................................................    29
Vincenzo, Robert, mayor, St. Clairsville, OH.....................     9
    Prepared statement...........................................    52

                          ADDITIONAL MATERIAL

News release, Corps Continues Partnership with Ohio Agencies.....   104
Report, Water Infrastructure Network.............................    62
Statement, Moline, Donald, DEE Director of Public Utilities, 
  Toledo, OH,....................................................    77
    Master Site Plan, Option 1, City of Toledo, OH............... 80-92
Factsheets, City of Akron, OH:
    Ohio Canal Tunnel............................................   103
    Program Overview............................................. 96-99
    Racks 26/28 Treatment........................................   101
    Racks 40/31 Storage Basin....................................   100
    WPCS Storage Phase I.........................................   102


                       WASTEWATER INFRASTRUCTURE 
                             NEEDS IN OHIO

                              ----------                              


                         MONDAY, APRIL 30, 2001


                                       U.S. Senate,
               Committee on Environment and Public Works,  
            Subcommittee on Fisheries, Wildlife, and Water,
                                                      Columbus, OH.
    The subcommittee met, pursuant to notice, at 9:39 a.m. 
Columbus City Hall, Columbus, OH, Hon. Michael D. Crapo 
(chairman of the subcommittee) presiding.
    Present: Senators Crapo and Voinovich.

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. The subcommittee will come to order.
    This is the Subcommittee on Fisheries, Wildlife, and Water, 
and it's our hearing on options to address wastewater needs in 
Ohio.
    Before I turn the microphone over to Senator Voinovich, I 
would like to first make a few brief comments. I'd like to 
first express my appreciation to our witnesses and all of our 
guests today for joining us here as we examine water quality 
and infrastructure needs in Ohio. This is an important 
opportunity to hear firsthand from community and elected 
leaders from the State about their concerns about what is one 
of the most significant issues facing us in America today.
    Congress has been looking into ways to address the growing 
problems facing communities with wastewater problems for a 
number of years. In fact, the Senate Environment and Public 
Works Committee has held numerous related hearings in the past 
two Congresses, the most recent in March.
    I think it's appropriate that we are here today in Ohio for 
our first field hearing on the issue, because Ohio is a good 
microcosm of infrastructure issues in this country, with its 
mixture of urban and rural communities, industrial sectors and 
agricultural regions, and older and newer treatment systems.
    It's my hope that the testimony we receive today will help 
the subcommittee achieve a better understanding of the 
complexities and the needs of our Nation's communities.
    I'd also like to share some of my thoughts about my host 
today, Senator Voinovich. Just as Ohio is a good location for 
this field hearing, Senator Voinovich is the right person to 
help Congress lead this debate. With his successful experiences 
both as mayor and Governor prior to serving in the U.S. Senate, 
George Voinovich is uniquely qualified to work within Congress 
to help our communities.
    True to this fact, Senator Voinovich has long advocated for 
additional Federal attention and efforts to enhance available 
resources and improve State flexibility in administering 
wastewater programs. I commend him for his partnership in this 
cause.
    I may state on a personal note that since he's one of my 
best friends in the Senate, I appreciate the invitation to be 
here.
    With that, I'd like to, once again, thank our witnesses for 
joining us here today and look forward to an enlightening 
exchange of ideas and a healthy discussion on Ohio's wastewater 
needs.
    Before we begin the testimony, I'd like to turn to Senator 
Voinovich for anything he'd like to say as an opening 
statement.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thanks very much. First and foremost, I 
want to thank you very much for coming here to chair this 
hearing. Quite frankly, the only way that we can get something 
in the congressional record is to have the chairman of the 
subcommittee come to the State. We met in December, I think, 
Senator, and none of that testimony was in the congressional 
record. We want to build a good record because it's very 
important for the future, in terms of getting legislation 
passed.
    Senator Crapo, who represents the great State of Idaho, and 
prior to his being Senator, he spent three terms in the House 
of Representatives. I want to say, this is a big gesture for 
him to come to Ohio. I could get on a plane, it takes me 55 
minutes to go from Washington to Cleveland. Senator Crapo has 
to go from Idaho Falls to Utah to Salt Lake to Cincinnati. He 
came in here last night. I drove down this morning. I want to 
thank you, Mike, for going out of your way. I owe him one now, 
and I'm going to go to Idaho.
    Senator Crapo. We'll get you out to Sun Valley.
    Senator Voinovich. Again, I'm pleased that you're here. 
You're right, Ohio is a microcosm, I think, of the United 
States of America.
    It's interesting that people always ask me, ``Are you 
adjusted yet to Washington?'' I tell them, ``No, and when I am, 
it's time for me to leave.'' Too often we get inside that 
beltway circuit and lose touch about what's happening on main 
street.
    Today we're here to hear some perspective from some folks 
that are on the street dealing with the problems in a matter 
that's very important to the health and well-being of all 
Ohioans. We forget sometimes, these other issues come along, 
but good water, good sewage treatment is very important to 
public health and to the environment. I appreciate the 
witnesses taking time out of their busy schedules to be here 
with us today.
    The condition of our Nation's wastewater collection and 
treatment infrastructure systems has been a long-standing 
concern of mine. Senator, the first bond issue I worked on when 
I came to the Ohio legislature was for a $375-million bond to 
deal with waste treatment problems in the State of Ohio. That 
was a forerunner of the Federal program.
    So often people forget that most of the waste treatment 
facilities that were built in this country to bring us out of 
the dark ages from primary to secondary to tertiary treatment 
facilities were supported 75 percent by the Federal Government.
    The program went into being in 1972, and between 1972 and 
1990, there were some 10,000 facilities throughout the State 
that received Federal money to the tune of $50 million.
    I think that a lot of people are unaware of the fact that 
we've got 1,000 public wastewater facilities and 1,500 
commercial facilities in operation in Ohio. Think of that. Five 
percent of Ohio's 11.4 million residents are served by 
individual septic tanks. So this is a major issue.
    The thing that's interesting is that the public looks at 
rate increases as taxes. I don't know about how it is in your 
State, Senator; I know about your energy costs, but our heating 
bills have gone up 100, 150 percent for our businesses and some 
businesses, 200 and 300 percent.
    Our electric bills are going to go up this summer because a 
lot of our power now is generated by natural gas. We know 
gasoline prices are going up. Health care costs are going up. I 
know for sure that utility rates are going up. So we need to 
deal with this problem on a realistic basis.
    One of the things I'd asked the General Accounting Office 
to do is to look at the infrastructural needs of this country. 
I'm talking about highways, mass transit, airports, drinking 
water, public buildings, water resources and hydropower 
generators, because we're not dealing with these things.
    The Senator knows that the President increased the budget 4 
percent. When we got done, it was 8 percent. Who knows where 
it's going. But very little money was allocated to some of 
these unmet needs in the country. It's like we don't exist so 
we must find some other areas to deal with them.
    So, what we'd like to do today is to hear from you. We want 
to hear about what you're required to do now. We know you have 
current aging infrastructure problems. I know that because I 
was a Governor and a county commissioner. So that's a problem 
that exists. We've all got to deal with that. Then on top of 
that, you are being required to do some things that you're not 
doing now. My concern is, do the things that you're being asked 
to do make sense?
    We pass laws. The EPA passes regulations; they issue 
guidances. Is what they're asking you to do make sense? Is 
there another way that they could do it that would be more 
reasonable?
    Senator, I think you were probably in Congress during the 
reenactment of the Safe Drinking Water Act. I was kind of the 
leader of the Governors on the measure. In fact, I was at the 
White House when the President signed the bill. One of the 
things we said is cities should not have to, every 3 years, 
treat five new pollutants that don't exist. They ought to put 
their money into those things that really make a difference.
    Then we did something with the Clean Air bill. We put a 
provision in that says when you pass the regulation, they look 
at risk assessment, look at cost benefit, peer review, and do 
those things before you make a regulation.
    Are we making sense? If we are making sense--and Chris 
Jones, here, I'm interested in hearing his thoughts--if it's 
good stuff, then who should pay for it? Is it an unfunded 
mandate? Is it the Federal Government's responsibility to be 
involved in it? Should we be providing money for more loan 
money? Should we be providing you with grant money so that it's 
a partnership, so that the entire burden of this should not 
fall upon the backs of your citizens?
    So I'm interested in that. I'm interested, also, in what 
does this mean in terms of the person in your town, mom and pop 
at home in a house with a family--they have other things to pay 
for, what's it going to do in terms of their budget?
    Then last but not least--the most important thing, in my 
opinion, is what's it going to do with pollution and the 
environment? So that's really what I'm hoping that we get from 
our testimony.
    Again, Senator, I'm so glad that you're here today and 
chair of this committee, and we're anxious to hear from our 
witnesses.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from the 
                             State of Ohio
    Good morning.
    First and foremost, I would like to give my deep thanks to my 
friend and colleague, Senator Mike Crapo, for holding this hearing on 
Ohio's wastewater infrastructure needs right at the source of the 
problem here in Ohio.
    Senator Crapo, who represents the Great State of Idaho, and I came 
to the Senate at the same time, and I consider him one of my best 
friends in the Senate. Before being elected as a U.S. Senator from 
Idaho, Senator Crapo served the people of Idaho's 2d congressional 
district for 3 terms in the U.S. House of Representatives.
    Mr. Chairman, it takes a lot longer to get back to Washington, DC 
from Idaho than from Ohio, and I am very grateful that you could make a 
stop in Columbus to chair this field hearing.
    I am particularly pleased that we are here in Columbus today, with 
a good representation of the individuals whose communities are directly 
impacted by infrastructure needs. I've said on a number of occasions 
that too often in Washington we get so caught up in everything that's 
going on that we can lose sight of what's really important to the 
American people.
    So many times people ask me if I have adjusted to D.C. I answer, 
``no,'' and say that if my answer is ever ``yes,'' it is time for me to 
leave.
    Today, we are going to get some perspective from those who are 
really feeling the financial pinch on an issue that is not often talked 
about, but is, nonetheless, of great importance to the health and well-
being of all Ohioans water infrastructure, and in particular, sewer 
infrastructure.
    I appreciate our witnesses taking the time out of their busy 
schedules to be with us this morning. I had the opportunity to meet 
with many of you last December in discussing these same issues, and I 
am pleased that we have another opportunity to talk about Ohio's 
wastewater infrastructure needs in this hearing.
    The condition of our nation's wastewater collection and treatment 
infrastructure systems has been a long-standing concern of mine, as I 
know it is for you, Mr. Chairman, and for each of our witnesses as 
well. From my own experience, as mayor of Cleveland, I saw rates 
increase dramatically to deal with the City's dual water infrastructure 
problems: drinking water and wastewater treatment.
    Mr. Chairman, many years ago, our former Governor, the late Jim 
Rhodes advised me, ``George, never put anything in the ground because 
the public can't see it.'' Well, as you know, Washington, in many 
cases, has the same attitude when approaching unmet needs: don't 
address anything that isn't high profile.
    But, as our local officials here on this panel know, it is quite 
often the stuff that's underground and out of sight that gets you the 
most attention and it's almost always never positive. All it takes is 
one burst pipe, and you'll get hundreds of phone calls from angry 
citizens demanding that you fix it immediately.
    In my hometown of Cleveland, there have been two big water main 
breaks in the last year that caused a lot of flooding and disrupted 
people's lives. Let me tell you, those breaks got a lot of attention.
    Unfortunately, for many communities across our Nation, anything but 
routine maintenance for such problems is prohibitively expensive. For 
those communities that want to conduct a wholesale overhaul of their 
aging infrastructure, many face the realization that they will have to 
obtain revenues locally.
    Of course, the general public considers rate increases as they do 
taxes. And with the reaction to the dramatic rise in heating costs this 
winter, possible increases in electricity costs, high gas prices, and 
other necessities like health care, it's easy to understand why the 
public does not want to pay more for something they take as a 
``given.'' It's a wonder how the average person can make it.
    (That's one of the reasons I am working to address the lack of a 
national energy policy.)
    However, with an attitude among the public of not wanting to pay 
for these infrastructure upgrades, more often than not, these upgrades 
go on the back-burner, adding to the nationwide cost of repairs.
    I have asked the General Accounting Office (GAO) to conduct a study 
on the unmet infrastructure needs of our Nation. This includes such 
items as: highways, mass transit, airports, drinking water supply and 
wastewater treatment, public buildings, water resources (flood control 
and navigation) and hydropower generating facilities.
    For each infrastructure area, the GAO will look at how agencies 
develop their needs estimates and determine whether they used leading 
practices and guidelines. I believe the GAO's final report will give us 
a better sense of exactly how reliable the needs estimates are.
    The U.S. Environmental Protection Agency's ``Clean Water Needs 
Survey'' is a striking example of how much has to be done to tackle our 
unmet needs. Conducted in 1996, this survey estimated that nearly $140 
billion would be needed over the next 20 years to address wastewater 
infrastructure problems in our communities.
    In March 1999, the EPA revised their figures upwards, whereas 
infrastructure needs are now estimated at $200 billion. Other 
independent studies indicate that EPA has undershot the mark, 
estimating that these incredible unmet needs exceed $300 billion over 
20 years.
    Since arriving in the Senate 2 years ago, I have used my position 
as a member of the Committee on Environment and Public Works to work 
toward improving the condition of our nation's water infrastructure.
    In February, I introduced legislation reauthorizing the highly 
successful, but undercapitalized, Clean Water State Revolving Loan Fund 
(SRF) Program. My bill ``the Clean Water Infrastructure Financing Act'' 
(S. 252) which is identical to legislation I introduced in the last 
Congress would authorize $3 billion per year over 5 years for a total 
of $15 billion.
    As you may know, the SRF program has continued to receive annual 
funding since 1994 when its authorization expired. This year fiscal 
year 2001 is no exception, with Congress appropriating $1.35 billion 
for the program. Of that, approximately $74.9 million will go to Ohio 
to capitalize its SRF program.
    However, as in many States, my State of Ohio has needs for public 
wastewater system improvements which greatly exceed typical Clean Water 
SRF funding levels. In Ohio alone, $7.4 billion of improvements have 
been identified as necessary, according to the latest State figures. Of 
that amount, nearly $4 billion is needed to fix Ohio's combined sewer 
overflow problem. I will let our witnesses go into details about the 
cost of the needs they face, but suffice it to say, most have needs 
that far outweigh Ohio's annual allocation.
    In order to allow any kind of substantial increase in spending, 
reauthorization of the SRF program is necessary. One of the things that 
bothers me the most in Washington is that there is no consideration to 
taking care of our nation's needs across the board. The President's 
fiscal year 2002 budget request, for instance, increases funding by 4 
percent, although important programs like the U.S. Army Corps of 
Engineers Civil Works program and the Clean Water SRF program face 
significant cuts. In my view it is the responsibility of the Federal 
Government to take care of our aging water infrastructure.
    The Clean Water SRF program is an effective and popular source of 
funding for wastewater collection and treatment projects. While the 
loans provided by the Clean Water SRF program can help many communities 
finance wastewater infrastructure projects, even a low-interest loan 
can be too expensive for some.
    One of the bills that I pushed especially hard last year was the 
Wet Weather Quality Act of 2000 (H.R. 828). This bill created a $1.5 
billion grant program to help localities deal with CSO and SSO 
problems.
    I felt that this bill was a reasonable approach to helping 
communities overcome the burden of wastewater infrastructure costs. I 
was pleased, therefore, that it was included in the Omnibus 
Appropriations bill that passed in the Senate late last year, and I was 
further pleased to be able to work with my House colleagues from the 
Ohio delegation to get this enacted.
    Now we will need to work to ensure that we have the first 
installment of $750 million to carry-out this program, as well as at 
least level funding $1.35 billion for the Clean Water SRF program as 
Congress addresses the fiscal year 2002 budget. Again, I am 
disappointed that the President's fiscal year 2002 budget request 
reduced the overall amount of money available for water infrastructure. 
Specifically, the budget asks for $450 million for the new wet weather 
grants program and $850 million for the Clean Water SRF. I am not alone 
in asking that more funds go toward these programs.
    This past February, I also attended a press conference held by the 
Water Infrastructure Network (WIN). WIN is a coalition of wastewater 
treatment and drinking water providers, environmental engineers, 
contractors, and municipal organizations.
    During the press conference, WIN called on the Federal Government 
to significantly enhance its role in financing the nation's clean water 
and safe drinking water infrastructure. Their proposal is a 5-year, $57 
billion program combining grants and loans to increase Federal 
investment in our nation's water infrastructure, including our CSO and 
SSO problems.
    After the press conference I was asked by a person from the media 
if I thought that was enough money or if Congress would even approve 
such a sum.
    I told him that while $57 billion may or may not be something that 
Congress can approve, I am in favor of talking about the costs incurred 
by the local governments as a result of actions taken by Congress that 
is, the unfunded mandates that are passed on by Washington and seeing 
what we can do to alleviate the situation. Perhaps a program that 
involves a mixture of grants and loans would suffice. It should be 
given our careful consideration.
    Mr. Chairman, the Federal Government will not be able to solve our 
infrastructure needs with more money alone. Accordingly, I believe some 
of our laws and regulations may need to be revisited to see if there is 
any way the Federal Government can alleviate the burden on communities 
and their ratepayers and still be consistent with good environmental 
policy. I believe benefits and costs need to be carefully analyzed and 
taken into consideration when the Federal Government makes a decision 
that will affect our citizens.
    That is why when I was Governor of Ohio I was very involved with 
the amendments to the Safe Drinking Water Act to bring common sense to 
our nation's drinking water law. At the time the legislation was being 
debated, cities like Columbus were facing having to add 25 pollutants 
every 3 years and spend millions of dollars to invest in sophisticated 
monitoring technology.
    I look forward to hearing from our witnesses about the extent of 
water infrastructure concerns in their communities. I am interested in 
what they have done to address their own concerns and how they have 
used available Federal and State programs to help finance improvements. 
Part of what I would like to get out of today's hearing is what our 
witnesses believe Congress should be pursuing in a comprehensive effort 
to deal with wastewater infrastructure needs.
    Further, I would appreciate hearing their thoughts on how they see 
the Federal Government acting more as a partner with our States and 
communities; especially those trying to comply with Federal water 
quality standards.
    Finally, I would like to come out of this hearing with a consensus 
on a number of issues besides just funding, mainly, whether changes in 
Federal regulations are needed in order to make them more reasonable 
and flexible to communities, or whether changes to Federal law are 
needed instead.
    What are we asking our communities to do that doesn't make sense 
and what are the implications of those requirements on the costs they 
are facing? If they make sense, what is fair in terms of who should pay 
for what? How much should the Federal Government put forth and how much 
should States and localities be responsible for? Finally, how do we pay 
for it?
    Mr. Chairman, if we tell communities they have to comply with a law 
that we pass, then we need to give them the means to do it not just 
make a decree.
    We need to seriously look at some of the things that we're asking 
our State and local leaders to do. We need to let them use cost benefit 
analysis, risk assessment and sound science.
    Congress needs to do a better job educating the public on the 
extent of water infrastructure needs in our communities and why it is 
important that something be done to protect public health and well-
being. We need to address the regulations that these communities are 
faced with, and we need to ensure that they have the adequate funds to 
meet their needs.
    Once again, I am pleased to be here this morning and I am eager to 
hear what you have to say. Thank you, Mr. Chairman, for taking the time 
to be with us this morning. I would like to thank our witnesses as 
well, and I anticipate a very lively hearing.

    Senator Crapo. Well, thank you very much, George. You have 
effectively encapsulated exactly what it is that this committee 
is trying to do. For those who are here, I would tell you that 
the committee is looking very aggressively at a major 
reauthorization bill to try to address the very issues that 
Senator Voinovich has raised so effectively. So the input you 
provide for us today will be very helpful as we proceed along 
that course.
    Let me just lay out a few of the ground rules, then we'll 
get started.
    I believe you all have a clock in front of you, right? 
There's one at the witness table. We've asked each of you to 
try to keep your comments--your oral presentation to 5 minutes.
    My experience is that I've rarely had a witness in front of 
our committee who can say everything they want to say in 5 
minutes, so I'm almost certain your time will run out before 
what you have to say will run out, but please try to follow the 
clock.
    When it starts, you know, getting down to that timeframe 
when you've got about a minute left, try to get ready to 
summarize. When it runs out, we'll ask you to summarize your 
testimony and finish it, with the understanding that the reason 
we want to try to keep it at that is we will try to get into an 
exchange with you and you will have the opportunity to say 
things you want to say, and that will give us the opportunity 
to have dialog without running out of time at the end of the 
hearing.
    So I would like to ask you to try to follow the clock. If 
you're like me, you have a hard time remembering to look at the 
clock, so if you do go over very far, I will lightly tap the 
gavel a little bit to remind you to look at the clock.
    With that--are there any other instructions?
    Senator Voinovich. No, that's fine.
    Senator Crapo. With that, we'll proceed, then, with our 
first panel. Our first panel is the Hon. Lydia J. Reid, who is 
the mayor of the city of Mansfield, and the Hon. Robert 
Vincenzo, who is the mayor of the city of St. Clairsville. We 
welcome you both with us.
    Mayor Reid.

            STATEMENT OF HON. LYDIA J. REID, MAYOR, 
                         MANSFIELD, OH

    Mayor Reid. Thank you, Senator Crapo, and thank you for 
coming all the way to Columbus, OH. I think you're going to 
find your trip enjoyable, and I'm sure that Senator Voinovich 
will make it worthwhile. You can see our beautiful statehouse 
and a few of our other attractions.
    Senator Voinovich, thank you once again. I've been with you 
on many of our--I guess we call them battles that we've waged 
over the years, and I remember the Clean Air Act, when we stood 
with Senator Glenn and worked on that several years ago, and I 
appreciate your grasp of what we are going through. Of course, 
with your experience as mayor of Cleveland for so many years 
and as Governor, you understand why we're here today trying to 
protect our citizens from onerous restrictions that none of us 
can afford. So having said all that, I will start.
    I'm here to provide information relating to potential 
required expansion of our wastewater treatment plant in 
Mansfield. The service area includes 55,000 people, along with 
business and industry.
    Sewer service is provided by a separate sanitary system and 
the wastewater is treated in a wastewater treatment plant with 
a design capacity of 12 million gallons per day before 
discharge to the Rocky Fork of the Mohican River.
    The collection system was originally a combined sewer 
system, designed to carry both sanitary sewage and stormwater. 
In the mid-1980's, it was converted to a separate sanitary 
system. This change from combined system to separate sanitary 
system brought the city under a more stringent regulatory 
regime.
    U.S. EPA regulations are based on the assumption that flows 
in a separate sanitary system will not have a significant 
stormwater component and, consequently, there will be no 
sanitary sewer overflows and no plant bypasses.
    The Mansfield system has no sanitary sewer overflows. At 
the wastewater treatment plant, dry weather flow averages about 
9 million gallons a day. It is processed through primary 
treatment, secondary treatment, and disinfection before 
discharge to the Rocky Fork.
    During wet weather, intermittent flows of up to 18 million 
gallons a day are processed in this way. Above that level, some 
flows are diverted to the 5-million-gallon equalization basin 
for storage and later treatment.
    In extremely high flow situations, the EQ basin, which 
provides better than primary level treatment, overflows. EQ 
basin overflow combines with treated secondary effluent and the 
entire flow is disinfected. So nothing goes into the stream 
that hasn't been treated.
    The total flow meets NPDES, National Pollutant Discharge 
Elimination System, permit limits for concentration. We believe 
that EQ basin effluent alone meets NPDES permit limits for 
concentration.
    Our NPDES permit is about to be renewed by Ohio EPA. It 
appears that Ohio EPA is seeking requirements in the permit 
that would require a plant expansion, even though we currently 
meet concentration limits at all flow levels.
    Given the high quality of our effluent and given the many 
competing demands for our municipal resources, we do not 
believe that we should be required to provide any additional 
treatment unless it is necessary.
    Our sewer rates average over $300 per year per hookup. 
That's per household. This is a level that U.S. EPA recognizes 
as sufficient to properly maintain a system. At this point, we 
are not certain what our renewed permit will require. A number 
of factors will influence our permit renewal and the cost of 
implementation to our ratepayers.
    Currently, the U.S. EPA is working on two main issues that 
could affect our permit. The first is the draft sanitary sewer 
overflow regulation that was signed by former Administrator 
Browner in the last days of the Clinton administration, but not 
published in the Federal Register. It is being re-examined by 
the Bush administration.
    Among other issues, the preamble to the draft sanitary 
sewer overflow regulation requested comment on the level of 
treatment required for flows reaching the wastewater treatment 
plant.
    I see I'm running out of time, so I'll get down here to the 
bottom.
    We ask that you continue to monitor these issues both in 
the regulatory process and through confirmation hearings for 
the U.S. EPA assistant administrator for water.
    If unsupportable determinations are made by the U.S. EPA, 
we would like to discuss with you options that may be 
available.
    If rule interpretation continues in its current direction, 
then the city may be on a path with EPA to spend tens of 
millions of dollars to provide additional treatment for 3\1/2\ 
percent of total annual flow to the wastewater treatment plant 
in order to eliminate less than 10 annual EQ basin overflows, 
which are currently meeting all NPDES permit concentration 
requirements.
    Again, I'd like to thank you for your interest in these 
matters, and to simply say that we are doing everything that is 
necessary and more. The water going back into the Rocky Fork is 
cleaner than the water already in there. To spend another $10 
million to take care of that 3\1/2\ percent is ludicrous and 
wasteful. Our system's got better things that we need to spend 
the money on.
    Thank you both for your attention, and I'm just about out 
of time. I've got 30 seconds. Thank you.
    Senator Crapo. Thank you very much, Mayor. We appreciate 
that.
    Next, Mayor Vincenzo.

           STATEMENT OF HON. ROBERT VINCENZO, MAYOR, 
                      ST. CLAIRSVILLE, OH

    Mayor Vincenzo. Senator Crapo, Senator Voinovich, Members 
of the committee, I wish to express my appreciation for 
allowing me to appear before your committee, testifying on 
behalf of our small city's problem concerning our 
infrastructure.
    St. Clairsville is a city of 5,100 people on the eastern 
side of the State, 10 miles from Wheeling, WV. We're located in 
Belmont County, one of the highest Appalachian counties. Our 
city is largely residential and service based. We are in the 
county seat. The largest retail area in mid-eastern Ohio is 
located on the eastern edge of my city.
    In the early 1980's, the city took advantage of the Federal 
EPA's 75 percent grant to build our main wastewater treatment 
plant, a 950,000 gallon-per-day average design. We also 
rehabilitated sewer lines in the effort to limit infiltration 
and inflows. The latter has been largely a failed effort.
    Although we've repeatedly tested for and eliminated inflow, 
we still have a tremendous amount of infiltration problems 
because our flow increases five-fold during wet weather.
    Our old clay lines dating back to the 1920's act as a leech 
field collecting subsurface drainage. This causes flooding of 
the pump stations, the plant, and resident's homes.
    In 2002, we will bid the replacement of four pump stations 
and 5,200 feet of lines, only 3 percent of our total, with an 
estimated cost of $600,000. In performing this upgrade in the 
1980's, we achieved one of the highest wastewater rates in 
Ohio.
    About 4 percent of our current department budget goes to 
debt service. According to the most recent OEPA statewide rate 
survey, issued in February 2001, for the 1999 calendar year, 
St. Clairsville's rate was in the 33d percentile.
    Just after that study was published, the city boosted its 
rate another 7 percent in August 2000. If that number is 
factored into the OEPA survey, our rate is in the 12th 
percentile out of 444 systems reporting.
    As a side note, customers take a double hit in that we are 
in the top 10 percentile in water rates statewide.
    Additionally, while we are one of the highest rates in the 
State, our community is in the bottom third of the personal 
wealth. As these numbers indicate, St. Clairsville has taken 
steps itself by paying much of its own way. We have a 
competitively strong system, but our residents have a high rate 
burden. To fulfill our needs, the rates will go even higher 
unless there's some infusion of outside capital.
    Ohio's Public Works grants have helped, but the 
effectiveness was diluted when the State allowed these funds to 
be used for road resurfacing and tailored the grant point 
system to rank these politically popular projects higher than 
wastewater projects.
    Our wastewater rates constitute about 2 percent of 
household income. We do not believe we can push them much 
higher.
    Briefly, our current needs include: First, flow 
equalization to prevent system surcharging, flooding, during 
storms; second, pump station and lift replacement; third, 
hydrogen sulfide control, and this gas occurs naturally and 
destroys concrete and structures in the collection system; and 
last, relocation or expansion of our city's second plant, a 
90,000 gallon per day designed structure that is at designed 
capacity.
    Relocation would allow us to move this plant from a 
congested area and extend service to an underserved area. In 
St. Clairsville's experience, expansion of wastewater treatment 
definitely yields new development.
    These above needs total about $10 million for this basic 
utility.
    We do not criticize the requirement for clean water, we 
support that. We do feel that the EPA's focus should be on 
communities meeting their permit limits and should not be 
micromanagement type control of plant operations.
    Instead, EPA should focus on the discharge quality and not 
on regulating the specific increments of the process used to 
reach that quality.
    The EPA was very helpful in assisting the city technically 
in solving a difficult treatment problem, which has stymied 
various engineering consultants. The work of the Ohio EPA 
solved the treatment problem and resulted in a nationally 
publicized technical paper to help others.
    So what help do we need? Our answer is one you've probably 
heard too often. More money. We've dedicated our own resources 
to improving our systems, and we've taken the unpopular steps 
of pushing our rates to the limit. Our residents have 
shouldered the burden of support, but to restore these systems 
will take resources beyond that which we currently have or will 
have.
    I'm aware that there's not an instant solution for our 
situation. However, I'm very appreciative of your concerns to 
conduct this hearing for some positive feedback, and I'm very 
pleased to have an opportunity to testify before your committee 
to provide additional insight to the plight of small cities and 
villages.
    Thank you very much.
    Senator Crapo. Thank you very much, Mayor. That was very 
good timing, too. One second to go.
    Mayor Vincenzo. With a little practice.
    Senator Crapo. I notice these clocks count back up when it 
gets to zero. So for the other witnesses, if you happen to see 
the red light on it, that's already the time you've used up 
that you shouldn't have. I'm starting to understand the system 
here.
    I'm going to ask Senator Voinovich if he would ask the 
first round of questions.
    Senator?
    Senator Voinovich. Your major problem today is this 
additional treatment facility. You're going to have to meet new 
requirements for the overflow from a holding basin, when you 
have an incident of a storm, which is six or seven times a 
year.
    Why are you being required to put in this additional 
facility, and what is it based on, and the cost--roughly the 
increase in cost to your people.
    I guess the last thing I'd like you to comment on would be, 
I was not aware of these regulations that are being considered 
right now and I'd be interested in your opinions about those 
regulations.
    Mayor Reid. Well, first of all, we are in the process of 
negotiating a new NPDES permit, and this is the year that we 
will probably finish. We've been negotiating with the EPA on 
this permit for approximately 2 years, and one of the things 
that we have encountered all the way through this process is 
their concern about stormwater overflows. We went through an 
extensive, renovation process, and spent millions of dollars 
to----
    Senator Voinovich. OK. One of the things I'd like you to 
clarify is stormwater overflow.
    Mayor Reid. Right.
    Senator Voinovich. Basically means that this is water 
that's generated during a storm that goes into the holding tank 
or the holding basin? Or are we referring to stormwater 
overflow as that which the basin isn't able to handle and 
just----
    Mayor Reid. Right. We've spent $10 million to separate our 
sewers, our downflows from houses, et cetera, and make sure 
that we still have separate systems. When we have heavy 
rainfall resulting in high flows in the sewer, we usually treat 
everything. I think the EPA misconception comes in, because we 
do treat everything.
    When we have a major storm, the combined sewage and 
stormwater flows over into the EQ basin, and all but about six 
times per year it receives full treatment.
    Senator Voinovich. But, again, the EQ basin----
    Mayor Reid. Equalization, yes----
    Senator Voinovich. Is that your stormwater, or does that 
include sanitary?
    Mayor Reid. That is stormwater and sanitory flow combined.
    Senator Voinovich. So you have--your town, have you a 
separate system, separate sanitary, separate sewers----
    Mayor Reid. Right, but stormwater can get in the sewers.
    Senator Voinovich. The sanitary is treated during a storm, 
you deal with that?
    Mayor Reid. Right, we treat storm and sanitory together.
    Senator Voinovich. But what you're talking about is 
stormwater that would ordinarily go into your plant and be 
treated is now, then, put over, in a storm, into the holding 
basin, and in many situations, the holding basin isn't adequate 
to take care of it and that overflows into something else?
    Mayor Reid. Right.
    Senator Voinovich. And you're being asked to deal with 
taking the water from the storm that goes into the basin 
because it's not adequate in terms of the regulation----
    Mayor Reid. That's exactly right. I have Mr. Angelo 
Klousiadis here, who is the plant manager, and he can give you 
the nuts and bolts.
    Mr. Klousiadis. Yes, if I could, thank you.
    What we have is infiltration due to the age of the system, 
and when you get a heavy storm event, some of the stormwater 
infiltrates into the system. Even though it's a separate 
system, you get a lot of rainwater.
    What happens is all of that infiltrating stormwater then 
combines with the already existing sanitary sewage and comes 
into the plant. The plant's designed to handle up to 18 million 
gallons through the normal operation. Anything above that rate, 
18 million gallons-per-day rate is diverted over to the EQ 
basin that slowly starts to fill.
    If the storm event is short, we bring all that water back 
into the plant when the flow starts to abate. If it continues, 
and it overflows the EQ, that overflow is a combination of 
stormwater and sanitary sewage.
    But, again, that overflow has already had primary settling, 
some aeration and full disinfection. So it is partially treated 
and then that overflow comes into combination with the existing 
treated effluent of the wastewater plant, and the junction 
where those two flows come together is monitored. At that 
point, all the NPDES permit concentration limits are met.
    We've never had a violation at that point. Any violation 
the plant's ever had, which is three violations out of the last 
15 months, has been at the effluent, where the fully-treated 
sewage is discharged. So the wet weather EQ overflow has never 
resulted in violation.
    Senator Voinovich. But the storm overflow could include in 
that holding basin--you could have some sanitary waste?
    Mr. Klousiadis. There is.
    Senator Voinovich. That's because of the fact that you have 
this--the problem that Mayor Vincenzo has, the sewer system is 
so old that the water ends up going into the sanitary system?
    Mr. Klousiadis. Most systems would have that, Senator, 
because you have a lot of manholes. During heavy rains, it'll 
naturally come into your sewer.
    Senator Voinovich. Basically what you're saying, under the 
current setup, you think you're doing things adequately and 
that the water--the effluent that goes into the creek is higher 
quality than what's in the creek?
    Mr. Klousiadis. Correct. The permit limits were based on 
what the aquatic life of the creek and human health 
requirements could support.
    Senator Voinovich. So you'd like the regulation to be 
revisited?
    Mr. Klousiadis. That's correct. We would like to be able to 
say that if the water leaving our treatment plant during normal 
operation is good enough to enter the creek without creating a 
problem, then why should the combined, if it still meets those 
same concentration numbers, create a problem.
    Senator Voinovich. OK. The cost of it is roughly--you were 
talking earlier and said $10 million if you go to overflows.
    Mr. Klousiadis. That's hard to determine, yes.
    Senator Voinovich. Could you say conservatively, if you 
build--you're saying $300 a year. If you--conservatively, if 
you build this, you ascertain it would probably cost the 
citizens about $600 a year?
    Mr. Klousiadis. I think that's a very fair estimate.
    Senator Voinovich. And could be more?
    Mr. Klousiadis. It could be more. Because along with that, 
additional improvements to the collection system may be 
requried.
    Senator Voinovich. In terms of the environment, your 
position would be that you're treating the water at high 
quality, that you're returning it into the--you're getting rid 
of the chlorine and all the other stuff and you're turning it 
into a stream that--whose quality is less than what--the 
effluent that you're putting into it?
    Mr. Klousiadis. Yes, sir.
    Senator Crapo. Could I ask a few questions on this line 
before you go on to the next situation?
    Senator Voinovich. Go ahead.
    Senator Crapo. It seems to me, from what I'm hearing here, 
that the water--if you do have to make the changes and do the 
$10 to $20 million additional reforms of the system, the water 
you're putting back into the creek or to the river will not 
necessarily be any cleaner; is that correct?
    Mayor Reid. Not exactly. What we're putting in the river 
now is better than what's there already and meets permit 
concentration limits. If we have to provide even more 
treatment, it will waste public resources.
    Senator Crapo. Is there any issue with regard--if you know, 
is there any issue with either the Ohio EPA or the U.S. EPA 
with regard to whether the existing standards, which you do 
meet, are adequate?
    It's my understanding that everybody believes that these 
standards are now the standards we desire to achieve, and if 
they are adequate--do you have any different understanding?
    Mr. Klousiadis. The concentration limits that we have are 
those which are set by Ohio EPA and, again, are very 
conservative and are based upon what that stream can support to 
not create any pollution or risk to the aquatic life. We're 
meeting that, and we would never ask to increase them.
    All we're saying--there is another aspect to consider, and 
that's called load. During the times that you discharge into 
these streams, you usually have higher volumes of water in the 
stream itself, due to the storm. So the impact of the effluent 
is significantly less. There are now some people that are 
looking at load and what the stream can handle and asking 
whether there should be a tiered effluent limit.
    We're meeting the standard which was set by EPA for 
concentration, yet we're being told to clean it up more. That's 
what I'm saying, we don't know where that more ends.
    Senator Crapo. Thank you.
    Senator Voinovich. You're a small town?
    Mayor Vincenzo. Yes, sir.
    Senator Voinovich. Do you have any idea of what your 
average person pays a year in rates?
    Mayor Vincenzo. Well, yes, I can tell you, Senator, the--
for 8,000--to treat 8,000 gallon of sewage, and also to treat 
8,000 gallons of water--and our sewage rate is based on our 
water consumption, each is identical and is $43.60 each for 
8,000 gallons of water and 8,000 gallons of sewage. So that 
leaves a total monthly bill, just for 8,000 gallons, over $87 a 
family.
    Senator Voinovich. You're talking about 80 bucks, about?
    Mayor Vincenzo. Eighty-seven bucks a month.
    Senator Voinovich. So you're talking $90, close to $90?
    Mayor Vincenzo. Yes, that's a thousand and--$1,080 a year, 
just for 8,000 gallons a month consumption of water and sewage 
treatment.
    Senator Voinovich. Then you said the average was 2 percent 
of the income of the people who live in your area?
    Mayor Vincenzo. That's about 2 percent of the income.
    Senator Voinovich. Do you think that there should be a 
special program--well, let's ask you this first question: Are 
you being required to do some things right now that you're not 
doing based on new regulations, or is what you're being 
required just to meet the current standards?
    Mayor Vincenzo. Yes, we're being required--as I mentioned 
earlier in my report, we have 13 sewage lift stations, pump 
stations, that go into forced mains, and we're being required 
to rehabilitate these 13 lift stations, and almost all require 
some type of maintenance.
    The four--we're doing four right now that are under bid for 
the year 2000, and these four will constitute $600,000 to rehab 
four of our 13 lift stations. We've done this with an Ohio 
Issue Grant, with the city supplying over $150,000 of our own 
money for this grant that will total $600,000. That's just to 
do four stations.
    Senator Voinovich. But the question is this: You're doing 
that to meet the current standards?
    Mayor Vincenzo. To meet the current standards.
    Senator Voinovich. It's not any new regulation coming from 
Washington, this is a question of an aging infrastructure that 
needs to be repaired in order to just maintain the current----
    Mayor Vincenzo. Correct. These four stations that we're 
currently doing now are the worst, and they are almost out of 
operation.
    Senator Voinovich. So the point is you've got two problems 
here. I think that's real important that I think the committee 
understands.
    We have an aging infrastructure problem in many places in 
the country. Some of it is probably still from what we built 
from back at the end of the early 1970's, and so forth, some of 
those have deteriorated. That's one problem.
    Then you have another problem, Mayor Reid's problem, 
they're asking the new regs to even go more than that.
    Mayor Vincenzo. Yes.
    Senator Voinovich. But your problem, basically, is just 
with the infrastructure?
    Mayor Vincenzo. Well, we have----
    Senator Voinovich. I mean, to maintain----
    Mayor Vincenzo. Yes, besides that, our storm sewer water is 
also definite--has a definite impact on our sewage system which 
does flood our plant from time to time because of the 
infiltration. Our system is not unique. We do have a separate 
stormwater and sewage wastewater system.
    Our stormwater builds up so much pressure during the heavy 
downfalls that it is aging also and it will force itself into 
our sewage--our wastewater lines that will also create 
tremendous pressure and will lift manhole covers during heavy 
downfalls.
    Now, these areas, of course, are in residential areas that 
would require a massive rehab job to replace both equally storm 
sewers and wastewater lines.
    But also there's a mandate coming from the EPA at this time 
that we are to be directing toward stormwater treatment that 
will be coming into our area, also, which will be another 
considerable mandate that we'll have a struggle to work 
through.
    Senator Voinovich. OK. Because I've got legislation right 
now that authorizes the safe--the Water Revolving Loan Fund, 
working with about a million, $350 million, $15 billion. Those 
are loans. But there really isn't any grant program to the 
communities. Senator Crapo is responsible for amending the 
authorization bill to provide, I think, a $1\1/2\ billion for 
grants. We're trying to get this administration to put $750 
million in their budget.
    By the way, in their initial budget, even though it was a 4 
percent increase, there is now--there isn't the money to fund 
even the current funding of the revolving loan fund. They put 
in about $850 billion instead of 1.3\1/2\, and they put in 
about $450 and a million into the grants program.
    So you're going to have to lobby very hard to make sure 
that that then gets upped.
    Then the next issue is how do we deal with this thing over 
a longer period of time. But would you--I'll finish with this 
question to you, Mayor. You're not able to handle this by 
yourself?
    Mayor Vincenzo. Definitely. Definitely not.
    Senator Voinovich. And your water goes into the Ohio River?
    Mayor Vincenzo. Ultimately, yes. Yes. We have--I think, if 
I'm not mistaken, I could be corrected by my service director, 
I think we're presently dumping our stormwater into about four 
different streams, and our wastewater into two different 
streams--I'm sorry, one different stream at this time, which 
ultimately ends up in the Ohio River.
    Senator Voinovich. OK. One piece of good news, the Ohio 
River's quality report is better than it's been, but you still 
can't go swimming in it.
    Mayor Vincenzo. Yes.
    Senator Voinovich. Thank you.
    Senator Crapo. We want it to be fishable and swimmable and 
drinkable, right? Mayor Vincenzo, what is the population of 
your town?
    Mayor Vincenzo. Five thousand and one hundred people. We 
just made the census.
    Senator Crapo. Just like a lot of towns in Idaho. I'd like 
to follow up on one of your aspects of testimony that really 
struck a cord with me. It's one of my own pet peeves, if you 
will, and that is you indicated in your written testimony, and 
in what you presented to us today, that it's your belief that 
EPA's focus in terms of administration of the environmental 
laws, at least these environmental laws, should be more on 
discharge quality rather than micromanagement of the systems 
that get you to what is discharged in the end.
    This is a debate that we've been having in Washington now 
for at least the last 9 years, since I started in Congress.
    I can just tell you that when I served in the House, I was 
put on an environmental task force by our House leadership to 
try to figure out a new approach to addressing environmental 
issues in the country, and one of the things we talked about 
there was whether we should move from the micromanagement 
approach that we now have at the Federal level to one in which 
the Federal Government sets the standards for water quality or 
air quality, or whatever the case may be, and says this is the 
quality of environment that we seek to have and will establish 
by law in the United States, but then let the statutes and the 
local communities and the local government authorities figure 
out how to meet that standard.
    Instead of Washington having a one-size-meets-all-cookie-
cutter solution that many of us believe often causes more 
problems and costs a lot more money and doesn't necessarily 
reach the quality of cleanup that we could achieve, we'd 
probably have hundreds of different approaches, and the best 
ones would rise to the top and communities around the country 
would be able to watch what each other does and find what 
works.
    I assume that that's the kind of approach that you would 
support, but I'd like to ask your comment on that.
    Mayor Vincenzo. Well, yes, I'm very glad that we are back 
to revisit that statement I made.
    We have some of the most qualified people in our department 
in the water--wastewater program, and they are very capable to 
deliver the quality of water on the other end of that plant 
without any other standards brought into us that just makes us 
jump through hoops, doesn't really accomplish anything more, 
except to put an additional equipment that sometimes does not 
solve the problem to come out with that water to be equal--to 
be quality water at the end.
    We just feel that a lot of the mandates have been given to 
us to accomplish this, we've already been accomplishing it, and 
our standard at the other end--at the discharge has not 
increased any differently than what we've been doing all these 
other times before we've had to modernize and to put in 
additional equipment that didn't provide any better discharge 
at the end.
    Senator Crapo. Mayor, all of the discharges from your city 
meet the necessary standards, though?
    Mayor Vincenzo. Yes, it does. It does. If that quality 
falls below that, then, of course, the EPA right away is in on 
us to post our discharges as to a violation. So, you see, our 
testing is done regularly and they are receiving our testing 
monitor regularly.
    Senator Crapo. When you're found in violation, do you have 
to pay fines?
    Mayor Vincenzo. There was, I believe--Mr. Bigler, did we 
ever assess the personal fine?
    Mr. Bigler. No.
    Senator Crapo. That's good news. I'm going to ask you a 
question. You might find this question surprising, but I'll 
explain it after I ask it.
    Do you and the people of your city want to have clean 
water?
     Mayor Vincenzo. Yes. Oh, definitely. Definitely.
    Senator Crapo. You just told me that you have good, 
competent people that are there who are capable of meeting the 
national standards that you've been----
    Mayor Vincenzo. Yes.
    Senator Crapo. The reason I ask that question, in the 
debates we have in Washington, when many of us say we should 
have national standards but let our cities and counties and 
States figure out how to meet those standards, the response 
we're often given is that the cities and counties and States 
won't do it. They don't want to do it. We have to have the 
Federal Government make them do it, or that they can't do it, 
they don't have the ability to do it, so we have to have the 
Federal Government step in and show them how.
    What do you think about those responses?
    Mayor Vincenzo. Well, that--I guess that could be a 
possibility. I mean, I think you know our society is such that 
we have rules that a lot of people will follow--most of the 
people will follow the rules and other people won't, and that's 
perhaps the reason we have prisons in our States today, because 
of that.
    But also the fact that there are some communities, perhaps, 
that aren't able to do this, but what I'm saying, I believe 
that the final discharge, which should be the decision that the 
EPA would make, to say, ``Well, St. Clairsville's doing a 
commendable job, therefore we don't see a reason to come in and 
to change their method''.
    If another city is not doing that, then I think it would be 
the ideal situation for the EPA to then come in and say, you're 
not meeting your violation, therefore, you're going to have to 
put this system in to make sure that you're going to be doing 
this.
    Senator Crapo. In other words, have the micromanagement if 
you have a case in which it's established that the government 
entity responsible cannot or will not meet its responsibility?
    Mayor Vincenzo. Definitely. Definitely.
    Senator Crapo. Mayor Reid, you just listened to this line 
of questioning. Would you like to comment on any aspect of it?
    Mayor Reid. Well, certainly I know that we have very 
qualified people, and I've got one of the top guys right here. 
We believe that we want the best possible water for our 
citizens. We all want that. Whether some cities are capable of 
doing that--again, I agree with Mayor Vincenzo, I think that if 
the regulatory agencies see that you aren't meeting the 
standards set forth in your permit, and you continuously can't 
meet those standards, then obviously big brother's got to come 
in and tell you that you have to do something different.
    But when we always have met the concentration standards of 
our NPDES permit, I do not understand why the EPA doesn't go 
micromanage somebody that has problems.
    We are doing an incredible job. We have wonderful water. We 
even sent our drinking water in to try to win the National 
Mayor's Association Best Water in the United States. We take 
pride in our water. I think that, you know, there are only so 
many resources to go around, and if you could take that 
resource and direct it toward an area that needs it and leave 
us the heck alone, because we're doing a great job, then I 
think that's proper. I totally like your line of thinking, 
Senator Crapo. That is just exactly what we say.
    Senator Crapo. Thank you. I'll just conclude my questions, 
then, if you want to ask----
    Senator Voinovich. I'm finished.
    Senator Crapo. I just want to note in one part of your 
written testimony that you didn't have time to get to, you 
talked about the fact that the U.S. EPA recombination on flows 
is being re-evaluated now and hasn't been finalized, and I 
noted one of the things that's under consideration is whether 
the permit issuing authority, NPDES authority, which in this 
case would be Ohio EPA, would have the flexibility to address 
some of these issues and to allow the elimination of some of 
the micromanagement as long as the objectives were being 
achieved.
    I was pleased to see that, and I'll tell you I'm going to 
go back and a talk to Christine Todd-Whitman, and some of the 
others involved there, and see if they can hurry up this 
evaluation and come out with a more flexible approach so we can 
have more involvement at the State and local levels.
    Mayor Reid. I appreciate that very much, Senator. Because 
the Ohio EPA has been very good to work with. Generally, the 
problems we've had over the many years I've been in government, 
the Ohio EPA is on our side. They try to help us all they can, 
but then they run smack up against the Federal regs. It seems 
like the fed guys are--they've got this hard set of standards 
that are sometimes impossible. I don't know if they sit in an 
office somewhere and dream these up, but the Ohio EPA's down 
here in the trenches. They know what's realistic and what's 
not. I think Chris Jones will tell you the same thing.
    Senator Crapo. Just to kind of give Chris an opportunity to 
know where I'm headed, that's one of the questions I'm going to 
ask them. I know in Ohio, we see them doing things that in my 
opinion, is nuts, and when I get an opportunity to talk them in 
these kinds of forums, I ask them about that, and almost every 
case, their hands are tied. They're doing what they have to do.
    Mayor Reid. Exactly.
    Mayor Vincenzo. Exactly.
    Senator Crapo. One of the problems, to create the 
flexibility and do so in a way that does not jeopardize the 
quality of our environment. I think we can do it.
    All right. We thank you both for your attendance here, and 
your input is going to be very helpful to us.
    Mayor Vincenzo. Thank you very much, Senator Voinovich and 
Senator Crapo.
    Senator Crapo. I forgot to announce to those of you who may 
have seen the schedule, we're going to break this into three 
panels instead of two panels, and the way we're going to do 
that is we're going to ask--and I guess--I better get this 
right. Yes, Chris Jones. We're going to ask Chris to come and 
do a panel all by himself.
    Chris is the director of the Ohio Environmental Protection 
Agency for the State of Ohio.
    We will then have the remaining four witnesses in the last 
panel. I forgot to announce that, and I apologize.
    But, Mr. Jones, we appreciate you coming here today, and we 
look forward to your testimony, and I think we'll have a very 
interesting dialog as we evaluate the issues. Please proceed.

    STATEMENT OF CHRIS JONES, DIRECTOR, OHIO ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Jones. Thank you, Senator Voinovich, Chairman Crapo, 
and thank you for allowing me to speak about the wastewater 
needs in Ohio communities. Those needs are great and the 
resources to address them are not currently adequate.
    The Clean Water Act has brought about tremendous 
improvement in the quality of Ohio waters. By mandating control 
of point source discharges, including sewage treatment plants, 
the Act has enabled many streams to recover from low oxygen 
conditions, excess phosphorus discharges, and other 
degradation.
    There are many dramatic examples of the results, most 
notably, perhaps, the renaissance along the banks of the 
Cuyahoga River in Cleveland and the resurgence of Lake Erie as 
a world-class fishing destination. I understand that Senator 
Voinovich may be planning some fact-finding missions to the 
lake this summer to confirm for himself that the walleye and 
perch are really biting.
    Senator Crapo. He may have to invite me back.
    Mr. Jones. In the 1970's and 1980's, as has been mentioned, 
many of the infrastructure projects that enable water quality 
improvements throughout the State were funded through the 
Federal Construction Grants program, which provided 75 percent 
of the cost of the sewage treatment infrastructure mandated by 
the Clean Water Act. As you know, that was converted to a low-
interest loan program administered by the States.
    The State Revolving Loan Fund program is currently due to 
be re-authorized, and I know that Governor Taft has written you 
to express his strong support for your bill to do that, Senator 
Voinovich.
    We are particularly pleased that S. 252 would double the 
current level of funding to $3 billion a year over 5 years. If 
enacted by Congress and signed by the President, it will 
greatly assist communities in Ohio and throughout the Nation 
with the construction, expansion and improvement of sewage 
treatment facilities.
    However, even doubling current spending will not adequately 
meet the mandates in the Clean Water Act. I'd like to briefly 
outline the needs in Ohio, and then suggest two areas in which 
targeted resources are particularly needed.
    Ohio EPA is in the process of updating the Clean Water 
Needs Survey, which we do every 5 years in cooperation with the 
U.S. EPA. Unfortunately, our results for this year aren't in, 
so I'm going to give you some figures based on 1996, and I've 
included a summary with my testimony. We hope to have more 
current numbers by the summer.
    In 1996, the infrastructure need in Ohio, according to the 
survey, was $7.4 billion. That can be further broken out as 
follows: $1.1 billion for wastewater plant construction and 
improvement; $900 million to repair existing sewers; $900 
million for construction of new sewers; $97 million for 
stormwater controls; $198 million for non-point source 
pollution abatement; and $4.2 billion for combined sewer 
overflow elimination.
    Obviously, combined sewer overflows that account for more 
than half the infrastructure needs in Ohio, and even with the 
dramatic increases in low-interest loan dollars, the burden is 
too much for many communities.
    There are 92 Ohio communities with combined sewers, and 
they range from the largest of our cities--such as Cleveland, 
Akron, Toledo, Youngstown and Cincinnati--to very small 
communities, like Van Wert and Lisbon. In fact, a total of $16 
million for CSO controls is needed in communities with fewer 
than a thousand residents.
    As an example, Port Clinton, a northwest Ohio town of a 
little more than 7,000 people, has completed a combined sewer 
system long-term control plan. The plan recommends improvements 
over the next 5 years of between $8 million to $14 million. 
Port Clinton's annual average sewer rate is now $566, which is 
77 percent higher than the State average.
    To pay for the improvements, in today's dollars, the 
average sewer bill will increase to $846 in 2004, and $1,132 in 
2010. These projections already include a $1.5 million grant 
expected in 2002 as part of a previous budget bill.
    The second area where Ohio would like to see targeted 
Federal grants is to provide sewers in low-income areas where 
failing septic systems are causing public health concerns.
    It's difficult to believe that in the year 2001 in the 
United States, people are living with raw sewage in the back 
yard, in the drainage ditch, or in the creek. But it's true in 
far too many communities.
    The 1996 Clean Water Needs Survey identified 199 areas in 
Ohio with high densities of failing on-lot septic systems, a 
number we believe significantly understates the real need. We 
are attempting to gather more accurate information in the 
survey that is ongoing now.
    Exposure to drainage from failing systems threatens public 
health, but the threat doesn't end there. Pooling effluent is a 
breeding ground for mosquitos, which carry encephalitis, 
including the form known as West Nile Virus. We expect to see 
that virus this year in northeast Ohio.
    I'm already over my time limit and I have a lot of 
recommendations. I would like to make three real quick ones, 
and they address some of the questions you asked, Senator.
    First, State primacy needs to mean State primacy. The Clean 
Water Act should explicitly articulate minimum standards that 
States must meet, and then delegate the program. Once a State 
is awarded primacy, there should be no independent Federal 
presence unless the State fails to perform its obligations.
    Second, U.S. EPA needs a better grant program. Under the 
Federal Clean Air Act, we have one grant for programs. Under 
the Clean Water program, we have several grants, and we spend a 
lot of time and money just tracking the money. That money could 
be spent on programs.
    The last point: we need to recognize that when everything 
is a priority, nothing is a priority. We have right now U.S. 
EPA pressing us, and ultimately these people behind me, to move 
forward on all fronts. We're talking about industrial permits 
that need to be updated every 5 years, sewer overflows, 
stormwater, wetlands, coastal areas, stream uses, and we don't 
have adequate funding for any of them. So we're trying to do a 
little bit of everything and not enough of anything.
    I've also included all the recommendations, and I'm sure we 
can get to them.
    Senator Crapo. Thank you very much, Mr. Jones.
    Senator Voinovich.
    Senator Voinovich. I'm interested in the issue of setting 
minimum standards and then giving the authority over to the 
States to run the program.
    It's very difficult to get the Federal EPA to do that, 
because as Senator Crapo said earlier, too many people in the 
agency and, frankly, too many people in Congress don't believe 
that people on the State and local level care as much about 
clean water and the environment as they do.
    We just went through that recently with the groundfills, 
and Senator Crapo helped me with my amendment to try and give 
more certainty and more to the States. But there was strong 
opposition in our committee for that, because they wanted the 
Federal Government to micromanage this operation.
    So this type of attitude just flows throughout the agency. 
No matter what issue it is, they are very reluctant to give up 
any of their controls. I'm interested in your commenting a 
little bit more about those areas where you feel that they're 
too intrusive and ought not to be involved.
    Mr. Jones. Senator Voinovich, I couldn't agree with you 
more. The automatic response is that there will be a race to 
the bottom, and I just don't believe that that's the case. I 
can cite all kinds of statistics about what the States are 
doing.
    I think there's been a dramatic change. Seventy percent of 
all the Federal statutes are now delegated to States. Depending 
on how you count that, over 90 percent of the enforcement 
activities are done by the States now. I think that statistic 
all by itself tells you that we're not interested in walking 
away from the problem. In fact, we will take the enforcement 
actions that we need to.
    It can be simple things, Senator. For example, we're 
required to renew permits every 5 years under the NPDES 
program. We spend lots of time doing that on a lot of permits 
where there's no need to do it. Where we have a wastewater 
system that's performing, and is always meeting standards, it's 
a paper exercise but we have to go through it, and it takes a 
lot of time. So we could make 10-year permits instead of 5-year 
permits, and make better use of our resources.
    I mentioned targeting some of the grant money as opposed to 
loan money. Even with the 0 percent loan, in some cases, you've 
still got to pay it back. If your community is at the poverty 
level, you can't do that. We have tremendous rate increases.
    The flexibility that has been discussed before goes to 
bypasses in large measure. It's, in a sense, what gets us into 
micromanagement. For example, where do you count the bypass? 
You have situations--I'm sure you'll hear from Toledo about the 
central internal bypasses, a bypass within the system. We're 
forced to count that as a bypass, and that's a violation. It 
doesn't really make sense if, at the end of the day, there is, 
in fact, effluent coming out the end of the pipe that meets 
standards.
    There are other provisions. One of the things that I would 
like to see evaluated is what States are doing with anti-
degradation. As you know, Senator, we spend a lot of time, a 
lot of effort, dealing with the anti-degradation provisions.
    When I go to my national meetings, I don't hear other 
States being concerned about anti-degradation. When I mention 
it, because it's been so difficult for us as an agency to deal 
with, it's not even on the radar screen. This tells me we're 
doing something really wrong, or everybody else isn't really 
following the law. The goals of anti-degradation make a lot of 
sense.
    Senator Voinovich. Can you explain that a little bit more.
    Mr. Jones. Sure. Anti-degradation essentially says in order 
to continue to make progress toward the fishable, swimmable 
goals, we need to keep clean waters clean. That is, we should 
not allow for further degradation. In fact, we should improve 
waters that are impaired. That's a laudable goal. That's a goal 
we all share.
    But what has resulted is a tremendous exercise in 
alternative analysis that is costly just to get through the 
permit process. In many cases, a huge number of cases, you end 
up back where you started from in terms of what you wanted to 
do to improve your system.
    So we have a fundamental question, does the anti-
degradation provision work? Is it actually improving water 
quality?
    A simple analysis of what States are doing with respect to 
the anti-degradation review, and is it having a real impact on 
improving water quality and maintaining clean streams, I think 
would be a real benefit to everybody.
    Earlier, I mentioned briefly block grants. We have separate 
grants for almost all of our individual water programs, whether 
it be wetlands or large wastewater operations. Simplifying the 
grant process will save us a lot of money and make us able to 
use that money creatively, if we don't have to track every dime 
15 different ways from Tuesday.
    I think that, again, goes to Senator Crapo's comment about 
micromanagement. If you believe that you can't trust us with 
the money, you're going to watch every dime that you give to 
us. If in fact, you believe we will try to improve water 
quality, you're going to give us a lot of grants, and we in 
Ohio can best figure out how to use those dollars.
    We're right in the middle of a budget debate right now in 
this State, and we're looking at options for cutting back on 
some of our programs.
    The last one I'll mention is the TMDL program, total 
maximum daily load. What are the loads to a stream and where 
can we go from here? We have a fairly active program in Ohio, 
but what we're really trying to do through our 319 grant 
program, and others, is to involve the community to create 
situations where there's a community investment in the 
solutions.
    There's not a lot of command and control that goes with 
TMDL and non-point discharges. We don't want that. The last 
thing we need for this kind of impact to streams is a command 
and control system.
    To make it work, it's going to take watershed groups, 
locals who have an investment in the stream, to come up with 
their solutions to these problems. In some cases, it'll be a 
community that wants to take a dam down. In other communities, 
that dam may have important historical significance for the 
community and they want to do something differently.
    Whether it's Columbus or Washington, if we tell people 
exactly how to do something like that, people don't want to do 
it. Ultimately, you don't get the kind of water quality 
improvement they'd really want.
    I'm sure there's folks behind me that will tell you even 
more specifics of where they've had a problem, and it's 
ultimately my staff telling them, ``You have to do it this 
way.'' For me, it's never a satisfactory answer, when we have 
to tell them in response to their question, ``Why?'' ``Well, 
because the feds are making us do that.'' It makes no sense. It 
never makes sense. It's ``the feds are telling us do that.''
    Senator Voinovich. Do you have a national group that could 
come back and make recommendations to this committee about 
things that would improve your relationship with the 
Environmental Protection Agency. That would give you more 
flexibility, not waste your time on things that you ought not 
to be wasting your time on and overall achieve a better, 
cleaner water environment, but do it in a way that's so much 
more cost effective than what we're doing today?
    Because I keep hearing about this problem and anti-
degradation and some of these other things, and it's difficult 
for the subcommittee to try and figure out what we ought to do. 
We need a comprehensive report back about things that are there 
that ought not to be there, and share those with Christine 
Todd-Whitman. If there are things that she can't do because of 
Federal regulation, then we can look beyond those regs to the 
Federal law that makes her feel that she has to do those.
    Mr. Jones. Senator, as the Ohio EPA director, I belong to 
the Environmental Council of the States, which is all of State 
counterparts.
    One of the things we did as a result of an amendment in 
last year's budget was to look at the enforcement issue on 
exactly that kind of basis. What are the States doing, what can 
we do better? It, again, gets to primacy. The feds never 
believe that we're doing a good enough job, no matter what we 
do, so we've got an earmark and we did a study on State 
enforcement efforts, which was submitted to Congress.
    I think the same type of thing can occur with respect to 
water issues. We have a very active water committee on ECOS, 
and have done a number of things. One of the things that the 
organization as a whole did was submit an issues paper to the 
incoming administration.
    I'd be happy to get a copy of that to the subcommittee. 
It's not specific to water, but it has a number of 
recommendations.
    If I boiled it down, I think it is the difference between 
being a stakeholder and a partner. If, in fact, we are co-
regulators, that we implement the Federal regulations at the 
State level, we need to be partners, as opposed to just another 
stakeholder of U.S. EPA.
    In Ohio, we have lots of stakeholder groups, and work very 
effectively with many of the people in this room as well, but 
we need to start moving to the next step, which is to move from 
stakeholders to partner, so that when we're trying to implement 
TMDLs in a watershed, it's not Columbus coming to tell them 
this is the way we think you ought to do it, but it's Columbus 
working in partnership with the watershed group, and soil and 
water conservation, and the metropolitan sewer districts to 
come up with the best solutions for the economy.
    When I try to boil this down, that's the difference. Right 
now we're a stakeholder of the U.S. EPA. We should be partners 
as co-regulators with the U.S. EPA.
    Senator Voinovich. Thank you.
    Senator Crapo. Thank you. Most of my questions have already 
been answered either by your testimony or by the dialog between 
you and Senator Voinovich, Mr. Jones, but I just want to 
quickly hit a couple things.
    I really appreciate the recommendations that you've made in 
your testimony, and I can assure you that we will take those 
very carefully into account as we move forward. I especially 
liked the section about making sure that State primacy means 
primacy.
    I assume that you would agree with this, but I want to be 
sure to ask you directly, in terms of trying to move toward a 
system in which the Federal Government sets the standard and 
then lets the States and local communities determine how best 
to achieve it, would you agree with that type of direction in 
our environmental policy?
    Mr. Jones. Absolutely, Senator. In fact, I think that's 
what the model is supposed to be.
    Senator Crapo. I think that's what it was supposed to be, 
but go ahead.
    Mr. Jones. I really think when you look at it, the system 
that allows for these programs to be delegated to the States, 
says we're going to set the standards. The United States is not 
a monolith; the State of Ohio has significant differences 
between the southwest part of the State, the northeast part of 
the State, and the northwest part of the State. We have very 
significant and differing issues to deal with, and we need to 
be flexible.
    Multiply that times 50 States, and the Federal Government 
needs to be willing to say, ``OK, here's the standard, you 
figure out how to meet it''.
    I think that's the way these environmental statutes are 
structured, although not always implemented.
    Senator Crapo. I agree with you. In fact, I think that in 
Washington, we have, in a rather typical way, come up with a 
whole new definition of what delegation means. Because as I 
think you said earlier in your testimony a significant amount 
of the activity in the Federal environmental law is now 
delegated to the States, and they do have so-called primacy, 
and they are administering the Federal programs.
    But what I run into consistently is that behind the State's 
so-called primacy and the State management is the big brother's 
heavy hand at the Federal level, and that the State regulators 
are essentially operatives of those Federal program managers, 
and they really don't have the primacy or the independence to 
make those flexible decisions they have told us they need. 
Would you agree?
    Mr. Jones. I would agree, Senator.
    One of the things that we have created in our agency is an 
assistance unit that many of these folks have worked with to 
try to find those creative solutions to these difficult 
problems. You know, you run into the brick wall.
    I think it's interesting that U.S. EPA, through Project XL, 
always talked about alternatives and creative innovations, 
which are creative and innovative until you submit them for 
approval, at which point, you're not following the regulations, 
and thanks a lot.
    I will tell you, I could improve our water quality tomorrow 
just by the way we look at our water quality data. If we just 
looked at chemical criteria, the number of streams and water 
bodies in this State that meet water quality standards would go 
up.
    But what we've chosen to do is look at the biological 
criteria, look at more than what's just the chemical quotient. 
Now, that causes me some problems with these folks, sometimes, 
because we take a harder look, but it's a more realistic look 
at water quality.
    U.S. EPA has flown our guys all over the country to teach 
people how to do this, but every time we've submitted a rules 
package or asked for biological criteria--because in some cases 
it will cause the chemical number to be higher--they've 
rejected it. So it seemed ironic that they want us to teach 
everybody how to do it, but when we try to put it into our 
rules, we're not allowed to. I think that's sort of the perfect 
example of where you run into that Federal inflexibility. They 
even acknowledge it's a good idea, but they just can't bring 
themselves to allow us to do it.
    Senator Crapo. That's a good example. Before I conclude, I 
just can't resist asking you a question, although it's a little 
bit of a divergence, but you brought it up, the TMDL issue.
    As you're probably aware, we had a tremendous battle last 
year in Congress--in fact, for the last 2 years in Congress--
over the EPA's proposed TMDL rules and regulations, which 
ultimately we ended up delaying once and then delaying a second 
time, in which the EPA is now evaluating, and we'll see where 
they head.
    But at the time when we were evaluating this, the same 
issue came up, the States by and large were handling non-point 
source inclusion through best management practices rather than 
through the new TMDL program. The question that came before the 
committee was whether there was a problem or whether we just 
had a debate over this new regulation that was going to be very 
expensive and divert a lot of resources.
    Do you have an opinion on that? Did we need to or do we 
need to move to a new TMDL program or are the programs that the 
States were administering adequate?
    Mr. Jones. Senator, we do believe that non-point source 
pollution is where the bigger problem is now. We have done a 
pretty good job at controlling the point sources. We've 
ratcheted down discharge limits to where, frankly, you can't do 
much more, short of zero-discharge limits, which are cost 
prohibitive and probably impossible. So, we think you do have 
to go after the non-point sources, agricultural runoffs.
    Having said that, I think the TMDL program, at least in 
Ohio, the way we were developing it, was very much on a 
volunteer basis, essentially best management practices, 
encouraging local cooperative efforts to address some of these 
issues. Our biggest concern with what was approached is we're 
sort of headed back to the command and control.
    In particular, when you're talking about diffuse impacts to 
streams, my view is it won't work.
    When you have a discrete point source discharge, everybody 
knows where it is, and everybody understands that's what you 
have to control.
    When you're talking about runoff impacts to the stream from 
non-point sources, it's not so simple. You start to get into, 
in a sense, some of the social behaviors. You're talking about 
agriculture that has been encouraged probably 50 ways from 
Tuesday in opposite directions, but there are means by which we 
can address some of these problems.
    They won't work if we're just telling people, this is 
exactly how you have to do that. We have to create a system 
that encourages best management practices. Best management 
practices will change; that's the nature of them. But I think 
that's the way we're going to succeed with the non-point 
sources.
    So, yes, there's a need for a TMDL program, but it needs to 
be a cooperative, voluntary one. The rule that was proposed 
last year, I think, is moving exactly in the opposite 
direction.
    Senator Crapo. Thank you.
    Senator Voinovich. That's basically just TMDL, let the 
watershed work come up with it, come back with the 
recommendations, don't force you to try to come in and do it. A 
lot of the communities tell you you don't have the staff to do 
it anyhow, and that would save money and you get the buy-in 
from the community. You create public value with the various 
groups that are there that want to participate.
    My last question is, do you believe--are you familiar with 
the WIN Proposal?
    Mr. Jones. I've not read the whole thing, but I'm familiar 
with it, yes.
    Senator Voinovich. Do you think that we ought to go forward 
with a major program in terms of loans and grants, combination 
programs, that would take this thing up?
    Mr. Jones. I think not only do we have to, I think it won't 
happen any other way. I think what you've heard already, what 
I've tried to say and what you're going to hear is, there is a 
significant infrastructure need that was met in the past with 
fairly strong Federal program.
    We're, in a sense, flipped now--75/25 because it's now 
mostly loans. I don't think there's any feeling that we 
shouldn't contribute as a State and local communities.
    I think there's a real need, but when you're talking about 
billions of dollars in infrastructure, that's something that 
communities by themselves and the States by themselves simply 
can't address. It's just going to get worse.
    It's interesting, I was thinking about the infrastructure 
question. Senator, you're familiar with the water main breaks 
in Cleveland in the last 5, 6 months.
    Senator Voinovich. Major.
    Mr. Jones. Major ones.
    Senator Voinovich. In fact, I was told not to come to my 
Federal office because the water was running around the Federal 
building.
    Mr. Jones. Just outside this building, there's a famous 
picture of a Mercedes Benz in a sinkhole because the pipes just 
gave way. That was 10 years ago, or more. It's a problem that's 
getting worse that needs to be addressed. Because, from my 
perspective as an EPA director, it starts to impact water 
quality, and that's what people are concerned about.
    Senator Crapo. All right. Thank you very much, Mr. Jones. 
We appreciate your time.
    Senator Voinovich. Thank you for being here.
    Senator Crapo. We'll call up our last panel today, which is 
Mr. Erwin Odeal, who's the executive director of the Northeast 
Ohio Regional Sewer District in Cleveland. I understand we have 
Mr. Robert Stevenson, the Commissioner of the Department of 
Public Utilities----
    Mr. Stevenson. City of Toledo.
    Senator Crapo. Mr. Patrick Karney, director of the 
Metropolitan Sewer District of Greater Cincinnati. Mr. Patrick 
Gsellman, who is the manager of the environmental division of 
the Akron Engineering Bureau of the city of Akron. We 
appreciate all of you being with us today.
    We will begin with you, Mr. Odeal.
    Senator Voinovich. Could I mention, also, if you could just 
kind of quickly talk about the years you've had in this 
business, so we can get--I want to say to you, Mr. Chairman, 
you couldn't find a better panel of people to give you a cross-
section of what's going on. They've been in it a long time. 
They've got different perspectives, and I'm tickled that you're 
here. Because we would never have the time to get this kind of 
testimony in Washington. It would never happen. So we're really 
looking forward to seeing what you have to say today.
    Senator Crapo. Thank you.

 STATEMENT OF ERWIN ODEAL, EXECUTIVE DIRECTOR, NORTHEAST OHIO 
             REGIONAL SEWER DISTRICT, CLEVELAND, OH

    Mr. Odeal. Senator, Mr. Chairman, in terms of years, the 
testimony says here I've been around for almost 35 years in 
this business out on the front lines, all of it, really, 
working in the Cleveland area, city of Cleveland, with the 
Regional Sewer District. I've been fortunate to be a part of 
the Association of Metropolitan Sewage Agencies. So I 
appreciate the chance to be here today and talk about the 
future of the national and Ohio's water quality.
    The district, since its creation in the 1970's, has 
invested over $1.6 billion for capital improvements to the 
wastewater conveyance and treatment system. These improvements 
include upgrades in treatment plants, construction of five 
interceptors, and numerous relief sewers.
    The Clean Water Act financed 40 percent of the cost of this 
project, with the balance paid for by the district's 
ratepayers, either as repayment of low interest loans or as 
pure district funds.
    The most----
    Senator Voinovich. Erwin, would you mind, even with my 
hearing aids, I'm having a tough time.
    Mr. Odeal. OK. It's not the first time, Senator. I 
remember--just as divergence--when I used to work for the State 
of Ohio, I think the recorder used to tell me to slow down all 
the time when I was testifying. I definitely won't get through 
it.
    But the most recent regulatory requirement imposed upon the 
district is our combined sewer overflow management and 
reduction program, which involves a management requirement of 
CSOs, the use of storage tunnels and various other 
infrastructure.
    The district has spent over $220 million to date on CSO 
program--probably helps if my mike's on--which 11 percent was 
funded through Federal grants, with the balance paid for by the 
district's rate payers.
    Our current program is anticipated to cost over $1 billion 
over the next 15 years. I give you these numbers to show you 
the amount of burden that's placed on the wastewater 
ratepayers. The ratepayer's burden has increased from about 37 
percent to over 90 percent of the current situation. There's no 
question that without additional funding and loans and grants, 
we will not be able to meet these requirements.
    The SSO program, for example, that the regs have been 
talking about, EPA has estimated over 80 billion, and we think 
that number is probably low.
    On that basis, we strongly endorse and support and work 
actively for the Water Infrastructure Network (WIN) program and 
the Water Infrastructure Caucus to bring about a balance of 
funding between local, State and Federal funding.
    Without that, we do not think that the progress that we 
have made will be sustained or that we will meet these new 
objectives.
    In addition, we think that there needs to be a more 
efficient way to integrate and balance the various aspects that 
we have to face in terms of the separate CSOs, SSOs, stormwater 
management and TMDL programs.
    Currently, communities must face these as individual sets 
of regulations with individual and sometimes divergent program 
requirements, requiring deficiencies and not leading us to a 
uniform objectivity. As a result, as a member of the 
Association of Metropolitan Sewage Agencies, and others, have 
worked to try to develop some unified Federal legislation that 
would allow us to deal with all, particularly wet weather, 
water quality problems on a watershed basis.
    In addition, the water quality standards that are fashioned 
for urban streams must be scientifically defensible. We 
certainly support and highly endorse the Ohio EPA's approach to 
biological standards. We believe that proof of streams quality 
is in the biology, not in the chemistry. We think that we would 
continue to like the opportunity to work with the committee.
    We've got a lot of information in our written testimony and 
some information on the WIN program. Thank you.
    Senator Crapo. Thank you very much, Mr. Odeal.
    Mr. Stevenson.

  STATEMENT OF ROBERT STEVENSON, COMMISSIONER, DEPARTMENT OF 
                  PUBLIC UTILITIES, TOLEDO, OH

    Mr. Stevenson. Thank you. My name's Robert Stevenson. I 
have about 25 years in the water and wastewater treatment 
field. Mayor Finkbeiner could not be here. He is at a function 
for the $1.2 billion Jeep plant. Publicly, on behalf of the 
city of Toledo, we'd again like to thank Senator Voinovich for 
his help in that project.
    The city of Toledo is currently involved in discussions to 
settle a lawsuit that was brought by the U.S. EPA on October 
29, 1991. The claim was that the city of Toledo was not meeting 
its NPDES permit. The plant had undergone massive rebuilding 
efforts, with Federal assistance, and had not been in full 
compliance.
    Over the 10 years of the lawsuit, the final effluent has 
come into compliance and its discharge is no longer an issue. 
The issue of bypassing them became evident. The issue of 
bypassing was submitted to Judge James Carr. He had ruled that 
the bypasses were illegal if feasible alternatives are 
available. This term is contained in the Clean Water Act, and 
he defined feasible alternatives to include building new 
treatment units. He stopped short of defining what the measures 
would be needed to be undertaken. He did, however, indicate 
that maximizing their existing treatment plant was not 
sufficient when it comes to feasible alternatives and 
bypassing. It has huge ramifications for wastewater treatment 
in general.
    The U.S. EPA has insisted that we build an equalization 
basin that would hold a sufficient quantity of wastewater such 
that we can avoid bypassing. This amounts to a $60 million 
basin.
    In previous discussions, we had conceived and designed an 
alternative wet weather system that would treat higher flows 
and return them to the Maumee River without the need for 
storage.
    We fully intended to ensure that the discharge would meet 
water quality standards such that no harmful effects would be 
produced. This alternative could have saved us $40 million. The 
U.S. EPA insisted that this was a good idea, that we should 
downsize it slightly and combine it with the 60 million gallon 
equalization basin. Our remedy of 30 to 35 million ended up 
costing $80 million.
    The disappointing part of this is that there was little 
water quality benefit to the Maumee River. The reason we did 
not agree on the Actiflow system alone is that it wasn't 
getting full secondary treatment, and technically it was a 
bypass.
    They would be willing to allow us to build such a system as 
long as we build an equalization basin, too.
    The previous discussion is only a portion of our lawsuit 
issues, but it serves to highlight the problems with completing 
wastewater infrastructure projects. The first topic that needs 
to be addressed is regulatory oversight.
    The U.S. EPA has placed more emphasis on enforcement rather 
than water quality results. Meeting technical definitions 
contained within rules and regulations is more important than 
water quality standards. There seems to be an imbalance there.
    The second area of regulatory oversight is cost-
effectiveness and scientifically-based reasoning.
    In discussion, everyone champions the idea of applying good 
scientific evidence, sound engineering principles, and cost-
effective solutions. However, in practice, these issues are not 
given the weight or consideration which is appropriate.
    The recently adopted CSO policy has a better approach. The 
policy talks about comprehensive and coordinated planned 
efforts by municipalities, regulatory agencies and the public.
    It allows for site-specific solutions and the need for 
flexibility to tailor controls to arrive at the best solutions.
    The U.S. EPA needs to fully embrace this approach to 
enhance technical assistance and reduce regulatory enforcement.
    In Toledo's case, our proposed consent decree will cost the 
ratepayers over $400 million. The city is prepared to spend 
this money, we just don't want it to balloon to $600 million or 
$700 million.
    To give you an idea of the impact on the city of Toledo, 
consider the following: Our current overall debt for the entire 
city of Toledo over the last 100 years is $423 million. With 
the wastewater projects proposed, this will double our debt for 
the entire city of Toledo.
    The need for water and wastewater capital infrastructure 
improvements industry-wide amounts to $46 billion per year. 
That equals $230 billion over a 5-year period. Clearly, there 
is a need for funds.
    If I were to summarize some of the actions I would like to 
see Congress encourage, No. 1, regulations that are based on 
scientific and engineering principles; No. 2, regulations that 
are based on water quality objectives; No. 3, regulatory 
actions that place an emphasis on cooperation rather than 
enforcement; No. 4, Federal funding for the long-term and in 
sufficient quantities to meet the needs of the industry; No. 5, 
clarification of language of the Clean Water Act to provide 
flexibility of meeting demands of wet weather systems; No. 6, 
provide research and support for new initiatives; No. 7, 
provide Federal funding, because the need is so large; No. 8, 
continue to educate the public; No. 9, allow communities to be 
a partner, not simply those who execute the plan; and, finally, 
begin to look at non-point source discharges as opposed to 
point source discharge. Thank you.
    Senator Crapo. Thank you very much, Mr. Stevenson.
    Mr. Karney.

   STATEMENT OF PATRICK KARNEY, DIRECTOR, METROPOLITAN SEWER 
                 DISTRICT OF GREATER CINCINNATI

    Mr. Karney. Good morning. I'm the director of the 
Metropolitan Sewer District of Greater Cincinnati. Recently, I 
testified before the House on behalf of the Association of 
Metropolitan Sewages, whose members provide water services in 
more than 50 metropolitan areas around the country on the 
subject of financial crises those utilities are facing.
    Thank you for the opportunity to speak today on the issue 
of water infrastructure needs. Recently, more than a million 
consumers in California were plunged into darkness. Imagine 
what would happen if the Nation's water and wastewater systems 
began to fail.
    Failure of the wastewater system could create a public 
health concern, cause widespread degradation, and lead to an 
erosion of the public trust and clean and safe water as 
unwavering.
    Everyday, Americans rely on clean water for recreational, 
commercial fishing and industrial activity. These activities 
generate billions of dollars every year, none of which would be 
possible without clean water.
    Would we have built roads, bridges, and airports in 
communities that would not provide clean and safe water? No. 
Inadequate capacity to treat wastewater can cripple a local 
economy, drive out manufacturing, and wipe out tourism.
    The gains we've made over the last 30 years are now at 
risk. According to the EPA, without significant new 
development, we can lose the progress by 2016.
    Today we ask the Senate, once again, to make water 
infrastructure funding a financial priority. We face an 
estimated gap of $3 billion a year between current investments 
in infrastructure and what we need over the next 20 years to 
replace aging and failing pipes, and Safe Drinking Water Act 
mandates.
    This unprecedented level in investment would be needed at a 
time when our community budgets are escalating by 6 percent a 
year above inflation. Federal contributions should decline by 
75 percent since 1980, and represent less than 5 percent of 
today's water and wastewater outlets.
    Let's put it in perspective. In Cincinnati, we need to 
invest between $1 and $3 billion to address a combined overflow 
and sanitary sewer overflow profits. This is over and above 
operation and maintenance of our system and routine 
rehabilitation of aging systems that we have to operate.
    This number's staggering. Our user charges are mid-range 
compared to those of 67 surrounding utilities. If the problem 
can be solved on the low end, we'll be forced to increase our 
user charges by 7 percent per year each of the next 15 years. 
This would multiply our existing rates by merely threefold, or 
76 percent.
    If we end up closer to the $3 billion figure, we face rate 
increases of 1 percent per year for 15 years. This would 
multiply our current rate 17 times.
    MSD does not receive government subsidies or local tax 
contributions for normal operations. These increases will fall 
solely on the shoulders of our ratepayers, ordinary families 
who pay the true cost of wastewater collection and treatment in 
their quarterly bills, and have been doing so since 1968. These 
are the same families whose sewer rates went up over 9 percent 
in 2000, another 7 percent this year, and probably 7 percent 
next year.
    Cincinnati is just one of tens of thousands of cities and 
counties facing a financial crisis due to aging infrastructure 
and the challenge of eliminating CSOs and SSOs. Plus with the 
expectations of greater demands from new regulations, local 
rate payers could not address these tremendous needs alone.
    We can close this water infrastructure finding only if the 
Federal Government and States meet our cities and counties 
halfway by authorizing an average of $11\1/2\ billion a year in 
capitalization funds to the States over the next 5 years.
    The Water Infrastructure Now report released last month, 
and endorsed by over 30 national organizations, provides 
recommendations to the Congress and the President on how to 
address these issues.
    In an era of unprecedented surpluses, I can't think of a 
better investment than the health of our citizens, the 
integrity of our environment, and the well-being of our 
communities.
    Simply put, we can't afford to leave any community behind 
as we address the national water and wastewater infrastructure 
crisis.
    On behalf of America's wastewater utilities, I'd like to 
thank you for your recent initiative, to re-energize the 
State's resolving funds program. Such leadership is what is 
needed to bring us all to grips with funding crises facing our 
water infrastructure threatening our citizens.
    Mr. Chairman, we look forward to working with you and the 
rest of the committee to find solutions to this national 
crisis. Water and wastewater treatment would be truly 
devastating to the health and well-being of our citizens and 
the national economy.
    Thank you.
    Senator Crapo. Thank you, Mr. Karney.
    Mr. Gsellman.

STATEMENT OF PATRICK GSELLMAN, MANAGER, ENVIRONMENTAL DIVISION, 
              AKRON ENGINEERING BUREAU, AKRON, OH

    Mr. Gsellman. Thank you. On behalf of Mayor Plusquellic, 
I'd like to give you an update of where we are in the city of 
Akron. The city of Akron is located on the Cuyahoga River in 
northeast Ohio, approximately 30 miles upstream from the city 
of Cleveland. The Akron wastewater planning area covers 
approximately 167 square miles and includes most of the Akron 
metropolitan area. There's a population of 352,000 in the 
service area, including all or a portion of five cities, four 
villages, and seven townships.
    The sewer system includes approximately 1,165 miles of 
sewers, consisting of 188 miles of combined sewers. There are 
38 combined sewer overflows within the city of Akron. Based on 
predictions from the hydraulic model typical annual CSO volume 
is 2,400 million gallons.
    Previous efforts by the city of Akron have resulted in the 
elimination of sanitary sewer overflows in the city of Akron, 
and the award of the Association of Metropolitan Sewage 
Agencies gold award for no effluent violations in year 2000.
    The city of Akron proposed a long-term control plan that 
will cost more than $248 million to implement. This cost is in 
addition to the millions Akron's already spent to date to study 
CSOs and the $25 million spent to eliminate sanitary sewer 
overflows.
    Akron has seen a significant decline in its industrial base 
since the 1960's, requiring the residential users to carry the 
burden. Akron already carries one of the highest residential 
sewer rates in the State for cities with similar population.
    The Akron Public Utilities Bureau is currently undergoing 
significant changes as a result of high water rates. This led 
to a Blue Ribbon Panel to study the utility and the current 
Competitive Action Program. This program includes the water 
treatment facility, sewer maintenance, water pollution control 
station and utilities engineering.
    Significant reductions in operation costs were being 
realized and will allow the utility to be competitive in the 
future. This will allow the city to pay its fair share of 
needed improvements as long as the Federal Government 
contributes its fair share.
    As part of developing the Akron long-term control plan, 
several options to fund the projects were evaluated. Given the 
significant total costs of these projects, it is likely that 
the funds will be obtained from multiple sources, grants, loans 
and revenues obtained by the sewer rates.
    Grants are essential to the fundability and feasibility of 
the program. Without outside funding, sewer rates will more 
than double just to handle the CSO program. The impact of 
additional operation and maintenance costs, system repair and 
replacement and normal inflation will likely see the rates 
triple.
    Current monthly sewer charges for a typical residential 
customer are approximately $30 per month, for sewer only. The 
rate increases to $60 or $90 per month will adversely affect a 
significant portion of the ratepayers, including those who can 
barely pay or afford their current utility bills.
    The selected alternatives for the city of Akron's 
integrated plan, the long-term CSO plan, incorporates storage 
conveyance tunnels, detention basins, treatment basins and 
sewer separations.
    A set of rating criteria was used to compare the various 
alternatives. The criteria included stormwater impacts, water 
quality improvements, operation and maintenance costs, public 
acceptance, community improvements, and construction issues.
    The approach taken for the long-term control plan was the 
presumptive approach, and the annual percent capture after the 
plan is 94 percent. In addition to the funding, the issues of 
wet-weather-water-quality standards, use designation and urban 
stream habitat need to be addressed.
    The city of Akron Public Utilities is also faced with 
rapidly rising costs associated with stormwater, that's the 
municipal stormwater, total maximum daily loads, and drinking 
water regulation.
    Akron continues to develop access to receiving streams with 
bike paths, downtown development, a Mustill Store restoration, 
and Cascade Lock Park. Also, the National Heritage River 
designation and National Park will continue to attract people 
to the Cuyahoga River.
    We look forward to a solution that will cost-effectively 
address CSO issues while producing benefits to the Akron 
ratepayers, enhance the parks and trails, show improvements in 
water quality, and further the goals of the Clean Water Act.
    Proposals similar to the Water Infrastructure Network (WIN) 
are needed to provide for adequate funding now and in the 
future. Through water and sewer bills, local ratepayers already 
pay 90 percent of the total cost to build, operate, and 
maintain their water and wastewater systems.
    We need a long-term, sustainable, and reliable source of 
Federal funding for clean water. Thank you.
    Senator Crapo. Thank you very much.
    Mr. Gsellman--Senator Voinovich.
    Senator Voinovich. I'd like each of the witnesses to, if 
you can do it, give me an idea of your current costs, on the 
average, household. I know it varies from how much water you 
use, and so forth. Give the projected cost you're going to have 
in, say, the next 5 years.
    Mr. Odeal. I guess in terms of the Regional Sewer District 
of Cleveland is essentially a wholesaler, so we--our charge 
covers the capital cost, the conveyance on the treatment, and 
the average consumer is probably paying about $300 a year to us 
now. The local communities--some add a charge, some do it 
through general taxation. Then, frankly, some just haven't had 
the dollars to do much. We are just finishing----
    Senator Voinovich. You say some----
    Mr. Odeal. Just don't have the dollars to do much at all 
with the sewer.
    Senator Voinovich. Ratepayers, so many of them pay $300, 
some of the cities subsidize them?
    Mr. Odeal. No, they add an additional charge. Some of the 
communities have charges, some do it through general taxation, 
and, frankly, some just don't do too much because, particularly 
the suburbs that have severe economic problems haven't been 
able to invest very much in their infrastructure, and they have 
the most serious problems.
    In terms of our projections, we're just finishing our CSO 
long-term control plan, we're working on our rate study, but I 
think it's safe to say, in the absence of Federal funding, we 
would be looking at--if we're going to do $1 billion worth of 
programming over 15 years, we'd look at a tripling of costs, 
ultimately, if there were no Federal funds.
    If it was all local dollars, based on the rates now in 
effect, we've got probably a third of that federally funded. If 
we get nothing federally funded, with increased operating 
costs, I think it's likely to see a doubling or tripling of 
rates.
    Senator Voinovich. You're talking 15 years, you're talking 
about the average cost where communities are not putting 
something--are the communities responsible--I should know this. 
Are the communities responsible for their infrastructure in 
their respective----
    Mr. Odeal. That's correct, Senator. The communities have 
infrastructure responsibility for their individual sewer 
systems, as well as they will be responsible for their 
stormwater programs under the Phase Two.
    Stormwater Program, and they will also be responsible for 
meeting the SSO regulations.
    The sewer district is responsible for the combines of sewer 
overflows, but the separate overflows exist almost exclusively 
on the suburban sewer systems, and they will be forced to 
having meet any costs associated with the separate overflow 
program.
    Senator Voinovich. So over 15 years, that $300 a year could 
go up to $900?
    Mr. Odeal. That's correct. But that would not include any 
money at all for the 53 communities that do something with 
their sewers, particularly the ones that have to deal with the 
SSO problem. That would be in addition.
    They will have to come up with those dollars to deal with 
that SSO program, as well as all the additional regulatory 
requirements of developing the programs and getting permits 
from Ohio EPA, as well as getting stormwater permits of OEPA, 
and all those requirements.
    Senator Voinovich. So it could be, say, $300, maybe $1,200?
    Mr. Odeal. Oh, I'm sure that the way the SSO regs--which 
hopefully it will never see the light of day--were drafted, 
conceivably many of the communities would be forced with almost 
having to replace their sewer systems under the premise that 
thou shalt never have any overflow from any sewer system, no 
matter how old it is. It is just not achievable, particularly 
in communities that have sewers that are 60, 70, 80 years old. 
They do leak, they do get stormwater in them.
    Many of our communities, I'm sure, would face many of the 
horror stories that you heard on your first panel. There's 
really no difference. The only difference is that these 
communities don't have a wastewater plant. They still have 
sewers, they get holes, and they leak. Many of them are--as you 
know, some of the primary suburbs are faced with some severe 
economic hardships, and many of their ratepayers and taxpayers 
are well below the poverty level.
    So for many of the people in our communities, they would 
have a major impact for the inner city residents and the 
suburban residents.
    Senator Voinovich. How about Toledo?
    Mr. Stevenson. In Toledo, the average cost for water and 
sewer per year is about $300 to $400. With just the items that 
are in the proposed consent decree that we're talking about, 
specifically for wet weather treatment, those bills could 
escalate to $600 to $900 per year, and that doesn't include 
some of the provisions that he was talking about on SSO's. So 
it could double or triple our bills.
    Mr. Karney. I need to answer one question earlier that I 
didn't speak to. I've been in the business 5 years. I'm not 
quite that young, though, because I have half a decade in 
industry before I started with that. But it's nice to be 
speaking on a panel with Erwin because of the comparison that I 
look really young. So I kind of like that.
    Cincinnati, right now, our residents are paying $300 a 
year. I gave you a range earlier of $2 billion to $3 billion. 
That's not just a fuzzy number, we've actually had consultants 
go back to help us do that estimation. That range is based upon 
how conservative or how completely wacky the interpretation, 
especially the SSO rule, could become.
    When we look at how we would do it in good science and good 
financial risk base, doing the best for the environment, we're 
at about $1 billion. We think, now, wait a minute, if we get to 
this, as Erwin pointed out, no discharges from the sanitary 
system ever, where do you go? Well, then we have to up the 
ante, and it gets us to a $3 billion number. We've evaluated 
over 4,300 projects to get that estimate.
    So what that ends up doing is it takes us from the current 
$300 to within 15 years of either being at $1,000 or $5,000 per 
home per year.
    Senator Voinovich. One thousand dollars, five thousand 
dollars--it's a big number. This is a 15-year period?
    Mr. Karney. Yes, we'll easily get to the $900 figure. If we 
are really pressed hard, as some of the folks at U.S. EPA want 
to do now, we'd be at $5,000 a year in 15 years, to be able to 
finance the kinds of moneys we have to put in the system.
    We've got parts of our system that go back to early 1800's. 
Folks say, why don't you keep that up to where it should be? 
Well, things that were done in the 1800's, things that were 
done in the early part of the 20th Century or the mid- or even 
late parts of the 20th Century had no concept of what kind of 
regulations we'd be looking at today.
    Senator Voinovich. I think you've already said that your 
rates have gone up, on the average, about 7 percent per year?
    Mr. Karney. Yes, since I got to town, we did 9 percent the 
first year, 7 percent this year, and we're looking at 7 percent 
for next year. That's without even addressing these really big 
issues that are still standing out in front of us.
    Senator Voinovich. How about Akron?
    Mr. Gsellman. In Akron, we're looking at a little less than 
$30 a month, and that's for sewer only. That would be $360 a 
year just for sewer. The water's another $20 a month. We're 
looking at the sewer bill itself being doubled, just 
implementing the capital portion of the CSO.
    Senator Voinovich. What period of time?
    Mr. Gsellman. Well, right now we're still negotiating with 
Ohio EPA and the long-term control plan what the schedule's 
going to look at, but generally talking about 10 years for the 
rates to double.
    Senator Voinovich. So over 10 years, they would go up 100 
and some?
    Mr. Gsellman. Right. By the time we look at inflation and 
those items, probably three times.
    Senator Voinovich. OK.
    Senator Crapo. I have a general question I'd just like to 
throw out to the panel, and any of you who would like to can 
pitch in on it.
    You're all aware, as I am, of the reports of what the 
infrastructure needs are. In fact, the hearing we held in March 
tried to just get a handle on what everybody thought the 
infrastructure needs in the industry were.
    As you may be aware, those estimates are ranging from $300 
billion to $1 trillion. It just depends on--and we're talking, 
I think, both the Clean Water Act and the Safe Drinking Water 
Act.
    It seems to me that obviously it's difficult to get a 
handle on what the infrastructure needs are going to be. That's 
why you see such a wide range of needs. But part of the reason 
is to get such a handle on it, because as this panel just 
indicated what it is that they're going to see the cost being, 
it's hard to tell, because we don't know how rigid the 
commanding control system that we have is going to be.
    The question I'm getting at is this: As we look at trying 
to get a handle on how to meet those infrastructure needs, it 
seems to me that one of the things we have to do is better 
identify what we are going to be requiring.
    If you and those who are trying to estimate our 
infrastructure needs better knew what would be required, we 
could get a better handle on what our needs would be.
    Would everybody agree with that?
    (No verbal responses.)
    Senator Crapo. From what I'm hearing in the testimony here 
today--and, frankly, this is not different from what we're 
hearing from many other parts of the country--those 
infrastructure needs estimates that we are seeing are 
exceedingly high because we are expecting that we are going to 
have to meet some standards, such as zero overflow under any 
conditions.
    Yet I'm also hearing that a different standard, which would 
allow some flexibility, would not reduce water quality in the 
country, but could significantly reduce costs of 
infrastructure; is that correct? Anybody want to----
    Mr. Karney. Absolutely. Absolutely.
    Senator Crapo. So in terms of how we meet this need--and I 
want to get to this in a minute with regard to the--what the 
Federal role should be in terms of funding--one of the things 
we need to look at is simply what might be called efficiencies 
or effectiveness in terms of cost-benefit analysis, and so 
forth.
    I know this is going to be a really tough question for you 
to answer, but I'd like to see if anybody in the panel has an 
opinion on it. If we were to have the kind of flexibility that 
we've talked about in the hearing today, where the Ohio EPA 
would be able to--in its issuance of NPDES, or whatever other 
regulatory action it would take--would be able to work flexibly 
with the communities and achieve the water quality standards 
that we set in flexible ways, do you have any kind of a feel 
for what kind of reduction in the overall infrastructure needs, 
that we would be looking at, would be achievable?
    Mr. Stevenson. In Toledo's case, the costs of our consent 
decree that we're talking about for wet weather treatment is 
about $450 million. We've submitted this to three national 
engineering firms and asked them to give us a cost with the 
flexibility that you're talking about. Each of those three 
national engineering firms think they can cut $100 million off 
of that $450 million capital cost.
    Senator Crapo. So that would be a little more than 20 
percent reduction in your specific case?
    Mr. Stevenson. Our specific case, yes.
    Senator Crapo. There would be no negative impact on water 
quality?
    Mr. Karney. And still meet water quality standards at the 
end of the discharge, yes.
    Senator Crapo. Anybody else on the panel have any input or 
opinion on that? You don't have to be specific, even if you 
just have a general opinion.
    Mr. Karney.
    Mr. Karney. Yes. My general opinion, having worked with 
Chris Jones's folks, both in Columbus and in the district 
office, is that they have a better sense of practical benefits 
to be gained by different changes. As he noted, many times they 
are strictly against the wall. They can't do things. They can't 
exercise the judgment.
    I would say that that would get us down to close to that $1 
billion number. He might be a little tougher on me than I'd 
want to be on myself, so edge it up to $1\1/2\ billion, rather 
than $3 billion. So we could cut $1\1/2\ billion off of just 
one city's price tag.
    Senator Crapo. In terms of percentage, you're talking about 
maybe a 50-percent reduction?
    Mr. Karney. That would be 50 percent of that gigantic 
increase that we're looking at, sir.
    Senator Crapo. Mr. Odeal or Mr. Gsellman, do you have an 
opinion on this?
    Mr. Odeal. I guess I would just have the general opinion 
that--I think one of the real concerns I have is sometimes 
there's a level of expectation that's put out there, the 
public's going to get something for this investment, and this 
is probably my biggest concern.
    As Senator Voinovich knows, we've made spectacular progress 
in Cleveland, the lake front, the Cuyahoga River, we're trying 
to focus on some of the small streams in people's backyards 
and--which directly impact it.
    But I think if we were able to look at SSO and CSO and 
stormwater on an integrated approach, looking at the stream 
biology, looking in urban streams, the stream variation flow, 
high flow, low flows destroys habitat. I'm a converted engineer 
to biologist, but I'm really listening to the biology, and 
that's what we're talking about.
    I think that kind of approach not only will save us 
significant dollars, but actually will put the public 
expectation at a level that can be achieved. I mean, the 
biggest danger here, frankly, in an urban stream in wet 
weather, is high flows and drowning. People shouldn't be in the 
streams anyway during high flows, therefore, there's no use 
that's impacted.
    During high flow periods, we'll waive the bacteria standard 
or have a different standard if it quickly stabilizes back will 
have no impact on use, no impact on fish, and could save us 
considerable dollars.
    I think those are the kinds of things we need to look at, 
reasonable approaches, and I think that, frankly, given the 
flexibility, those are the kind of things we could sit down 
with Director Jones's staff and work through on a watershed by 
watershed basis as opposed to one-size-fits-all for anything.
    Senator Crapo. Thank you.
    Mr. Gsellman, do you have anything?
    Mr. Gsellman. I'd like to add one thing that Mr. Odeal 
pointed out. The expectation, after the day's over, we're going 
to spend $248 million, the stream's still not going to meet its 
uses during certain wet weather events, and we need to make 
sure the public's aware of what the benefit is from doing this 
program; if the stream is still not going to meet its water 
quality in certain situations because of other impacts on the 
stream, as far as non-point septic systems, other localities' 
SSOs, those kind of things; and also to make sure the standard 
that we're trying to obtain is the reasonable goal of the--
especially in the urban streams. An urban stream is different 
from another, you know, wooded area, agricultural area, and I 
really think Ohio EPA needs to not only have the funds but have 
the time so they can fully develop an urban stream category, so 
we can truly have a realistic goal that can be met.
    Senator Crapo. I appreciate the input that you've given, 
both in terms of general comments, as well as the specifics.
    In fact, we have two cities here, Toledo and Cincinnati, 
who could achieve 0 percent to 50 percent savings if they had 
flexibility, and still not impact water quality.
    I think that the comments that Mr. Odeal and Mr. Gsellman 
made about the perception of the public in terms of this 
investment in our infrastructure are critical.
    I think if the public understood that the numbers of 
dollars that we are talking about don't necessarily translate 
into a comparable improvement or, in some cases, any 
improvement in the water quality, that there would be an 
outrage, that we are expecting them to see these kinds of 
doublings and triplings, and maybe even, you know, much more--
much higher increases in their resources.
    A couple of years ago, there was a study done that got some 
national attention that indicated that when you're talking 
about people's health and their environmental satisfaction, and 
so forth, that the most significant factor on the quality of 
life, in terms of people's health and safety, was their own 
economic circumstance.
    When we're talking about reducing a family's economic 
ability in these kinds of ways, in terms of the percentage of 
their family budgets, or if it's something where the city or 
the county or the State steps in and pays for it instead, to 
save the family, you're talking about taking those resources 
away from the city, the county and the State, which they could 
use on health and safety concerns or environmental concerns. 
We're talking very significant issues for what are potentially 
zero benefits.
    It seems to me that one of the things that we need to do is 
to make sure that we have the most bang for the buck, in terms 
of the infrastructure that we address here.
    The second thing, which I'll finish on, is after all that's 
done, it's very clear that we're still going to have a giant 
need for infrastructure. There's a tremendous amount of need 
out there, and there will be a responsibility at the Federal 
level to figure out how to deal with this.
    One of the debates that--well, not one of the debates, the 
debate that we are now in is, should we meet that through the 
current approach, which is a system of revolving loans, or 
should we transfer into some kind of a mixture with a system of 
grants?
    It has seemed to me to be quite evident that with regard to 
the small communities where they can't achieve the economies of 
scale that especially aren't able to get some of this 
regulatory flexibility, that there will have to be a grant 
program in place, because the small communities simply can't 
handle it.
    I would appreciate any input that any of you would like to 
give us in that context. Does that also apply to the larger 
cities?
    Should we move to a grant program or some mixture of grants 
with regard to smaller and larger communities, or can we handle 
it through simply beefing up the revolving loan program?
    What are your thoughts on this issue? I guess maybe we can 
just start on the left, and if you don't have a comment, just 
pass it on.
    Mr. Odeal.
    Mr. Odeal. I can't imagine anybody who wouldn't be in 
trouble if they didn't have a comment on that.
    I think as we've indicated in our comments, we certainly 
support a balance of grants and loans. I think the loan program 
has been exceptional. I think the real--one of the real values 
to the loan program is a reduction in red tape. Being trained 
as an engineer, I don't enjoy dealing with investment bankers, 
and all that is taken away. You can focus really on building 
facilities, and some of this other stuff. A lot of time saving, 
a lot of administrative saving.
    But they are also really seen in the larger communities--I 
think if you look at the problem with the larger communities, 
the average income is wonderful, but the divergence of the 
income is--not only in Cleveland, but our primary suburbs, and 
even in more affluent communities, you have people that are 
well below the poverty line and, therefore, what might be a 
tolerable rate to some folks is just going to break their back.
    Plus, I think, second, there's a question of equity. Many 
of these requirements are--they're going to be well beyond what 
locals we can justify, what I feel I can, as a good 
professional, justify.
    If that is the national objective and the Federal 
Government wants us to achieve that, then I believe the Federal 
Government should finance that differential between what the 
local community wants and can accept--and I don't mean 
environmental degradation--but what is achievable and 
acceptable versus this higher level.
    I think that increment definitely should be financed by the 
government level that's asking for that higher level.
    Senator Crapo. Good point.
    Mr. Stevenson.
    Mr. Stevenson. In looking at engineering programs over a 
15-year period there invariably are years that have peaks and 
then there are valleys. It would be extremely helpful for 
Federal assistance during those peak times so that we could 
average out rate increases to our citizens.
    In our program, we estimate about a 5 to 6 percent rate 
increase for the next 15 years. But there are a couple years 
where you get into a 10, 15 percent increase because of the 
nature of the construction programs.
    So it would be extremely helpful in those times to have 
Federal assistance to level out that increase.
    Senator Crapo. Mr. Karney.
    Mr. Karney. I'd just like to start by saying that a comment 
had been made earlier, it's too bad we can't get these folks to 
come to Washington, DC, this is so critical to our utilities. I 
know I, for one--I'm sure several others--would be more than 
happy to make that trip. If you can give us a little more than 
a week's notice, that's good, too. But we need to come up and 
provide that kind of input.
    When I was doing the House testimony, I'd heard that there 
were folks that were walking in and lobbying various 
representatives saying the local utilities aren't paying their 
fair share, you know, they're not--the citizens aren't doing 
this, they can certainly do more, and these were all incredible 
amounts of misinformation.
    So I'd be more than happy to come up and provide that local 
testimony if it's necessary or can be of use to the system.
    Yes, we do need grants. There needs to be a mixture of 
grants and loans for the large as well as the small. The large 
utilities have even bigger needs in some cases than the small 
utilities do.
    As Erwin mentioned, there has been an incredible diversity 
of economic levels, and there are a number of places, 
especially within the city of Cincinnati, that if you ask folks 
to up another $500 a year or $1,000 a year, they couldn't do 
it. I don't know what they'd do for water supplies or 
wastewater treatment, but they just couldn't do it.
    In the WIN proposal, not only is that asking for money, but 
it's also giving some direction and suggestions on Federal ways 
to administer funds so that we cut out a lot of red tape that 
was in the old grants program and make it easier for States to 
be able to work with some of that money to go right back to 
States.
    Chris would be happy with that. Of course, it speaks to 
providing funds to assist the States in running their 
environment programs.
    Senator Crapo. Your comments, and all the witnesses' 
comments about the need to streamline the financing part of 
this, the economic management, have been heard.
    Mr. Gsellman.
    Mr. Gsellman. Yes, in the Akron situation, specifically a 
sustainable grant program is essential. We're kind of unique. 
We're not as caught up as the large cities that have the 
significant industrial base. We lost the significant portion of 
our industrial base, and basically the sewer and water 
utilities fall onto the residential customer to support. Due to 
that, they're the ones that have to bear these improvements.
    Also, I think it's important to have a sustainable grant 
program instead of just one big, you know, pile of money coming 
in for a short period of time.
    We need something similar to the highway funds where we 
have some sort of reliable source of revenue that goes into the 
funding program and continue on to take out a lot of the peaks 
and valleys, as far as funding, so that we can plan--we're into 
doing programs that are going to be 0-, 30-year programs. We 
need to know where that funding source is going to be over that 
0, 30 years.
    Senator Crapo. Thank you.
    Senator Voinovich, do you have any more questions?
    Senator Voinovich. Yes, I do. The issue of this cost 
projection that--Senator Crapo made a good point, and that is 
how you base your projections, has a lot to do with what the 
agencies can be required to do. I was thinking about that with 
this GAO report that I've asked for that should be out here 
pretty soon.
    But one of the things that we've got to know is--we're 
asking them, also, whether or not the agencies are really doing 
a realistic job in projecting their costs.
    For example, 1996, the EPA said the Clean Water Needs 
Survey was $140 billion--no, $200 billion. Then $140 billion in 
1996, and then they said it was in 1999, $200 billion. Some 
other groups have said it's $300 billion over 20 years.
    So, in other words, it's all over--how in the world can you 
really plan for it if you don't some realistic idea how much 
that's going to cost? So I think that's key.
    The other thing is that I've learned from my vast 
experience that people really aren't--they don't confront 
regulatory agencies until they feel it in their pocket.
    I think one of the things that your respective 
organizations should be doing is a lot more effort in talking 
about what the problem is and what the projected costs are 
going to be and how that's going to be reflected in the 
pocketbook of the people in your respective communities.
    It's only then that there is going to be any kind of 
effort, I think, in terms of looking at some of these 
regulations in a more realistic fashion.
    Just think about this. We're talking about still in 
Congress of having a massive school construction program, which 
is a fundamentally State and local responsibility, but no one 
wants to put on the table the issue of what are we going to do 
with clean water in this country or what are we going to do 
with sewage treatment, and replacing the infrastructure and so 
on.
    So a lot of the job here is going to be to elevate this 
issue into a priority issue.
    Frankly, in terms of the agency--we're talking about the 
Environmental Protection Agency. It cuts across just about 
every area you can think of. Because there's no consideration 
ever usually given to the cost.
    As Senator Crapo said, the quality of life of individuals 
has a lot to do with how much money they have available to them 
for their families. If you can't show some measurable, real 
improvement in the environment and public water supply, how do 
you justify these enormous costs increases?
    What I'd like to know is what do you think, in terms of the 
overall cost increases that you're seeing--could you rate the 
number of--No. 1 projected cost increase--we know you've got--
all of you have got your projected infrastructure costs, 
depending on how old your community is, you've got your 
problem. But let's talk about in addition to that, OK, that's 
the given--the added cost. The added cost. What, where is it, 
what's going to generate the largest amount of money that 
you're going to have to spend? What issue is that?
    Mr. Odeal. Well, actually, just sitting here, Senator, I 
think one of the issues that you'll recall when you were 
Governor, and I think you worked hard to get a realistic 
approach, was the Great Lakes Initiative.
    Director Jones's office now is struggling with implementing 
the approach to handling mercury, which is a natural substance 
that is occurring everywhere. Some of the unrealistic 
objectives are where we want to get in terms of totally 
eliminating mercury. That can drive the costs unbelievably.
    If we, in fact--if the goal--one of the difficulties we 
face is that these things are zero, we can measure zero better 
all the time. So we're out in the parts per billion--we're 
getting out there so far, literally as ridiculous as it is, we 
do clean sampling and analyze for mercury in a clean room on 
wastewater, because the requirements are coming down for 
mercury. So depending how mercury is dealt with, it could be 
astronomical costs.
    There's lots of other items that are coming down out of the 
Great Lakes Initiative that could be approached the same way.
    One of the issues we haven't talked about here at all 
today, which is a big municipal issue, is what is more 
traditionally called sludge. This has been a lot of work to get 
realistic standards, real biosolids. If properly treated, it 
can become a real asset.
    One of the difficulties that the government faces is the 
moving target. So if, in fact, we were to develop a product--a 
biosolids product, put it out in farmland, put it out in 
agriculture, meet all the current standards, something new 
appears 5 years from now and all of a sudden these things 
become retroactive. As many cities have discovered, where they 
happened to put some trash in a landfill where somebody else 
put some bad stuff, they end up being liable. There are some 
unknown perils out there.
    The biosolids peril is of particular concern because there 
you could really get bothered, I think in the future, because 
of some new requirement. So I think some of the shadow toxic 
issues, as I call them--again, not that, you know, anybody 
wants to harm anybody, we're in the clean water business. 
Sometimes the four of us sitting here are called polluters by 
environmentalists.
    Well, in reality, we're the good guys. We're the ones, and 
the folks back there are the good guys, and Director Jones. We 
cleanup the pollution. We're not the polluters, but I think 
those unknown perils that we haven't even talked about by some 
well-meaning people who really think we can get everything down 
to zero when--even in the natural occurring substances.
    If, in fact, mercury is such a bad actor, why doesn't the 
Federal Government prohibit the use of thermometers? On the one 
hand, we allow things to come out that another branch says are 
God awful, and I myself have thousands of dollars worth of 
mercury in my mouth, so maybe that's why I'm like I am, huh?
    You got me on my soap box. I apologize.
    Senator Crapo. Mr. Stevenson.
    Mr. Stevenson. I would echo those sentiments. Biosolids are 
one of our largest line item on the budget, and Great Lakes 
Initiatives holds a great deal of uncertainty that could cost 
us money.
    Another thing that I would like to add----
    Senator Voinovich. As a really interesting aside here, I 
was the chairman of the Great Lakes Council when the initiative 
came through. By the way, this was a voluntary thing. A couple 
of our colleagues put it into law. EPA got a hold of it, and 
the initial rejections of the cost were astronomical, so what 
we did was go to work and had a study made to reduce it down to 
what we call a biocumulatives of the Great Lakes. Even now, 
we're down to what mercury and a couple of the other ones. Oh, 
PCBs and some of the other things that really broke the chain. 
But here we're talking about one of the aspects, and that's 
mercury. How far do you go with the issue of mercury?
    Mr. Stevenson. It's an interesting discussion. Being an old 
research chemist, years ago, when we used the tests for things, 
we sometimes say the research is being driven by analytical 
technicians and not any specific agenda or target.
    We're able to test down that low, so that becomes the limit 
of what we're required to do.
    Another thing that I would mention as an item on the 
horizon, wastewater plants have large costs of energy. In the 
city of Toledo, I'm a $3-million-year customer on electricity 
alone. So we watch very closely deregulation of electricity, 
costs of those kinds are an issue.
    Senator Voinovich. They're going up?
    Mr. Stevenson. Yes.
    Senator Voinovich. Because what we're doing is we're not 
burning coal, we're going to natural gas, and that's what's 
driving it up.
    Mr. Karney.
    Mr. Karney. In Cincinnati, I guess the SSO regulations are 
the biggest hit for us, could be $2 billion on that side. CSO 
is next on that line with $1\1/2\ billion. The whole nutrient 
issue, it seems like that gets pushed down from the north on us 
with GLI----
    Senator Voinovich. Let me make sure I understand this, 
because I--SSO, storm sewer overflow----
    Mr. Karney. SSO is sanitary sewage overflow. That's just 
that pipe that picks up what comes from homes and industries, 
not the rainwater from the streets or curbs.
    Then combined sewers have both the sanitary flow in them 
plus stormwater.
    Then obviously a stormwater system is only the pipe that's 
carrying the stormwater.
    Senator Voinovich. So the SSO combines sewer overflow, the 
stuff that Mayor Reid is trying to work with in Mansfield?
    Mr. Karney. Yes, two different issues there. SSO rules, and 
the costs associated with those, and then you've got the CSO 
issue, which is overflows from a combined source, which is--
it's a more dilute mixture. Obviously you've got the rainwater 
in there diluting what sanitary sewage is in that pipe.
    So those are two different programs, two different sets of 
costs and obligations.
    Senator Voinovich. Are they still forcing some of the 
communities to go to separate sewers?
    Mr. Karney. We're doing that a lot of times in response to 
CSO regulations, the directives. You want to cut down on 
combined sewer overflows, and one of the ways to do it is to 
separate the storm flows, take them to a nearby stream, get 
them out of the pipe, so you can separate--we used to have one 
pipe serving both needs, now you have two sets of pipes, and 
folks are no longer constructing combined sewer systems.
    Those were the heart and soul of northeast, midwest, the 
older cities, is put one pipe in to handle both. But we're 
being forced to actually put in a brand new set of pipes and 
collection systems under the ground to separate and get away 
from some of the CSO issues.
    Senator Voinovich. But even if you separate them, aren't 
you required to treat the stormwater?
    Mr. Karney. Not at this point. Although we're still looking 
at things like floatables. That's going to be the other shoe 
that drops out of Phase requirements that just came out, 
requirements having to keep track of where those storm flows 
are going.
    Senator Voinovich. Now I'm starting to get it. You do not 
have the separate systems. That's when you have a combined 
sewer system. It takes your storm water and your sewer water; 
you treat all water sources. If a flood comes along or a heavy 
rain, then you have to bypass some of that into a facility 
until it subsides. You treat that and you put it out a little 
at a time.
    Mr. Karney. You can use them that way, yes, sir.
    Senator Voinovich. But if you have separate systems, then 
the stuff that flows out of the storm sewers goes into the 
untreated water, right?
    Mr. Karney. That would be correct, yes. If you have 
separate systems it's going to go right into it, and we're 
going to start looking at floatables and making sure things are 
screened before they go out, all those interfering in the 
future, I believe.
    Senator Voinovich. But it's the--and the one that's costing 
you the most money is--which one is it?
    Mr. Karney. Right now, our biggest liability is in SSO. If 
we have to completely eliminate any discharges from the 
sanitary system, that's going to be the biggest one for us. 
Because we're going to have to construct whole new pipes to 
take things from the outer areas.
    In the case of Cincinnati, it's like our core areas, 
combined sewers, but you go out beyond that, the newer 
construction that's been done over the last few decades is all 
separate sewer.
    But those sanitary lines are going to come up and 
eventually end up in a pipe that's coming from a combined 
system and then it becomes a combined flow.
    So that's the biggest price tag for us right now. But not 
to be overlooked, the nutrient issue, as I said, it's kind of 
partially coming down from Great Lakes. I don't have a lot of 
lake frontage in Cincinnati, but I've got 30 miles of river 
frontage on the Ohio River. What's coming up from the Great 
Lakes is the other end of the nutrient issue in this toxic zone 
in the Gulf of Mexico.
    So between those two, they're going to meet somewhere 
around Cincinnati, and I'm going to look at another half 
billion dollars worth of removal of nutrients. That's not in my 
price tag, that $1 billion to $3 billion. Doesn't include half 
a billion. TMDLs, who knows what that's going to cost? That's 
still a big question.
    Senator Voinovich. So the thing about it is you really 
think that we need to review what's coming out of the EPA to 
see if it's realistic, and your organizations have put together 
stuff that will come back on enforcement and come back on some 
of these other issues that are being required to make some 
sense out of it, that the committee would have that information 
available to us; is that right?
    Mr. Karney. I don't know, have we got anything----
    Mr. Odeal. AMSA has been developing stuff. I think what 
we--what we would really like to see, I think--and the idea was 
to have a look at all these issues and look at them as we 
talked about them here--offer some stability for 10 or 15 years 
so, you can fashion a program, you can put your rates in 
effect, and you can begin to build your infrastructure. But 
these things seem to be coming piecemeal. One here and one 
here. The financial studies says it's no big deal, but 
eventually it is a big deal because it all adds up.
    Sometimes there are variants. For example, Pat Karney 
talked about one possibility is separating your combined 
sewers, but long range if you're going to be faced with 
stormwater treatment, it's probably not the thing to do. I'm of 
the belief that maybe we'd be better off to just continue 
building large capacity combined sewers, because the separate 
sewers leak so bad anyway, and we could provide a more logical 
approach.
    That's why if you're allowed to do a consistent watershed 
approach instead of arbitrarily dictatorial rules, you could 
say for this particular watershed, this makes the most 
financial, most economic sense in approaching it.
    But we need to get, as indicated, some stability in the 
regulatory environment, stability in funding, and some 
consistent approach, so that guys like us who put these 
programs together can fashion a program to sell it to the 
elected officer's, sell it to the populous, we can fund it, and 
have some stability here.
    Senator Voinovich. Let me ask, is the--I should know this. 
Is the State implementation plan doesn't include this stuff, 
does it?
    Mr. Jones. No.
    Senator Voinovich. It doesn't deal with this? You know what 
might be a good idea would be to talk about regional watershed 
recommendations, and give these folks some time to put these 
things together and recommend how they could best get the job 
done, instead of just every single entity nailing them down for 
what they're required to do.
    We want to get something done. We need some help from some 
of your organizations to come back with what are the most 
significant things we ought to be looking at now--a short, mid-
term and then long-term plan. If there are some things on the 
horizon--I think the point that Erwin made is a good one. We're 
telling everybody they have to break them apart, and you're 
saying that maybe we should build a bigger combined sewer that 
would treat the stormwater, also, along with the sanitary, 
correct?
    Mr. Odeal. I mean, that's an option. I'm not in favor, 
generally, of separating these sewers. I think in many of these 
areas what we have is really old, leaky separate sewers. They 
don't really function much different than combined sewers. If 
we were able to look at the combination of some relief sewers 
and capacity issues and a recognition of a periodic need for 
them to overflow, the water quality impacts, given the right 
design, are not going to be any worse than from a CSO, or even 
the straight stormwater, because their pure stormwater isn't 
that pure. It has bacterial problems, it carries pesticides, 
and other contaminents in it, too.
    Mr. Karney. It's interesting, it's almost heresy, but to 
talk about building combined sewers, but every time I separate 
one, I have this nagging feeling in the back of my neck that 
I'm creating a liability that's going to be incredible down the 
road, if then I have to go back in 15 years or 10 years and 
build all kinds of new treatment facilities at every one of 
those places where I cut a new pipe out into the stream, that's 
going to be horrendous. But at this point, that's the kind of 
thing we do.
    Senator Voinovich. Well, how are we doing on time? Do you 
have any questions?
    Senator Crapo. No.
    Senator Voinovich. You're OK?
    (Pause in proceedings.)
    Senator Voinovich. This is another general question 
concerning five other possible enforcement mechanisms by the 
U.S. EPA. How does that affects your decisionmaking regarding 
infrastructure improvement and rate increases?
    Mr. Karney. If we're looking at things that can be an 
additional financial burden placed on you, then that adds to a 
priority rating of what goes first. No matter whether it seems 
to do good things for the environment overall or not. You've 
got to be aware that.
    Because if you look at $5 million, $10 million, or $50 
million worth of fines, that's money that cannot go into the 
ground to repair real problems and solve environmental issues.
    Senator Voinovich. Any other comments on that?
    Mr. Odeal. Yes, I guess I just--I don't look at, in most 
cases, fines being appropriate against public agencies. The 
theory of industry is that perhaps there was economic 
advantage, and the fine levels--I think most of those bad 
actors are gone, but in terms of municipalities, transferring 
money from local taxpayers to State or Federal, doesn't 
eliminate water pollution. So I just don't see the value of it.
    I think virtually everybody that's in a capacity--I mean, 
we understand the Federal law, we want to follow the Federal 
law, we want to do what's right, but many times we get these 
nebulous situations, and it's almost like it must be bonus time 
at EPA, because all of a sudden the findings and orders roll 
out. I don't mean Ohio EPA, I mean the Federal Government.
    Or we had some ridiculous cases where U.S. EPA brought 
enforcement actions against facilities in the Cleveland area. 
We've been playing around for years and had to pay a small fine 
of a few thousand dollars, so that somebody took these cases 
off his docket. So I just had real difficulty with governments 
fining each other. I just don't think it's appropriate.
    Mr. Gsellman. One of the successes I've seen, though, with 
fining municipalities, was in the industrial pretreatment 
program, because I think at that point, the municipalities 
needed a kick in the butt, and it provided that. I think with 
that, the pretreatment program became what it was, one of the 
most successful programs ever--that came down from EPA.
    I think it was the fact that they were dealing with 
industry and with other entities outside the municipality. I 
really think that that's what gave the major impetus for that.
    I really think if you want to seek progress, it's in the 
grant funding. It's with providing the money. I think the 
communities know where they're at as far as enforcement, but 
provide the money and that's where you'll see results.
    Senator Voinovich. So the bottom line is that, that doesn't 
do very much good. Second of all, it's even more difficult when 
you're not getting any kind of grant money and it's basically--
you have to take care of the situation?
    Mr. Gsellman. Right. It's counterproductive, that lost 
money.
    Senator Voinovich. Would you say that without a Federal 
partnership program, like the WIN program--I'm not sure whether 
it's 57, or what the number is--we're not going to really deal 
with this problem in this country?
    Mr. Karney. That's an absolute. That's an absolute.
    Senator Voinovich. I guess one last one. It's a technical 
one.
    What's the difference between this bypassing and 
recombination? I don't get that. What--you bypass within the 
system and--what does that mean.
    Mr. Stevenson. In our particular situation, we had proposed 
the wet weather system that did not give it full secondary 
treatment, and then it would be recombined with the effluent 
from secondary treatment. That was what the EPA calls blending.
    A bypass could be a primary bypass where you give primary 
treatment and it goes out to the receiving stream and is not 
re-combined downsteam. So there's a technical difference 
between the two.
    What we had technically proposed was a blending issue, 
where we would put them back together and meet all of our 
effluent criteria.
    Senator Voinovich. What do you mean put them back together?
    Mr. Stevenson. Well, the secondary treatment would be one 
flow through the plant. We would have a second flow that would 
go through our swirl concentrators around secondary--to a 
second treatment, which is an actiflow treatment system. Then 
they would both converge together before they went out into the 
river. So you have two separate flow treatments.
    Senator Voinovich. Why do you do that?
    Mr. Stevenson. Because the stormwater, when it rains, can 
be treated with this wet weather system effectively, and you 
treat as much as you can through the secondary treatment, up to 
the capacity in your plant. The excess capacity being caused by 
the storm goes through this stormwater treatment, and then you 
combine them to get your final effluent.
    It's a way of treating the water without storing it and 
then treating it at a later time. So it's real time treatment.
    Mr. Odeal. I think the point is it achieves the required 
effluent level. I think one of the problems that we're going to 
face with SSO, is most of us use biological treatment, and the 
bugs need a certain amount of food, and if they get too much 
flowing into the plant, you've washed the bugs out and upset 
the whole treatment plant.
    So the goal is what is the discharge we want to meet? 
That's the goal. Unfortunately, it starts flipping back to the 
bureaucrat minds, they start talking about secondary treatment 
and percent removals, and then it's a case of micromanaging.
    In other words, ultimately I think no one should care how 
we get to the effluent, they care about the effluent. Whatever 
mystical process we might use to get there ought to be our only 
problem, and their only problem is the effluent. How we get 
there is our problem.
    I think when you start micromanaging----
    Senator Voinovich. So the main point is to look at what 
you're ultimately discharging into a stream?
    Mr. Odeal. Right.
    Mr. Stevenson. Exactly.
    Senator Voinovich. What you do to get it there ought to be 
your business and no one else's. The only help that you ought 
to be able to get is how to you pay for it, if there's some 
technology that you might get from the EPA or the State EPA to 
do that the best way----
    Mr. Odeal. There are many ways we can do it like they're 
proposing. The EPA is telling them, for the same objective, 
it's costing them a heck of a lot more money.
    Mr. Stevenson. There was a $50 million difference between 
the two systems.
    Mr. Karney. It's definitely an issue, as Senator Crapo said 
earlier, of micromanagement.
    You've got a lot of folks from Washington, DC, who don't 
understand, who really know the system, have not worked in the 
system, have not run the systems, and yet they'll come out and 
pick up a few terms and all of a sudden, they want to see those 
things on a piece of paper, because then it's easier for them 
to determine whether or not something by the letter has shown 
up.
    Not necessarily whether it's going to work or where the 
dollars are going to come from, or what the effect is, but 
whether or not it meets certain levels.
    There's a little checklist that makes it much easier to 
say, ``Oh, you didn't do it correctly''. We didn't do it the 
way you think is correct, but it's working a hell of a lot 
better.
    Senator Voinovich. Do we have the water system--maybe 6 
months from now we'll have somebody from air and water----
    Mr. Karney. There are some good folks up there. Mike Cook 
has been talking for a long time about urban stream standards 
and acknowledging the fact that urban streams are not going to 
go back to pristine environments, but unfortunately some of the 
voices of reason get pretty overwhelmed by other forces within 
the agency.
    Senator Voinovich. Well, all I know is this, that 
Steelhead, which was, 30 years ago, reported as one of the most 
polluted creeks in the State of Ohio, and we're doing something 
right. It's getting better.
    Senator Crapo. Finished?
    Senator Voinovich. Yes.
    Senator Crapo. Well, I would like to thank this panel, as 
well as the other panels, for coming today. We've reached the 
end of our time limit here, but I can tell you that both the 
written testimony, which I read last night in my hotel, and the 
verbal testimony that we've had today, is going to be very, 
very helpful to us as we proceed.
    I would encourage you all to continue to keep us informed, 
and as well as members of the House of Representatives who will 
be working on this as well.
    To try to help make certain that your points of view are 
heard and understood as we proceed. We will be moving ahead to 
try to put together a major forum to not only the regulatory 
arena but the financing arena, and to situations which we face 
in terms of providing the necessary resources to meet our 
infrastructure needs.
    I believe it is becoming better understood what we are 
facing. I think in terms of the environment and the kind of 
challenges we face in the country, this is the biggest one that 
we face in the country.
    I think it should start getting more attention, and as its 
public starts to realize the kind of difficulties that we face, 
that we've discussed here today, I think we'll start seeing a 
lot more public support for the kind of reforms that we've 
discussed.
    So, again, I commend you all, and thank you for providing 
this information to us.
    Unless there's anything further?
    Senator Voinovich. Mr. Chairman, I'd like to thank you 
again. This is one of my best friends in the Senate. I could--
you can tell from what he has to say, we think a lot alike on a 
lot of these issues, and I think we're really fortunate to have 
somebody as conscientious and bright and committed to heading 
up this committee.
    Even though it's not my subcommittee, I know this, that I 
will do everything I can to help him get the job done. Do you 
want to know something? He will get the job done. Thank you.
    Senator Crapo. Well, thank you. I was just reminded that we 
should remind the witnesses today that we will keep the record 
open for 2 weeks, so if you want to supplement the record with 
any further information or responses to questions, you're very 
welcome to do so.
    We may come up with some other questions we'll submit to 
you and ask you to answer them in writing, if you would. So we 
will keep the record open for 2 weeks.
    Senator Voinovich. One last thing. I would really be 
interested in finding out what your respective national 
organizations would be willing to contribute to this committee 
in terms of input.
    Senator Crapo. That is very helpful and I would appreciate 
that being submitted as well.
    Senator Crapo. I want to return the compliments. This isn't 
just a mutual admiration thing. I've said to many of my friends 
that Senator Voinovich is one of the brightest lights we've got 
in the Senate, and it was great of Ohio to send him there.
    You can tell from the hearing today, and just the fact that 
he asks that we bring our subcommittee to Ohio, and his 
introduced legislation, and his not only interest in but 
understanding of the issues, is one of the reasons he's so 
helpful in the Senate.
    I look forward to working with you, George, to make certain 
we get the right solution in this legislation.
    With that, this hearing is adjourned.
    [Whereupon, at 1:16 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
            Statement of Lydia J. Reid, Mayor, Mansfield, OH
    Thank you for the opportunity to provide information relating to 
potential required expansion of our wastewater treatment plant. The 
city of Mansfield Wastewater Treatment Plant (WWTP) service area 
includes 55,000 people along with business and industry. Sewer service 
is provided by a separate sanitary system and the wastewater is treated 
in a 12 MGD WWTP before discharge to the Rocky Fork of the Mohican 
River. The collection system was originally a combined sewer system 
designed to carry both sanitary sewage and stormwater. In the mid-
1980's it was converted to a separate sanitary system. This change from 
combined system to separate sanitary system brought the city under a 
more stringent regulatory regime.
    U.S. EPA regulations are based on the assumption that flows in a 
separate sanitary system will not have a significant stormwater 
component and consequently there will be no sanitary sewer overflows 
(SSO) and no plant bypasses. The Mansfield system has no sanitary sewer 
overflows. At the WWTP, dry weather flow averages about 9 MGD. It is 
processed through primary treatment, secondary treatment and 
disinfection before discharge to the Rocky Fork. During wet weather, 
intermittent flows of up to 20 MGD are processed in this way. Above 
that level, some flows are diverted to the 5 million gallon 
equalization basin (EQ basin) for storage and later treatment. In 
extremely high flow situations, the EQ basin, which provides better 
than primary level treatment, overflows. EQ basin overflow combines 
with treated secondary effluent and the entire flow is disinfected. The 
total flow meets NPDES (National Pollutant Discharge Elimination 
System) permit limits for concentration. We believe that EQ basin 
effluent alone meets NPDES permit limits for concentration.
    Our NPDES permit is about to be renewed by Ohio EPA. It appears 
that Ohio EPA is seeking requirements in the permit that would require 
a plant expansion even though we currently meet concentration limits at 
all flow levels. Given the high quality of our effluent and given the 
many competing demands for our municipal resources, we do not believe 
that we should be required to provide any additional treatment unless 
it is necessary. Our sewer rates average over $300 per year per hookup. 
This is a level that U.S. EPA recognizes as sufficient to properly 
maintain a system. At this point we are not certain what our renewed 
permit will require. A number of factors will influence our permit 
renewal and the cost of implementation to our ratepayers.
    Currently U.S. EPA is working on two main issues that could affect 
our permit. The first is the draft sanitary sewer overflow regulation 
that was signed by former Administrator Browner in the last days of the 
Clinton administration but not yet published in the Federal Register. 
It is being re-examined by the Bush administration before publication 
for comment.
    Among other issues, the preamble to the draft sanitary sewer 
overflow regulation requested comment on the level of treatment 
required for flows reaching the WWTP. We intend to comment on this 
rulemaking when it is published in the Federal Register. We believe 
that meeting NPDES permit limits should be sufficient to comply with 
the law. We should not be required to provide treatment for the sake of 
treatment.
    The second important issue relates to the development of the U.S. 
EPA policy on ``recombination'' of flows. Recombination is the blending 
of the part of the total flow that is diverted from secondary treatment 
with those flows that receive secondary treatment. In Mansfield the 
recombination only occurs during wet weather. In a letter to Senator 
Frist dated March 7, 2001, U.S. EPA indicated that NPDES permit issuing 
authorities (in our case, Ohio EPA) have considerable flexibility in 
addressing the recombination situation. Generally speaking, if the 
recombined flows meet permit limits based on secondary treatment or 
more stringent water quality-based effluent limits and the WWTP was 
designed to operate in this fashion, then this practice may be approved 
in the permit. However this policy has not yet been finalized. The 
agency states that it will be developing guidance addressing this 
issue. We plan to monitor and participate as necessary. We believe that 
the guidance should also clarify that, in a separate sanitary system, 
load limits may increase during wet weather. At this point we are 
somewhat unclear as to Ohio EPA's view on the recombination issue other 
than that it is willing to consider various alternatives. We will know 
more in the near future.
    If U.S. EPA confirms this interpretation in the recombination 
guidance, Ohio EPA will be able to act on the Mansfield situation as it 
deems appropriate. We do not believe that Ohio EPA should be denied the 
ability to draft flexible permits as a result of the U.S. EPA 
interpretation.
    We ask that you continue to monitor these issues both in the 
regulatory process and through confirmation hearings for the U.S. EPA 
assistant administrator for water: If unsupportable determinations are 
made by U.S. EPA, we would like to discuss with you options that may be 
available. Last year Congress acted through the appropriations process 
to require further examination of the TMDL (Total Maximum Daily Load) 
rule. Such an approach could be appropriate for these issues. Another 
approach to overly stringent U.S. EPA requirements would be the 
expansion of the grant program in the Wet Weather Water Quality Act of 
2000 to provide financial support to cities facing high or increasing 
wastewater treatment costs due to wet weather. Finally, U.S. EPA should 
aggressively develop and approve more cost-effective wastewater 
treatment technology.
    If rule interpretation continues in its current direction, then the 
City is on a path with EPA to spend tens of millions of dollars to 
provide additional treatment for 3\1/2\ percent of total annual flow to 
the WWTP in order to eliminate less than 10 annual EQ basin overflows, 
which are currently meeting all NPDES permit requirements.
    In closing, I would like to thank you for your interest in these 
matters and for your efforts on behalf of the cities in Ohio.
                               __________
    Statement of Robert Vincenzo, Mayor, City of St. Clairsville, OH
    St. Clairsville is a city of 5,100 in the eastern side of the 
state, 10 miles from Wheeling, West Virginia. We are located in 
Belmont, one of Ohio's Appalachian Counties. Our City is largely 
residential and service based. We are the county seat. The largest 
retail area in mid eastern Ohio is located on the eastern edge of my 
City.]
    In the early 1980's the city took advantage of U.S.E.P.A.'s 75 
percent grant to build our main Waste Water Treatment Plant, a 950,000 
GPD average design. We also rehabilitated sewer lines in an effort to 
limit infiltration and inflows. The latter has been largely a failed 
effort. Although we have repeatedly tested for and eliminated inflow, 
we still have a tremendous infiltration problem whereby our flow 
increases five fold during wet weather. Our old clay lines dating to 
the 1920's act as a leech field collecting subsurface drainage. This 
causes flooding of pump stations, the plant, and homes. In 2002 we will 
bid the replacement of 4 pump stations (about \1/3\ of the total) and 
5,200 feet of lines (almost 3 percent of our total) at an estimated 
cost of $600,000.
    In performing this upgrade in the 1980's we achieved one of the 
highest wastewater rates in Ohio. About 24 percent of our current 
department budget goes to debt service. According to the most recent 
OEPA statewide rate survey (issued February, 2001 for 1999 calendar 
year) St. Clairsville's rate is in the 33d percentile. But just after 
that study was done the city boosted its rate another 27 percent (in 
August 2000) and if that number is factored into the OEPA survey our 
rate is in the 12th percentile out of 444 systems reporting. (As a side 
note, customers take a double hit in that we are in the top 10 
percentile in water rates statewide.)
    As these numbers indicate St. Clairsville has taken steps to help 
itself by paying much of our own way. We believe that despite our many 
needs we have a comparatively strong system, but our residents have a 
high rate burden, and to fulfill our needs the rates will go even 
higher unless there is some infusion of outside capital. Ohio's Public 
Works grants have helped, but the effectiveness of that was diluted 
when the State allowed these funds to be used for road resurfacing and 
tailored the grant point system to rank these politically popular 
projects higher than wastewater projects. Our wastewater rates 
constitute about 2 percent of household income. We do not believe we 
can push them much higher. Our current needs in brief include:
    (1) Flow equalization to prevent system surcharging (flooding) 
during storms.
    (2) Pump station and line replacement.
    (3) Hydrogen Sulfide (H2S) control. (This gas occurs naturally and 
destroys concrete and structures in the collection system.)
    (4) Relocation or expansion of the city's second plant, a 90,000 
GPD design structure that is at design capacity. Relocation would allow 
us to move the plant from a congested area, and extend service to an 
underserved area. In St. Clairsville's experience expansion of 
wastewater treatment definitely yields new development. However, Ohio's 
pending annexation law as drafted makes such expansion far less 
attractive to the city. Neither the surrounding County or the Township 
has filled this need historically.
    These above needs total about $10 million for this basic utility.
    We do not criticize the need for clean water, we support that. We 
do feel that EPA's focus should be on communities meeting their permit 
limits, and should not be a micro management type control of plant 
operations. Instead EPA should focus on the discharge quality, and not 
on regulating the specific increments of the process used to reach that 
quality.
    EPA has been very helpful in assisting the city technically in 
solving a difficult treatment problem which has stymied various city 
engineering consultants. The work of Ohio EPA in conjunction with our 
operator solved a treatment problem and resulted in a nationally 
published technical paper to help others.
    So, what help do we need? Our answer is nothing you have not heard 
too often before . . . more money. We have dedicated our own resources 
to improving our systems, and we have taken the unpopular steps of 
pushing our rates to the limit. Our customers have shouldered the 
burden of support. But to restore these systems, particularly our 
system will take resources beyond that which we currently have or will 
have.
    I am aware that there is not an instant solution for our situation. 
However, I am very appreciative of your concerns to conduct this 
hearing for some positive feed back and I am very pleased to have an 
opportunity to testify before your Committee and provide additional 
insight to the plight of Small Cities and Villages. Thank you.
                               __________
     Statement of Christopher Jones, Director, Ohio Environmental 
                           Protection Agency
    Chairman Crapo, Senator Voinovich, thank you for the opportunity to 
speak about the wastewater infrastructure needs of Ohio communities. 
Those needs are great and the resources to address them are currently 
not adequate.
    The Clean Water Act has brought about tremendous improvement in the 
quality of Ohio waters. By mandating control of point source 
discharges, including sewage treatment plants, the Act has enabled many 
streams to recover from low oxygen conditions, excess phosphorus 
discharges, and other degradation. There are many dramatic examples of 
the results, most notably perhaps the renaissance along the banks of 
the Cuyahoga River in Cleveland and the resurgence of Lake Erie as a 
world class fishing destination. I understand that Senator Voinovich 
may be planning a fact-finding mission on the Lake this summer to 
confirm for himself that the walleye and perch are really biting.
    In the 1970's and 1980's, many of the infrastructure projects that 
enabled water quality improvements throughout the State were funded 
through the Federal Construction Grants program, which provided 75 
percent of the cost of sewage treatment infrastructure mandated by the 
Clean Water Act. As you know, that program was converted to a low-
interest loan program administered by the States.
    The State Revolving Loan Fund program is currently due to be 
reauthorized, and I know that Governor Taft has written you to express 
his strong support for your bill to do that, Senator Voinovich. We are 
particularly pleased that S. 252 would double the current level of 
funding to $3 billion per year over 5 years. If enacted by Congress and 
signed by the President, S. 252 will greatly assist communities in Ohio 
and throughout the Nation with the construction, expansion, and 
improvement of sewage treatment facilities.
    However, even doubling current spending will not adequately meet 
the mandates in the Clean Water Act. I would like to briefly outline 
the needs in Ohio, and then to suggest two areas in which targeted 
resources are particularly needed.
    Ohio EPA is in the process of updating the Clean Water Needs 
Survey, which we do every 5 years in cooperation with U.S. EPA. 
Unfortunately, the 2001 results are not yet available, so the figures I 
am about to give you are based on the 1996 survey. We hope to have more 
current numbers by mid-summer.
    The total infrastructure need in Ohio, according to the survey, was 
$7.4 billion. That need can be further broken out as follows:
    <bullet> $1.1 billion for wastewater plant construction and 
improvement
    <bullet> $900 million to repair existing sewers
    <bullet> $900 million for construction of new sewers
    <bullet> $97 million for storm water controls
    <bullet> $198 million for nonpoint source pollution abatement
    <bullet> and $4.2 billion for combined sewer overflow elimination.
    Combined sewer overflows account for more than half of the 
infrastructure needs in Ohio. Frankly, Senators, even with a dramatic 
increase in low-interest loan dollars, this burden is too much for many 
communities. There are 92 Ohio communities with combined sewers, and 
they range from the largest of our cities, such as Cleveland, Akron, 
Toledo, Youngstown, and Cincinnati, to very small communities like Van 
Wert and Lisbon. In fact, a total of $16 million for CSO controls is 
needed in communities with fewer than 1,000 residents.
    As an example, Port Clinton, a northwestern Ohio town of a little 
more than 7000 people, has completed a Combined Sewer System Long Term 
Control Plan. The plan recommends improvements over the next 5 years of 
between $8 million to $14 million. Port Clinton's annual average sewer 
rate is now $566, 77 percent higher than the State average. To pay for 
the improvements, in today's dollars the average sewer bill will 
increase to $846 in 2004 , and to $1,132 in 2010. These financial 
projections already include a $1.5M grant expected in 2002 as part of a 
previous budget bill.
    Eliminating combined sewer overflows is important if we are to 
continue to improve water quality. But the cost of controls is simply 
out of reach of most communities. Noncompliance brings Federal 
sanctions, including monetary penalties that simply exacerbate the 
problem. What is needed are Federal grant dollars, matched with State 
and local funds. This is the only way that CSO control infrastructure 
is likely to be built on the necessary scale nationwide, particularly 
when you consider that the same communities that must invest in these 
controls must also maintain aging wastewater treatment plants and sewer 
lines.
    The second area where Ohio would like to see targeted Federal 
grants is to provide sewers in low-income areas where failing septic 
systems are causing public health concerns. It is difficult to believe 
that in the year 2001 in the United States of America, people are 
living with raw sewage in the back yard, in the drainage ditch, or in 
the creek. But it's true in far too many communities. The 1996 Clean 
Water Needs Survey identified 199 areas in Ohio with high densities of 
failing on-lot septic systems, a number we believe significantly 
understates the real need. We are attempting to gather more accurate 
information in the survey that is ongoing now.
    Clearly, exposure to drainage from a failing system threatens 
public health, but the threat does not end there. Pooling effluent is a 
breeding ground for mosquitos, which carry encephalitis, including the 
form known as West Nile Virus. Ohio expects to see West Nile Virus, 
which is potentially fatal, in the far eastern parts of the State this 
summer. At the same time, Lake County has filed a complaint, which we 
are now investigating, that the neighboring county to the east is 
allowing discharges from on-lot systems to go unabated, affecting water 
quality in Lake County downstream. These are our easternmost counties, 
and the places where mosquito breeding is particularly worrisome right 
now.
    Community development is also impeded by failing on-lot systems. 
Obviously, a home with a septic system that does not work properly 
declines in property value. It becomes even more difficult to 
revitalize these low income areas, because few people would choose to 
live with such a nuisance if they could afford not to.
    One example of a small Ohio community that is doing its best to 
rectify this problem is the village of Morristown, in Belmont County. 
The Village has been trying for years to find an affordable way to 
install sewers. Raw sewage from failing septic tank systems has been 
confirmed in the storm sewers and creeks around the town.
    Development in the Morristown area has grown stagnant due to the 
lack of suitable wastewater facilities. Ordinary businesses that we all 
take for granted, such as a restaurant or a laundromat, have been 
unable to locate in the area.
    The village has evaluated different alternatives, trying to find 
something that would be affordable for the 350 residents. The most 
recent proposal is for the village to construct sewers to tie into the 
existing Belmont County Fox Shannon wastewater treatment plant. The 
county has already extended sewers to the edge of the village to enable 
the village to tie in. However, the cost to the village residents could 
be as high as $105 per month for the approximately 130 households in 
the village without supplemental grants to bring down the cost.
    Low interest loans, even zero interest loans, are not particularly 
helpful in this situation. Residents living at or near poverty level 
simply cannot afford to repay the loan. Again, Federal grants are 
needed. I don't think it is an exaggeration to say that there are 
places in America, places in Ohio, where the lack of adequate sewage 
treatment compares to that in some Third World countries. The Federal 
Government simply must help.
    I do not want to leave you with the impression, however, that 
increasing funding is the only thing we can or should do. Regulatory 
flexibility will help available dollars go further and reduce the 
obstacles to compliance for many communities. Among the things Congress 
can do are:
    Say Clearly That State Primacy Means Primacy.--The CWA should 
explicitly articulate minimum standards that States must meet to 
achieve primacy, that is, delegation of the Federal program. Once the 
State is awarded primacy, there should be no independent Federal 
presence unless the State fails to perform its obligations. The Federal 
agency should not second-guess enforcement decisions or permit 
conditions.
    Create Block Grant Funding.--Currently, funding under the Clean 
Water Act is a maze of separate grant programs, each with its own 
requirements. The goal of restoring and preserving watersheds drives 
all the State's clean water activities: permitting, enforcement, 
wetlands restoration, nonpoint source mitigation, monitoring, and so 
on. Yet most of these activities are funded through separate grants, 
imposing a burdensome grant tracking obligation. Clean air programs are 
managed for the most part under a single grant, and successfully so. 
Federal funding under the Clean Water Act should be changed to a block 
grant system, with the State held accountable for maintaining the 
fundamental standards of a delegated program, and free to allocate 
Federal dollars according to its unique needs to achieve that end.
    Recognize That When Everything Is A Priority, Nothing Is A 
Priority.--Currently, U.S. EPA is pressing States, and ultimately 
communities, to move forward simultaneously on all fronts. Municipal 
and industrial permits must be updated every 5 years, sewer overflows 
must be controlled, storm water must be controlled, wetlands must be 
protected, coastal areas must be managed, stream uses must be 
designated, and on and on. Yet none of these efforts is adequately 
funded. The result is that States can do a little of everything, and 
not enough of anything.
    Congress should change the term of discharge permits from 5 years 
to 10 years. States spend inordinate resources renewing permits every 5 
years, even though there is frequently no substantive change in permit 
requirements. There is a national backlog of expired permits, largely 
because States recognize that renewal on a 5-year schedule is often a 
paperwork exercise that produces less benefit than actual field work.
    In addition, the reporting schedule under Section 305(b) should be 
changed from every 2 years to every 5 years. This section requires 
States to report water quality trends. Meaningful changes are unlikely 
to show up on a 2-year cycle. Five year reporting will ease the 
resource burden without negatively impacting forward progress.
    GAO should evaluate whether States without an active 
antidegradation program are making less progress toward the ``fishable, 
swimmable'' goal, or whether antidegradation enforcement makes little 
difference in States' progress. The goal of antidegradation is to 
``keep clean waters clean.'' However, the Act is unclear with regard to 
when a discharge is significant enough to trigger this provision. Many 
States, therefore, fail to implement antidegradation, while others, 
including Ohio, devote significant resources to it. A GAO analysis 
could help to determine whether the antidegradation process effectively 
supports the goal of the Clean Water Act.
    Chairman Crapo, Senator Voinovich, thank you for your willingness 
to explore this problem and work with us toward constructive solutions. 
On behalf of Governor Taft and the many communities in Ohio that are 
struggling to address their wastewater infrastructure needs, your 
interest is much appreciated.
    Periodically, USEPA conducts a national survey of the needs for 
water quality-related facilities and improvements. This survey, called 
the Clean Water Needs Survey (CWNS), provides EPA with a detailed 
estimate of the funds needed in Ohio and across the country for 
activities necessary to comply with the requirements of the Clean Water 
Act. To assist USEPA, the Ohio EPA collects statewide data from 
communities and compiles the results. Since the best source of data are 
the communities of the state, we rely on them to provide us with 
information relative to specific water quality needs.The needs 
presented here are from the 1996 Clean Water Needs Survey. The needs 
are based on information provided by individual communities and Ohio 
EPA district offices. The majority of the costs for Categories I 
through IVB are based on documents provided by the community. The 
majority of the costs for Categories V, VI and VII are based on 
costgenerating computer models used by USEPA.

                  1996 Clean Water Needs Survey Summary
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Category I: Secondary Treatment....................         $830,000,000
Category II: Advanced Treatment....................         $248,000,000
    Wastewater Treatment Costs Subtotal............       $1,078,000,000
Category IIIA: Infiltration/Inflow Correction......         $748,000,000
Category IIIB: Sewer Replacement/Rehabilitation....         $191,000,000
    Existing Sewer Rehabilitation Costs Subtotal...         $939,000,000
Category IVA: New Collector Sewers.................         $358,000,000
Category IVB: New Interceptor Sewers...............         $534,000,000
    New Sewer Construction Costs Subtotal..........         $892,000,000
Category V: Combined Sewer Overflow Abatement (both       $4,199,000,000
 documented and modeled)...........................
Category VI: Storm Water (both documented and                $97,000,000
 modeled)..........................................
Category VII: Nonpoint Source Pollution Abatement           $198,000,000
 (both documented and modeled).....................
    Grand total....................................       $7,403,000,000
------------------------------------------------------------------------

    It is important to note that the cost in these tables are at least 
5 years old. Communities have implemented improvements since 1996 that 
are not reflected here. In addition, new areas of needs have been 
identified since 1996 that are not reflected here at all.
    To update this information, Ohio EPA has been asking cities, 
villages, counties, sewer districts, and health departments across the 
State for assistance with collecting information regarding wastewater, 
storm water, and nonpoint source pollution control needs in Ohio. In 
order to update and correct this information for the 2001 effort, we've 
requested information from more than 1,000 separate entities asking 
them to provide updated information for the CWNS.

                                                              1996 Clean Water Need Survey
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                 1,000 < pop <       3,500 < pop <
                  Summary for Ohio                           Total            pop < 1,000            3,500              10,000            pop >10,000
--------------------------------------------------------------------------------------------------------------------------------------------------------
Category I: Secondary Treatment.....................        $830,000,000         $71,000,000         $89,000,000         $23,000,000        $647,000,000
Category II: Advanced Treatment.....................        $248,000,000         $14,000,000         $24,000,000         $10,000,000        $200,000,000
    Wastewater Treatment Costs Subtotal.............      $1,078,000,000         $85,001,000        $113,001,000         $33,003,500        $847,010,000
Category IIIA: Infiltration/Inflow Correction.......        $748,000,000         $10,000,000         $11,000,000        $287,000,000        $440,000,000
Category IIIB: Sewer Replacement/Rehabilitation.....        $191,000,000                  $0          $3,000,000          $4,000,000        $184,000,000
    Existing Sewer Rehabilitation Costs Subtotal....        $939,000,000         $10,000,000         $14,000,000        $291,000,000        $624,000,000
Category IVA: New Collector Sewers..................        $358,000,000        $105,000,000         $81,000,000         $36,000,000        $136,000,000
Category IVB: New Interceptor Sewers................        $534,000,000         $46,000,000         $49,000,000         $25,000,000        $414,000,000
    New Sewer Construction Costs Subtotal...........        $892,000,000        $151,000,000        $130,000,000         $61,000,000        $550,000,000
Category V: CSO Abatement (doc + model).............      $4,199,000,000         $16,000,000        $287,000,000        $317,000,000      $3,579,000,000
Category VI: Storm Water (doc+model)................         $97,000,000                  $0                  $0                  $0         $97,000,000
Category VII: NPS Pollution Abatement (doc + model).        $198,000,000                  $0                  $0                  $0        $198,000,000
    Grand Total.....................................      $7,403,000,000        $262,000,000        $544,000,000        $702,000,000      $5,895,000,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

    The above table breaks down the information by population density 
and category of needs. As can be seen from the Table, Category V: 
Combined Sewer Needs is an area where Ohio has significant needs: $4.2 
billion. In Ohio, we have 92 communities with CSOs and those 
communities range from the very small to major sewer districts such as 
Cincinnati and Cleveland. Unfortunately, the significant costs to deal 
with CSOs and protect water quality are so high that projects are often 
unaffordable, even in large communities like Akron, Cincinnati and 
Cleveland. This is why grant money is needed to lower the cost to the 
local community.
    A second area that should be highlighted is the issue of failing 
individual home sewage disposal systems. Surfacing sewage from failing 
systems or pooled effluent from discharging systems can be a direct 
public health threat as well an ideal breeding ground for mosquitos. In 
addition, there is a direct economic cost due to the lower property 
values for homes in these areas, The CWNS identified 199 different 
areas in Ohio with high densities of failing individual home sewage 
systems. Ohio EPA feels the 199 count signifcantly underestimates the 
existing need and is conducting a better survey to improve our data. 
Buildiong new sewer plants and/or accessing centralized sewers is often 
the only way to abate the unsanitary conditions. New sewer construction 
is usually unaffordable due to the high costs for new sewers and low 
incomes of many rural areas, especially in southeast Ohio's appalachia 
area. Based on the CWNS data, we estimate that $240 million is needed 
to provide sewers and/or treatment to the 199 area identified in the 
1996 CWNS. Without direct grant money to buy-down the costs of these 
projects, the problem will continue unabated.
                               __________
    Statement of Erwin J. Odeal, Executive Director, Northeast Ohio 
                        Regional Sewer District
    As executive director of the Northeast Ohio Regional Sewer District 
(District), I appreciate this opportunity to provide information to the 
Subcommittee on Fisheries, Wildlife, and Water, Committee on 
Environment and Public Works on wastewater infrastructure needs in the 
State of Ohio. The District has served the communities of Northeast 
Ohio for almost thirty years, bringing vast improvements to the water 
quality of the area and contributing to the rebirth of the Cleveland 
area. I appreciate the opportunity to tell you about the District's 
efforts and our needs and concerns for the future of the environment .
    The District has invested significant resources to address water 
infrastructure needs in Northeast Ohio. Since its creation in 1972, the 
District has invested over $1.6 billion for capital improvements to the 
wastewater conveyance and treatment system throughout its 54 community 
service area. The major thrust of these improvements included upgrades 
of our three treatment plants (Easterly, Westerly and Southerly), 
construction of five major interceptors (Southwest, Heights/Hilltop, 
Mill Creek, Cuyahoga Valley and Northwest) and numerous intercommunity 
relief sewers throughout the District's service area. As noted at the 
top of the Attachment 1 Summary, these projects were financed in part 
by Federal grants under the Clean Water Act Construction Grants Program 
(35 percent) and recent special Federal appropriation grants (4 
percent), with the balance (61 percent) paid for by the District's 
ratepayers either as repayment of low interest loans received under 
Ohio's State Revolving Fund program, the Water Pollution Control Loan 
Fund (WPCLF), or as pure NEORSD local funds.
    The most recent regulatory requirement imposed upon the District is 
our combined sewer overflow (CSO) management and reduction program. 
This program resulted from Ohio's implementation of U.S. EPA's 1994 
Combined Sewer Overflow Policy. Included in this effort is construction 
of CSO storage tunnels and tanks, relief sewers and treatment 
facilities, CSO system rehabilitation and/or modification, and 
potentially, sewer separation projects. These projects are being 
conducted on a watershed basis, enabling the District to identify and 
evaluate the impact of combined sewers and numerous other stressors to 
water quality in the Northeast Ohio area. As noted on the bottom of 
Attachment 1, the District has spent over $220 million to date on its 
CSO program, of which $26 million was funded through Federal grants (11 
percent) with the balance paid for by the District's ratepayers, either 
as repayment of low interest loans received from the WPCLF program (66 
percent) or as pure NEORSD local funds. It is expected that the total 
cost to the District for CSO projects could approach $1 billion over 
the next 15 years.
    As you can see from the numbers above and those in Attachment 2, 
the burden of wastewater infrastructure funding has shifted from 
significant Federal grants, which do not require repayment, to State 
revolving loans, which must be repaid. The ratepayers' burden has 
increased from about 37 percent to over 90 percent. While it is 
impossible to calculate the potential rate increases that will be 
required by ongoing and future regulatory requirements, there is no 
question that, without additional funding resources in the form of 
grants and low or zero interest loans, the District's ratepayers will 
continue to bear essentially all of the costs of these expensive 
programs.
    The District strongly supports the Water Infrastructure Network 
(WIN) and Water Infrastructure Caucus in their efforts to identify a 
mechanism for closing the large funding gap that exists today. The 
level of infrastructure improvement required by existing and future 
Clean Water Act requirements exceeds the amount of available funding by 
orders of magnitude. This fact is recognized by EPA as well as the 
State and local entities attempting to improve water quality and 
protect the public. A consistent source of funds, distributed in the 
form of grants and low or zero interest loans, is the only way that 
municipalities with limited resources will be able to maintain the 
water quality improvements achieved to date and assure further 
improvement in the future. Information on the WIN and Win's recent 
recommendation report, WINow, are included in the packet of materials 
provided.
    In addition to funding wastewater infrastructure needs, however, 
the District believes that there is a great deal that can be done to 
improve local communities' ability to address water quality issues in 
an efficient and cost effective way. One of the key impediments to this 
is the lack of programmatic interaction between the current EPA 
mandates for CSOs, Separate Sanitary Overflows (SSOs), Stormwater 
management and Total Maximum Daily Loads (TMDLs).
    Currently, communities are required to address CSOs, SSOs and 
stormwater through three separate regulatory programs. Each program 
requires extensive monitoring, infrastructure modification/capital 
investment, and recordkeeping and reporting. Yet the need for these 
three programs is the same: the ability of municipal wastewater and 
stormwater systems to address wet weather impacts on water quality. It 
has been EPA's position that these separate programs will come together 
through the TMDL process. Yet even through TMDLs, the three programs 
remain separate and independently enforceable. There is no flexibility 
for communities prioritize their water quality issues and begin 
addressing the most significant sources of water quality impairment 
first.
    As a member of the Association of Metropolitan Sewerage Agencies 
(AMSA), we have been working toward proposing legislation that would 
give EPA the authority to combine these separate regulatory programs 
into a unified wet weather regulatory program. A unified program would 
enable municipalities to evaluate the sources of their wet weather 
water quality problems and rank them by environmental benefit, thereby 
allowing the community to address the most severe environmental 
stressors first and getting the ``most bang for the buck.'' To date, 
EPA has spoken of the benefit of such a unified program, but has taken 
no action to pursue this course of efficient and cost effective 
environmental protection. A legislative mandate would certainly provide 
the legal authority and impetus for such a reworking of Clean Water Act 
requirements.
    Increased flexibility also represents an opportunity to jump start 
the process of restoring urban streams through adoption of urban water 
quality standards that are tailored to specific watersheds. We believe 
that this tailoring also has the potential to result in substantial 
cost savings for the public. Typically, streams which predominately 
drain urban areas are affected by the complex land use patterns to such 
an extent that they are not capable of attaining the current water 
quality standards, which are benchmarked against the most pristine 
areas of the State. We believe that a cooperative program between 
watershed communities and regulatory agencies must be formed to start 
restoration processes and evaluate land use practices that threaten the 
last remaining habitat along streams. Communities need to be empowered 
and encouraged to understand urban impacts on streams and look at the 
potential value of the resource to the community. State regulatory 
agencies need flexibility within Federal regulatory guidelines to adopt 
standards that make sense for streams that are substantially altered by 
their surrounding land use patterns.
    We believe these are important new directions that have the power 
to result in substantial improvements to urban streams. However, at the 
same time we are concerned that these programs might be stalled by the 
inflexibility of current Federal regulatory guidelines. Current 
regulations have been interpreted to allow revisions of water quality 
standards only where substantial and widespread social and economic 
impact is at issue. In addition, EPA has been resistant to accepting 
Ohio EPA's proposed use of biological criteria as a holistic measure of 
stream health. Clean Water Act requirements must be both realistic and 
accepting of innovation and creativity to encourage progress in 
improving urban water quality.
    Encompassing all of these issues is the lack of a sound scientific 
basis driving the management of wet weather flows and determining 
appropriate water quality. While EPA has committed to do so, it has 
failed to pursue what we believe to be the key to effective wet weather 
management--the development of wet weather standards and associated 
management techniques. Until the impact of wet weather flows and 
urbanization are studied and scientifically defensible water quality 
standards are developed, municipalities will be spending billions of 
dollars to address non-existent or marginal water quality impacts 
simply because the current dry weather-based regulatory scheme requires 
such actions. In addition, the burden of water quality compliance will 
continue to be placed on point source discharges such as publicly owned 
treatment works, when the most significant sources of impairment is 
actually from non-point source (i.e.) agriculture and urban runoff.
    We would be most interested in continuing the discussion of 
modifications to current legislative and regulatory guidelines in ways 
that we believe would vastly enhance our potential to make substantial 
progress on the overall improvement of water quality and the 
restoration of urban streams. I appreciate the subcommittee's interest 
in this area, and welcome any opportunity to be of assistance.

                                                                      Attachment 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                             USEPA       USEPA Special   Total Federal                                     Total Local
              Total NEORSD Capital Costs                 Construction    Appropriation     Share  [In       SRF Loans     NEORSD Funds      Share [In
                                                            Grants          Grants          percent]                                         percent]
--------------------------------------------------------------------------------------------------------------------------------------------------------
NEORSD Whole Capital Program 1972-2000:
  $1,609,750,000......................................    $555,500,000     $72,000,000              39     $387,400,000    $594,850,000              61
NEORSD CSO Control Capital Program Component 1972-
 2000:
  $221,800,000........................................     $14,300,000     $12,000,000              11     $145,400,000     $50,100,000              89
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                      Attachment 2.--EPA Construction Grant Program vs. Post-Construction Grant Era
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Total Federal                                     Total Local
                                                         Total NEORSD    USEPA Grants      Share  [In       SRF Loans     NEORSD Funds      Share [In
                                                         Capital Costs                      percent]                                         percent]
--------------------------------------------------------------------------------------------------------------------------------------------------------
NEORSD Whole Capital Program:
  1972-1990...........................................    $881,100,000    $555,500,000              63               $0    $325,600,000              37
  1991-2000...........................................    $728,650,000  \1\ $72,000,00              10     $387,400,000    $269,250,000              90
                                                                                     0
NEORSD CSO Control Capital Program Component:
  1972-1990...........................................     $23,800,000     $14,300,000              60               $0      $9,500,000              40
  1991-2000...........................................    $198,000,000  \2\ $12,000,00               6     $145,400,000     $40,600,000              94
                                                                                     0
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Reflects FY 1995, FY 1997 & FY 1998 USEPA Special Appropriation Grants.
\2\ Reflects FY 1997 & FY 1998 USEPA Special Appropriation Grants.

[GRAPHIC] [TIFF OMITTED] 78071.011

[GRAPHIC] [TIFF OMITTED] 78071.012

[GRAPHIC] [TIFF OMITTED] 78071.013

[GRAPHIC] [TIFF OMITTED] 78071.014

[GRAPHIC] [TIFF OMITTED] 78071.015

[GRAPHIC] [TIFF OMITTED] 78071.016

[GRAPHIC] [TIFF OMITTED] 78071.017

[GRAPHIC] [TIFF OMITTED] 78071.018

[GRAPHIC] [TIFF OMITTED] 78071.019

[GRAPHIC] [TIFF OMITTED] 78071.020

[GRAPHIC] [TIFF OMITTED] 78071.021

[GRAPHIC] [TIFF OMITTED] 78071.022

[GRAPHIC] [TIFF OMITTED] 78071.023

[GRAPHIC] [TIFF OMITTED] 78071.024

[GRAPHIC] [TIFF OMITTED] 78071.025

Statement of Donald M. Moline, P.E., DEE Director of Public Utilities, 
                               Toledo, OH
    I am Donald M. Moline and I am the public utilities director for 
the city of Toledo. On behalf of Mayor Carleton S. Finkbeiner, I am 
pleased to provide you with some thoughts and ideas as they relate to 
wastewater infrastructure. More specifically, I would like to relay our 
experiences in treating or controlling wet weather events.
    The city of Toledo's wastewater system serves about 375,000 
individuals. The wastewater treatment plant treats, on an average, 75 
million gallons per day (MGD) with wet weather flow going up to 400 
MGD.
    The city of Toledo is currently involved in discussions to settle a 
lawsuit that was brought by the USEPA on October 29, 1991. The claim 
was that the city of Toledo had not been meeting the limits of it's 
NPDES permit at the final effluent discharge to the Maumee River. The 
plant had just undergone a massive rebuilding effort, with Federal 
assistance, and had not been in full compliance. Over the approximately 
10 years of this lawsuit, the final effluent has come into significant 
compliance and therefore it's discharge is not an issue. The focus of 
the debate then switched to the issue of bypassing.
    During wet weather, most older, Midwestern cities that have 
combined sewers must bypass the treatment plant either from a CSO 
(combined sewer overflow) or a primary bypass at the plant itself. This 
practice is not unique to the city of Toledo. Wastewater treatment 
plant were not built to handle large raw water flows that happen 
relatively infrequent. The basic problem centers on the fact that there 
are very few ways to remedy this situation.
    Wet weather facilities are only used during rain and the 
traditional biological treatment cannot sit idly by waiting for rain. 
The alternative is to develop some different form of treatment or 
provide storage for wet weather flows with the idea of treating this 
water after the rain event has subsided. The city of Toledo was 
involved with both alternatives, our costs for this is over $80 
million.
    The issue of bypassing was submitted to Judge James Carr in Federal 
district court in Toledo. He ruled that bypassing was illegal if 
`feasible alternatives' are available. This is a term contained within 
the Clean Water Act and he defined feasible alternatives to include 
building new treatment units or storage tanks. He stopped short of 
defining what measure would need to be undertaken or how much. He did, 
however, indicated that maximizing your existing treatment plant was 
not sufficient when it comes to feasible alternatives and bypassing. 
This has huge ramifications for the wastewater industry in general.
    The USEPA has insisted that we build an equalization basin that 
would hold sufficient quantity of wastewater such that we could avoid 
most bypassing. This amounts to a $60 million basin.
    In previous discussions, we had conceived and designed an 
alternative wet weather system that would treat the higher flows and 
return them to the Maumee River without the need for storage. We were 
going to combine our swirl concentrators with an Actiflow system to 
treat the water. We fully intend to ensure that the discharge would 
meet water quality standards such that no harmful effects would be 
produced. This alternative could have saved us at least $40 million. 
The USEPA indicated that this was a good idea and that we should 
downsize just slightly the Actiflow system and combine it with the 60 
MGD Equalization basin. The remedy went from our idea costing $30 
million to $35 million to their idea costing $80 million. The 
disappointing part about this is that there is little benefit to the 
water quality of the river. The reason that they would not agree to the 
Actiflow system alone was that we were not giving all of the wastewater 
secondary treatment and therefore it technically was a bypass. They 
would be willing to allow us to build such a system as long as we built 
an equalization basin too. They were standing on a technical definition 
that bypassing any treatment unit constituted a bypass regardless of 
the water quality impact or cost.
    In essences, what we had proposed was not a bypass, but a blending 
of wet weather treatment system and the full secondary treatment. This 
in an important distinction in that the USEPA has recently informed 
Congress that the concept of blending should receive favorable 
consideration when looking at wet weather alternatives. In our 
particular case, the USEPA would only agree to blending provided we not 
only remedied the issues at the wastewater plant but also embarked upon 
a massive construction program in the collection system.
    The previous discussion is only a portion of our lawsuit issues, 
but it serves to highlight some of the problems with completing 
wastewater infrastructure projects. The first topic that needs to be 
addressed is regulatory oversight. The USEPA in recent years has placed 
more emphasis on enforcement rather than water quality results. Meeting 
the technical definitions contained within rules and regulations is 
more important than water quality standards. There seems to be an 
imbalance between the technical assistance and the enforcement 
divisions within the agency. There needs to be more assistance, which 
will lead to greater cooperation in solving technical issues rather 
than achieving goals through the enforcement provisions. In our 
particular situation, we have experienced this with the bypass and 
blending issues. We believe that our alternative would have been able 
to provide the same water quality benefits at a much lower cost.
    A second area that involves regulatory oversight is the issue of 
cost effectiveness and scientifically based reasoning. Again, it has 
been our experience that these two concepts are secondary to meeting 
the procedural criteria of the enforcement section. In discussions, 
everyone champions the idea of applying good scientific evidence, sound 
engineering principals and cost effective solutions to problems, 
however, in practice, these issues are not given the weight or 
consideration which is appropriate. Often municipalities are forced to 
comply with standard procedures that are based solely on approved 
treatment techniques. This unyielding approach ultimately leads to 
higher costs for wastewater infrastructure. The recently adopted CSO 
Policy has a better approach. This policy talks of a comprehensive and 
coordinated planning effort by the municipality, the regulatory 
agencies and the public. It allows for site-specific solutions and the 
need for flexibility to tailor controls to arrive at the best 
solutions. The USEPA needs to fully embrace this approach to enhance 
technical assistance standpoint and reduce the need for regulatory 
enforcement.
    In Toledo case, our proposed consent decree will cost the 
ratepayers over $400 million. The city of Toledo is prepared to spend 
this amount. We have not finalized the decree because we are concerned 
that the overall cost will balloon to $600 million or $700 millions. As 
I have previously indicated with our experiences, ballooning costs are 
a real possibility. To give you some idea of the impact of these costs 
to the city of Toledo, consider the following. The current overall debt 
of the entire city of Toledo over the last 100 years is around $423 
million. With the wastewater projects proposed, the city of Toledo will 
double its debt. This places a huge burden on the ratepayers. Over the 
next 15 years, we anticipate our rates will more than double to provide 
enough funds to service the debt. We recently put out a Request for 
Proposals (RFP) for the engineering on these projects and that alone 
will cost $35 million.
    The amount of funds being request for infrastructure improvements 
may lead to the conclusion that the city of Toledo has neglected it 
wastewater system. This simply is not true. Toledo has been a proactive 
leader in wastewater improvements. We have installed storage tunnels 
for the combined overflow system (CSO) to catch the first flush and we 
have continually invested in our system. Over the last 20 years we have 
invested over $234 million in infrastructure improvements.
    The need for the water and wastewater capitol infrastructure 
improvements industry wide over the next 5 years amounts to an 
estimated $46 billion per year. That equals $230 billion over that 5-
year period. Clearly, there is a tremendous need. Since the early 
1970's, Federal funding of water and wastewater projects has been 
steadily declining. It is time to reverse this trend. Congress needs to 
create a long-term, sustainable, and reliable Federal funding 
structure. This should include things such as grants, low interest 
loans, loan subsidies, congressional earmarks, State revolving loan 
funds and refinancing opportunities. The Federal Government should 
ensure that the programs are fully funded, provide flexibility in their 
use and streamline the funding application process. At a minimum, the 
industry need $57 billion from years 2003 to 2007 just to remain 
solvent. In summary, Congress should encourage the following:
    1. Regulations that are based on sound scientific and engineering 
principals.
    2. Regulations that are based on water quality objective.
    3. Regulatory actions that place an emphasis on cooperation rather 
than enforcement as outlined in the CSO Policy.
    4. Federal funding that is long term and in sufficient quantities 
to help meet the need of the industry.
    5. Clarification of the language (blending, bypass issues) of the 
Clean Water Act to provide flexibility in meeting the demands of wet 
weather treatment systems.
    6. Provide research and support for the use of new, innovative 
technologies.
    7. Provide Federal grants because the need is so large.
    8. Continue to educate the public of an often overlook area of 
public health and environmental protection.
    9. Allow communities to become a partner in the process, not simply 
those who execute the plan.
    10. And finally, put more emphasis on non-point source discharges 
rather than continuing to try to extract water quality gains from point 
source discharges that have been improved significantly in the last 10 
years. It simply does not benefit the environment to continue to follow 
this approach.
[GRAPHIC] [TIFF OMITTED] 78071.001

[GRAPHIC] [TIFF OMITTED] 78071.002

               ATTACHMENT TO COMMENTS BY DONALD M. MOLINE
                          Project Descriptions
           1. east side and bayview pump station renovations
    These improvements involve the renovation of the East Side Pump 
Station (ESPS) and the Bay View Pump Station (BVPS). The majority of 
the work is structural and mechanical. The work will include the 
renovation of the vacuum priming systems at both pump stations, new 
windows and doors, new discharge valves on the raw sewage pumps 1, 3 
and 4 at the ESPS and at all 5 pumps at the BVPS, new HVAC at both 
stations, new fencing and repair of the roadway at the ESPS.
    The floor drain system at each pump station will be reconfigured so 
that they are separate from the wet well. Flow meters will be added for 
pumps 1 and 6 at each station. The vacuum pumps, discharge valves and 
flow meters will be automated and integrated with the plant's control 
system. The existing gas detection systems will be upgraded and alarms 
will be sent to the CO Building.
                 2. windermere pump station renovation
    This project involves the Windermere Pump Station (WPS). The work 
of this project includes the replacement of the two bars screens and 
conveyor system as well as the wet well dewatering pumps. The #2 and #3 
raw sewage pump VFD's will also be replaced. The new VFD's will be able 
to communicate with the plant's PLC system using remote I/O. The two 
existing VFD's will be similarly configured. FPS will investigate the 
condition of all 4 raw sewage pumps and motors and recommend corrective 
action.
    The existing generator control panel will be replaced with a new 
panel equipped with automatic start and loading features. Renovation of 
the HVAC system, doors, windows and fencing will also be required. The 
hydraulic system will be renovated. The PLC and the telemetry system, 
the lighting system and the security system will be upgraded. Finally, 
the project will include the replacement of the existing flowmeter and 
installation of new gas detection system.
         3. back up power for secondary and blower replacement
    The back up power system should be able to supply all of the power 
required to operate the plant in a stand alone mode and peak shave. 
This project will also provide additional air blowers to increase the 
air supply capacity by 100,000 SCFM for the biological treatment 
process.
    This project will require the successful bidder to perform the 
engineering services and provide an overall plan for the project to 
provide electrical power to include: Electrical switching and 
distribution network, generation equipment with duel fuel ability, 
electrical substations, power transmission requirements, new air 
blowers, examination of air delivery system, removal of existing diesel 
engines and structural analysis of ME building to house the new 
equipment.
                         4. equalization basin
    The Consultant will design an equalization basin with a minimum 
capacity of 60 million gallons. The basin will be located either at the 
Harrison Marina site, on the golf course adjacent to the Bay View 
plant, or other feasible location. The basin will be designed to 
capture and store, during storm events, additional wastewater above and 
beyond the capacity of the existing plant for treatment at the 
wastewater plant once flow to the plant is reduced. The basin is 
expected to be utilized between 10 and 30 times a year. The rest of the 
year the basin will remain empty.
    The equalization basin, actually a set of basins or tanks, shall be 
constructed of suitable material and shall have multiple dividers and 
gates with options to vary the basin size or number of individual 
basins or tanks to be used. Isolation gates, large valves, drainage 
pumps, feed pumps and weirs will be used to facilitate filling and 
draining of the individual basins. The Consultant will provide a basin 
or tank cleaning system to flush the solid content of the wastewater 
remaining after it is drained. This system must be maintenance free, 
automated and integrated with the plant's control system.
    When selecting materials for the basin, special design 
consideration shall be made for corrosion control. The basin will be 
filled and emptied often, providing the concrete with much exposure to 
corrosion and freeze thaw cycles. Gates, weirs, and other equipment 
shall be made of corrosion resistant materials or painted with 
corrosion resistant coatings.
    The Consultant will review the existing pumping capacity of Bay 
View, East Side and Windermere pumping stations, preliminary treatment 
facilities, elevations of the existing main interceptors and force 
mains coming into the plant, and make a recommendation for improvements 
needed to fill and drain the equalization basin. The consultant shall 
look at and develop the most feasible method for additional preliminary 
treatment facilities which must be maintenance free, automated and 
integrated with the plant's control system.
    Odor control must be included. A life cycle cost study will be 
performed on all odor control options proposed by the Consultant. These 
options will include, but not be limited to, pre-aeration, chemical 
addition, odor retention basin, mixing systems, dry and liquid 
scrubbers. The facility must be maintenance free, automated and 
integrated with the plant's control system.
    The Consultant will investigate and make recommendations on a back-
up power system for the equalization basin complex. The Consultant will 
perform a life cycle analysis on all options. This system will be 
integrated with the plant's existing and planned back-up power systems. 
The system must be capable of an automatic start and loading sequence 
and an uninterruptable return to utility power upon command from the 
plant's computer control system.
    This project includes the preparation of a 401 and 404 permit for 
the Ohio EPA and Army Corps of Engineers should the project be located 
at the Harrison Marina site. The permits will include mitigation of 
lost water surface, sediment sampling, sediment characterization and 
the design of a retaining wall at the river.
    Title work and appraisal of the properties associated with the 
Harrison Marina location have been ordered by the City. All other work 
to be performed by the Consultant.
                         5. secondary clarifers
    The Consultant will design a new final tank designated as final 
tank #13. The final tank will be located next to final tank #12 and 
will be the same size and configuration. This project will be designed 
to increase the firm capacity of the final clarifiers from 170 MGD to 
195 MGD.
    This new final tank will be filled and emptied often, providing the 
concrete with much exposure to corrosion and freeze thaw cycles. The 
final tank will normally be put on-line during storm events or when 
other final tanks are out of service for maintenance. During dry 
weather flows the final tank will be empty.
    This project will include the addition of one new sludge withdrawal 
pump and flow meter identical to the existing pumps and two new mixed 
liquor feed pumps. The new sludge withdrawal pump will be located in 
the Sludge Withdrawal Pump Station (SWPS). The pump will have its own 
variable frequency drive (VFD) and will be automated and integrated 
with the plant's control system. The VFD will be located in the SWPS. 
Power for the VFD, pump and flow meter can be taken from Power Panel 4 
or the lightning panel located in the SWPS.
    Flow is provided to final tank #12 using four low head high 
capacity pumps. The Consultant must design two new wet wells, cross 
over piping and flow meters for each of the two new mixed liquor pumps. 
Each pump will have its own variable frequency drive (VFD) and will be 
automated and integrated with the plant's control system. The VFD's 
will be located in Gallery Building #3. Power for the VFD's, pumps and 
flow meters can be taken from Power Panel 3 or the lightning panel 
located there.
    A splitter box to control flow to each final tank will be needed 
along with all process and drainage piping, valves and tank controls. 
The new tank will be automated and integrated with the plant's control 
system.
    The Consultant will design a new secondary diversion chamber to 
replace the existing diversion chamber. This chamber allows flow to be 
diverted from the swirl concentrators to the aeration tanks. This 
diversion chamber will be designed for a firm capacity of 25 MGD with 
consideration being taken for future expansion. This chamber will 
include a flow monitoring device.
    The Consultant shall investigate and develop the most feasible 
method to provide flow to the diversion chamber then to the aeration 
tanks. The chamber and all associated equipment must be maintenance 
free, automated and integrated with the plant's control system.
                   6. ballasted flocculation facility
    The Consultant will plan and conduct a 12-month pilot study of the 
ballasted flocculation process. This will be done, if possible, with a 
truck mounted test facility. From these results, the Consultant will 
size the facility and begin design. The design of the facility will 
last for an additional 9 months. The study will also include various 
disinfection alternatives including the use of ultraviolet light or 
sodium hypochlorite at the end of the wet weather system.
    The Consultant will design a wet weather treatment facility (WWTF) 
composed of a ballasted flocculation process sized to handle a firm 
capacity of 185 MGD of raw combined sewage. This facility will come on 
line when the plant flow exceeds the 195 MGD and the equalization basin 
is full or when the plant flow exceeds 195 MGD and the pumping capacity 
to the equalization basin is exceeded. This facility will be housed in 
its own building and will be located at the mooring basin site. This 
facility and all associated equipment must be maintenance free, 
automated (if possible) and integrated with the plant's control system.
    The WWTF will include a final effluent pump station with a firm 
capacity of 195 MGD. This station will be used when the river level 
rises and interferes with the plant's ability to discharge effluent. 
The plant effluent flow and the wet weather treatment facility flow 
must be sampled separately, recombined and sampled prior to discharging 
to the river. Post aeration for the combined flows must maintain an 
effluent DO of 5 mg/l. The Consultant will determine, using life cycle 
costs, the most economical pumping configuration and post-aeration 
option. The pump station, aeration system and all associated equipment 
must be maintenance free, automated and integrated with the plant's 
control system.
    A new disinfection process for the wet weather flows will be 
designed based on the results of the pilot study. The Consultant will 
consider a new disinfection process sized to handle the plant's 
effluent flow along with the wet weather flow. A life cycle cost 
analysis will be performed on the disinfection alternatives. All 
necessary piping, pumps, controls, chemical feed systems, contact tanks 
and buildings will be included under this project. The disinfection 
system and all associated equipment must be maintenance free, automated 
and integrated with the plant's control system.
    The Consultant will review the existing pumping capacity and 
preliminary treatment facilities and make a recommendation for 
improvements needed to provide flow to the wet weather treatment 
facility. If necessary, the Consultant will perform life-cycle cost 
studies on various preliminary treatment and pumping alternatives. All 
pumping systems, preliminary treatment systems and all associated 
equipment must be maintenance free, automated and integrated with the 
plant's control system.
    Once the project is complete, the Consultant will perform a 2-year 
full scale study titled the ``allasted Flocculation Study.''
                  7. grit and skimming tank separation
    The main objectives of I-45 are to separate the plant's two 
skimming tanks into four independent skimming tanks/grit tank process 
trains. A cross channel complete with motorized slide gates will be 
installed to allow any of the grit tanks to be routed through any 
skimming tanks when other tanks are off line for repairs. The inlet 
gates to the existing grit tanks are being replaced.
    New skimming equipment will be installed in each of the skimming 
tanks along with an automated tipping tube. The primary clarifier scum 
collection system is being converted back to a gravity drain system 
that will discharge into a scum pit located outside of the pre-air 
building. Two scum chopper pumps will transfer the scum to the grease 
concentrators. New air flow meters and valve actuators will be 
installed on the air lines. A drainage pump station will be constructed 
in the existing scum ejector pit to pumps located in the basement of 
the pre-air building. This pump station will be used to dewater the 
primary clarifier for maintenance.
    The skimming tank collector mechanism, tipping tube and motorized 
gates will be automated and controlled through the plant's control 
system.
    Reference OEPA permit to install 03-12308.
                        8. improvements to cso's
Columbus CSO
    The sanitary area from Manhattan Blvd. south to Forest Cemetery and 
from Chestnut Street east to Counter Street is served by a 
predominately separate sanitary sewer system, which drains into the 
combined sewers east of Michigan Avenue on Columbus Street.
    Drainage from the sanitary and combined sewer systems travels to a 
102'' sewer located in Columbus Street and on to a regulator located 
east of the intersection of Columbus and Summit Streets. A 36'' sewer, 
which carries flow from a combined sewer area bounded by Summit, 
Chicago, Ontario, and Troy Streets is believed to connect to the 102'' 
sewer just west of Summit Street. Storm overflows exit the regulator 
through a 102'' pipe and discharge into the Maumee River. A 24'' 
diameter return line carries dry weather flows from the regulator to an 
87'' sanitary interceptor located on the east side of Summit Street.
    The sanitary drainage for the Columbus Street regulator is 
estimated to be 676 acres. The storm drainage is estimated to be 205 
acres. Separation of the sanitary sewer flow from the combined sewer is 
expected to result in overflow reduction.
    The Columbus Street CSO Optimization Project includes verifying 
pipe configuration, smoke and dye testing, recommendations to separate 
public sources of inflow, look at separation of sewers and design 
improvements.
Parkside CSO
    The Parkside CSO project is primarily concerned with the area 
around Calvary Cemetery which is served by separate sanitary sewer 
system. This area is located near the Upton and Bancroft as well as the 
Upton and Door intersections. The system in this area does overflow to 
the combined sewer system at Ottawa River and Monroe Street. The area 
serves approximately 600 acres of sanitary sewers.
    The basic purpose of this project is to minimize inflow in this 
area, monitor the flow rate to ensure the inflow is minimized and then 
construct the required sanitary sewers to divert their flows directly 
to the interceptor.
    This project has not been designed yet and it will be the 
responsibility of the Consultant to examine the area in detail and 
develop the project.
Maumee CSO
    This CSO is located at Maumee Avenue and Orchard Street in South 
Toledo. This project has not been designed yet. The basic objective of 
this project is to reduce the overflow from this structure.
    The return sewer line from this regulator is a 5,880 ft. long 18'' 
diameter sewer with a slope of 0.25 percent. Overflows from this 
regulator occur at lower rainfall levels than other regulators which 
service similar acreage. The overflows could be caused by flow 
restrictions such as sedimentation buildup, plugging by debris or 
excessive headloss. The exact cause needs to determined and corrected.
                 9. elimination of sso's in point place
    The Director Findings and Orders from the Ohio EPA set forth the 
time schedule under which the city of Toledo must eliminate the SSO's 
that are in Point Place. This project is underway and to date, the city 
of Toledo has been able to meet all of the specified deadlines.
    The project is divided into phases with a phase 1 completion date 
of January 2001. In this phase, the city of Toledo was to do intensive 
sewer cleaning and correct the deficiencies in the 116th Street 
interceptor as well as construct a relief pump station at Manhattan 
Boulevard. Phase 2 remediation will examine the results of the phase 1 
investigations and suggest alternatives for corrective action along 
with the costs. A detailed plan for corrective construction will be 
submitted to OEPA for applicable permits by June 2003. Phase 2 
improvements must be complete by November 1, 2006.
    Another part of phase 2 is the River Road SSES work referenced 
below.
                10. sses in river road and midland area
    This part of the SSO elimination project is centered on an area in 
South Toledo. The first phase of the project involves smoke testing and 
televising the sanitary sewers in this area. This portion of the 
project is currently underway. Phase 2 involves the collection of data, 
analyzing it and making recommendations to eliminate SSO. Phase 3 of 
the River Road project will be submission of plans and the construction 
of the remediation efforts by June 1, 2004. Phase 4 is a placeholder if 
the Phase 3 efforts need additional improvement. The final construction 
must be complete by November 1, 2006.
                          11. cso system work
    This portion of the work involves implementing the results of a 2-
year collection system study to meet the objectives of the U.S. EPA 
Combined Sewer Overflow Policy. The team will be required to first 
establish a Long Term Control Plan (LTCP) that addresses or considers 
the results of all of the studies listed herein and minimizes the 
overflows from the CSO's. This LTCP will take into consideration the 
characterization of the collection system through monitoring and 
modeling to achieve a through understanding of the sewer system, the 
response of the system to rain events, the characteristics of the 
overflows and the water quality impacts that result from CSO's. Many of 
the studies that we are asking the engineering teams to undertake speak 
directly to this goal. The LTCP must also address the issues of the 
nine minimum control standards for CSO's put forth by the U.S. EPA.
    Currently, the city of Toledo has combined sewers that serve 
approximately 17,600 acres. Three interceptor sewers collect dry 
weather flow from combined sewers at the regulator chambers. Wet 
weather combined flows discharge to the Maumee River, Ottawa River or 
Swan Creek at 31regulator overflow locations.
    Extensive improvements to the collection system have included both 
major and minor projects resulting in the overall reduction of combined 
sewer overflows. The major projects with significant impact on overflow 
reduction include: the Ten Mile Creek Relief Interceptor, Windemere 
Pump Station, Swirl Concentrators, combined sewer outfall tide gates 
and regulator modifications.
    The construction and activation of three independent CSO Abatement 
Pipeline Storage Tunnels are the most significant actions taken by the 
City to improve water quality of the Maumee River along with downtown 
waterfront area and of Swan Creek along the CSO reach.
              12. two-year study of ballasted flocculation
    The purpose of the 2-year study is to establish the daily operating 
parameters and effectiveness of the new facility. In setting up the 
study, the Consultant will consider the manufacturers operating 
recommendations and use them as a reference point. The Consultant shall 
develop appropriate scientific mechanisms such that the data developed 
from this study will be valid in establishing the operating range of 
the facility. The Consultant will also establish the range of flows 
that can be properly treated in the facility.
    The Consultant shall, 12 months after the start of our contract, 
submit to the U.S. EPA a work plan for the testing of this facility. 
The plan shall include, but not be limited to (a.) the effectiveness of 
the facility to remove suspended solids, carbonaceous biochemical 
oxygen demand, total Kjeldahl nitrogen (TKN) and ammonia (b.) any 
difficulties encountered in or limitations involved with using these 
facilities over a range of flow conditions, chemical feed rates and 
other operational control parameters and (c.) measures that Toledo has 
taken to optimize the use of the facility.
    After the study is complete, the Consultant will complete a written 
report that will be submitted to the U.S. EPA within 60 days after 
proper consultation with the City.
                    13. flow characterization study
    The flow characterization study is fully explained on pages 15 
through 18 of the attached draft consent decree. The Consultant is 
advised to take note of the time requirements for (a.) the work plan 
within 30 days of our contract (b.) the one year time period for data 
collection and (c.) the requirement for the report within 30 days 
following the completion of the study.
    The city of Toledo has installed flow-monitoring devices and has 
collected data regarding the amount of wastewater in the system during 
rain events. It is the responsibility of the Consultant, to review this 
information and determine the usefulness of this data and determine 
what additional data will need to be collected. The current data will 
be available for inspection at the Division of Water Reclamation.
                   14. water quality study and model
    The city of Toledo, in conjunction with Limno-Tech, Inc. has 
already performed an extensive water quality study. This will form the 
basis of the work described in the draft consent decree on pages 18 
through 21. The major new area of investigation will be sediment oxygen 
demand and its relationship to dissolved oxygen in Swan Creek and the 
Ottawa River.
    The Consultant will be required to closely review the previous work 
and coordinate the new investigations such that a comprehensive water 
quality report is obtained. The Consultant will also develop the proper 
water quality model after extensive impute from City representatives 
and consistent with the directions listed on pages 24-25 of the draft 
consent decree.
    Here again, the Consultant is reminded to check the timeframes and 
report requirements.
    An Executive Summary of the water quality report is attached. A 
complete copy of the report is available at the Division of Water 
Reclamation.
                          15. hydraulic model
    The Consultant will develop a hydraulic model of the collection 
system to be used in all phases of the evaluation of the system and the 
handling of wet weather flows. The detailed information of the 
requirements of the study are listed on pages 22-24 of the draft 
consent decree.
    The Consultant will use the information developed in the flow 
characterization study as a basis for this model. To that end, the city 
of Toledo has some background information available for inspection at 
the Division of Water Reclamation.
                       16. long term control plan
    The Long Term Control Plan seeks to integrate the various plans and 
models into one single document that addresses the reduction of flows 
from our CSO outfalls in order to comply with the CSO policy. The 
pertinent characterization of this document is found in the draft 
consent decree pages 25-31. It is the item which receives the most 
description in this document and is important to the city of Toledo as 
well as the U.S. EPA.
    The studies that are being performed as part of this work can be 
characterized as informational research. The flow characterization, 
water quality study and hydraulic models provide the informational 
basis upon which design and implementation can proceed. Once the 
information collection phase has been complete, the consultant will 
begin to evaluate the alternatives. This will require the engineering 
teams to concentrate their expertise to suggest the most effective yet 
most economical solution.
    Following the conceptual design phase, there will be a review 
procedure and then detailed design. This design will require the 
integration of all of the talents of the entire team as well as the 
city of Toledo's efforts to produce an acceptable product.
    Construction of the remedy of the sewer system will be completed in 
the second half of the project. At present, it is unclear what type of 
work or engineering will be necessary. It is, therefore, impossible for 
the Consultant to provide a price for these services. The city of 
Toledo has included, in this proposal, a mechanism for a price re-
opener once the 2-year study is complete (see CSO System Work). It is, 
however, possible for the Consultant to provide a price for the 2 year 
LTCP study.
                     17. public participation plan
    This is an aspect of the project that must not be overlooked. The 
development of a clear, concise communication mechanism could be the 
difference between acceptance and rejection of the project. The 
Consultant will be required to formulate a public relations plan that 
can effectively communicate the engineering ideas to the city of 
Toledo, the regulator agencies and the general public. It is in this 
area that the Consultant and the City must work especially close to 
provide a clear vision of the project.
    In the draft consent decree there is a requirement that this public 
involvement be active during the planning and formulation of the LTCP. 
We believe that it is important to have this aspect functioning 
throughout the entire project.
    The public relations efforts of this project will have as its 
fundamental charge the duty to explain to the public the benefits 
derived from the improvements being installed in the wastewater system. 
Large expenditures of public funds will be used to build the 
improvements and it is critical that we are able to explain how the 
environment will be improved.
    The Consultant is instructed to present, with their proposal, a 
summary of this plan.
             18. sewer system monitoring and reporting plan
    This section will involve a timely reporting of any SSD to a body 
of water to the Ohio EPA. A reporting mechanism will need to be 
developed such that all of the pertinent information is recorded and 
conveyed to Ohio EPA.
    This work will also involve a record keeping function during wet 
weather times and the responses that the Division of Sewers and Ditch 
Drainage provide to residential customers.
    The details of the content of the Sewer monitoring can be found in 
the draft consent decree on pages 35-36.
               19. sanitary sewer discharge response plan
    This work requires the consultant to develop a plan that will 
identify and establish procedures to handle any sanitary sewer 
discharges with the appropriate public notice. This plan will also 
include the provisions for limited access to the area, remediation if 
necessary, contingency plan for emergency response and dispatch of city 
personnel.
    A summary of this work can be found in the draft consent decree on 
pages 36-38.
                     20. sanitary sewer o & m plan
    This work entails the creation of a management, operation and 
maintenance (``MOM'') plan for the collection system. The city of 
Toledo has clearly defined rules and procedures although most of these 
have never been collected in a single document. The Consultant will be 
required to work with the Division of Sewers and Ditch Drainage to 
compile and create the necessary document. It is expected that the 
Consultant can draw upon past experience to create this document.
    This plan will include, but not be limited to, all aspects of the 
collection system operation including cleaning, televising, inspecting, 
corrective maintenance, information tracking, maintenance schedules and 
pump station inspections.
    The summary of the elements of the plan are to be found on pages 
38-42.
                          21. wwtp o & m plan
    The Division of Water Reclamation does have an existing O & M plan 
that is current and does fulfill most of the provisions of this 
requirement. The Consultant will need to review these plans and 
determine if additional work will be necessary to comply with the 
outline provided in the draft consent decree on pages 42-43.
    There are a number of anticipated changes such as a wet weather 
facility that are not part of our current plant and will need to be 
added as they are constructed. It will be the responsibility of the 
Consultant to continually update both the WWTP O&M plan and the Sewer 
System O & M plan as new processes or change are made.
                             22. work plans
    The draft consent decree has listed in a number of the tasks, a 
work plan due within 30 days of the entering of the consent decree. A 
great deal of discussion was undertaken to describe the nature of these 
plans and detail necessary to comply with their submission. The U.S. 
EPA indicated that these plans were to be approximately two pages in 
length and are to outline the approximate timeframes and critical path 
issues to be followed. They are not a preliminary design nor are they 
expected to be done in a significant level of detail. They will, 
however, need to document a course of action that the U.S. EPA can 
follow.
          23. industrial wastewater release minimization plan
    This work entails the review of our pre-treatment plan to ensure 
that we are minimizing the discharge of industrial pollutants through 
CSO's and SSD's. The current pre-treatment program is active and should 
provide most of this information. The Consultant can review this 
program at the Division of Environmental Services. A brief summary of 
the requirements is contained in the draft consent decree on page 38.
Statement of Patrick T. Karney, P.E., DEE, Director, Metropolitan Sewer 
             District of Greater Cincinnati, Cincinnati, OH
    Chairman Crapo, Senator Voinovich, on behalf of the 650 
environmental professionals of the Metropolitan Sewer District of 
Greater Cincinnati and the 800,000 Hamilton County users of our utility 
I want to thank you for providing this opportunity to address your 
committee on this rising crisis.
        national history of water pollution abatement activities
    When our country was young and still made up of vast wilderness, 
waste disposal was a very simple matter--nature would take care of it 
with very little help. As our population grew, and our ability to 
produce larger and larger quantities of wastes increased nature's 
solutions began to become overwhelmed. The resulting pollution of our 
environment drove America, and the developing world to institute 
increasingly complex methods of wastewater collection and treatment. 
Wastewater infrastructure--underground sewer systems and wastewater 
treatment plants--was invented, implemented and continuously refined to 
answer the ever-growing need for protection of public health and the 
environment.
    National water pollution abatement law was not developed until a 
century after founding of our country with 1878 passage of the Ports 
and Harbors Act. Followup to this legislation did not appear for 
another century with Public Law 92-500, the Clean Water Act being 
passed in 1972. Prior to early 1900's, wastewater disposal was 
basically addressed by either forcing it into the ground (privies or 
outhouses), or moving the waste to the nearest water body, be it a 
stream, river or lake. Treatment of the waste was left to nature. And 
nature did an acceptable job until civilization's capacity to generate 
wastes exceeded nature's ability to treat it.
    Water pollution abatement is a relatively modern innovation, with 
many of our large U.S. cities not constructing their first major 
treatment works until the 1950's or 60's. As treatment facilities moved 
from rudimental, primary treatment process to the more refined 
secondary treatment processes during the 70's and 80's, regulatory 
emphasis began to turn to deficiencies in the collection systems 
(underground piping). That movement was more strongly pursued as the 
1990-decade progressed with the publication of the USEPA's CSO Policy 
in 1994. SSO issues continue to evade our grasp, especially given the 
incredible financial impact that is becoming apparent.
                   cincinnati/hamilton county history
    Cincinnati and Hamilton County, Ohio's experience closely parallels 
that of the Nation. Our collection system has origins in the early 
1800's, with the installation of drainage systems to remove rainwater 
from developed neighborhoods and the business district. Shortly 
thereafter, the cesspool crisis was addressed by collecting individual 
building waste streams, connecting them to the existing stormwater 
system and conveying this combined flow to the nearest stream (this 
marked the beginning of Hamilton County's combined sewer system). As 
the smaller stream's assimilative capacity was surpassed and the degree 
of localized pollution could no longer be tolerated, those waste flows 
were intercepted and conveyed to larger streams and to the Ohio River.
    By the 1940's discharge of sanitary wastes into the Ohio River 
became intolerable, and designs were prepared for the construction of 
regional wastewater treatment plants. Underground pipes were redirected 
to the first of these plants in 1953. This is clear testimony to the 
fact that the water pollution control industry is not that old. The 
interceptor sewers which captured the old stream/river discharges were 
designed to convey the sanitary flow and a portion of the stormwater, 
with constructed regulators to discharge excess combined flow to local 
streams and the Ohio River (CSOs).
    Soon design approaches changed through the Nation, with Hamilton 
County following suit--combined sewer systems were no longer the design 
of choice; separate sanitary and storm networks were installed to 
prevent the co-mingling of sanitary and storm waters in newly 
developing areas. As more and more development occurred in the separate 
sewer areas, and additional sources of sanitary sewage were connected 
to the existing collection network, the older portions of the sanitary 
system became overwhelmed. Localized wastewater back-ups occurred on an 
increasingly frequent basis. Resolution of these health hazards was 
economically arrived at by the installation of collection system relief 
lines (Sanitary Overflows)--these were logically planned and installed 
using conventionally accepted engineering methods. Little did the 
engineers and elected officials of the day realize they were 
constructing an incredible liability for future generations.
    Primary treatment plants were upgraded to secondary processes as 
the 70's turned into the 80's. Then in the late 80's, following massive 
investment in its water reclamation plants and reflecting a change in 
national emphasis, Cincinnati turned its attention to another aspect of 
the problem--that unseen and often forgotten underground maze of pipes 
known as the wastewater collection system. The much heralded site-
specific solutions of less than a generation earlier, the overflow 
relief structures, had descended the environmental scale to a status of 
environmental detriments.
    Beginning in 1987, the Metropolitan Sewer District of Greater 
Cincinnati initiated countywide studies aimed at finding solutions for 
CSOs. Over the past decade that work has translated into not only 
system capacity increases and constructed solutions, but has further 
expanded into issues involving SSOs. Cincinnati's efforts have 
mirrored, and often led, national regulatory development aimed at 
curing the problems inherited from past generations.
    estimated financial impact of current/proposed regulations (not 
     including national nutrient removal or tmdl-imposed standards)
    Early in 2000, the Metropolitan Sewer District of Greater 
Cincinnati performed an in-house estimate of the costs involved in 
addressing its current collection system needs. The resulting figures 
were so staggering that District management elected to engage a 
consulting engineering firm to perform an independent analysis of the 
needs. Given some unknowns with respect to developing national 
regulations, a single number could not be reliably arrived at. The fact 
that the two studies (one internal and one external) came to very 
similar conclusions provides a very high degree of confidence in their 
accuracy.
    Exclusive of normal operations and maintenance costs and the 
routine/planned rehabilitation efforts of an aging system, which the 
community now supports, the new design/construction necessary to 
alleviate the CSO and SSO problems amount to somewhere between $1 
billion and $3 billion.
                        user charge implications
Current Charges
    At the present time the user charges in affect for MSD are right in 
the middle of those for the surrounding 67 utilities.
Projection of Increases
    In order to meet the obligations currently imposed upon it by the 
Federal Government, MSD will be forced to increase its user charge rate 
by approximately 7 percent per year for each of the next 15 years--$1 
billion of design and construction. This would multiply the existing 
rate by nearly threefold (276 percent). Taking a more conservative view 
of how the pending SSO regulations might final impact the utility, the 
cost would rise to $3 billion for design and construction. That would 
result in rate increases of 21 percent per year for 15 years. This 
would multiply the current rates 17 times (1,750 percent).
    National nutrient standards and TMDL-related limitations would 
impose an even greater financial burden upon the Cincinnati/Hamilton 
County ratepayers. Their impact is not definitively quantifiable, but 
could easily approach upwards to an additional $1 billion. That would 
place the utility in a position of having to raise $4 billion, with a 
forty-five-fold increase being imposed upon the residents (4,526 
percent) over 15 years.
        isn't it time for users to pay the full cost of service
    The Metropolitan Sewer District of Greater Cincinnati's ratepayers 
have been paying the full cost of service since 1968. As with nearly 
all other major wastewater utilities, MSD is a stand-alone enterprise 
that does not receive subsidies from other governmental units via 
property tax contribution or payments whose source is a different 
taxing authority. Hamilton County ratepayers do know the true cost of 
wastewater collection and treatment--they see it every quarter in the 
bill mailed to their homes and businesses.
    The local burden is already rising. In 2000, the Metropolitan Sewer 
District of Greater Cincinnati's rates were increased by 9.5 percent. 
In 2001, Hamilton County enacted another MSD rate increase of 7 
percent. Further, the County Commissioners are prepared to consider 
another 7 percent rate hike in 2002. Our local elected officials and 
utility managers are stepping up to the plate and making tough 
decisions about paying the cost of protecting public health and the 
environment.
                          avoiding these costs
    What if these horrendous costs are not incurred? What will happen?
    <bullet> USEPA will begin imposing fines upon Hamilton County.
    <bullet> Moneys that might have been spent improving environmental 
quality and protecting public health, will then go directly to the 
Federal Government.
    <bullet> The Department of Justice will intervene and initiate 
civil and criminal proceedings against local jurisdictions and 
officials for violation of the Clean Water Act.
    <bullet> Concerns about environmental degradation will go 
unaddressed.
    Thus, these huge expenditures cannot be avoided.
                local funding without federal assistance
    The rate increases noted above would begin. Within a few years the 
rates would increase dramatically and the results would be:
    <bullet> Economic distress on the entire County.
    <bullet> Extreme hardship visited upon those most unable to pay 
(environmental equity).
    <bullet> Loss of jobs and commerce due to competitive pressures 
from other localities.
    <bullet> Loss of population.
    <bullet> Spiraling utility revenue loses, in spite of increased 
rates, reducing usage and billability of the customer base, driving 
rates higher than originally anticipated, further decrease use and 
pushing revenues even lower . . .
                cincinnati/hamilton county is not alone
    Cincinnati/Hamilton County are not alone in facing a financial need 
of crisis-proportions. Every older Northeast and Midwest city has aging 
infrastructure and the challenge of eliminating CSOs and SSOs. 
Throughout the United States, all major cities, even those without 
combined sewers, are trying to cope with increasing rehabilitation 
needs. As with Cincinnati these other communities are coming to the 
realization that their future costs are far in excess of their ability 
to pay. Adding the expectation of ever tightening regulations only 
further frustrates their attempts at coming to grips with the 
situation.
    Clearly this is not simply a local or even regional problem. Every 
major, as well as medium and small communities, are subject to water 
and wastewater infrastructure demands.
                  need for relief on a national basis
    Elected officials and residents of Hamilton County alike can easily 
agree upon one point--local efforts are not enough to address this 
growing infrastructure need. The impact of not only maintaining the 
underground system of collection pipes dating back to the early 1800's, 
but also contending with ever tightening regulatory mandates is 
staggering. For years this infrastructure has been, ``out of sight, out 
of mind.'' But that is no longer the case.
    Local utility managers have been feeling the growing pressure to 
plan for future needs for some time, but it has not been until recently 
that an effort has been undertaken to raise the national consciousness. 
Why the delay? The size of the problem was not quantified earlier. We, 
and our predecessors, knew it was quite large, and there were other 
day-to-day problems we had to contend with. Then as we began to get a 
feel for the actual numbers, they were so massive that very few of us 
were willing to even mention them, much less engage a national debate 
how to proceed.
    Today we have a much better feel for what is required, and are 
searching for a solution. The American people can no longer avoid the 
growing crisis. Elected officials on the local level are beginning to 
feel the crunch. Individual homeowners and businesses are being 
affected. Local governments are facing a growing shadow of financial 
doom.
    The need is nationwide. The magnitude of the problem is of national 
proportion. Citizens and local officials must have relief, and the only 
source for relief of this magnitude is the Federal Government.
                              win proposal
    The time has come to once again make water infrastructure funding a 
national priority. On a national basis it has been estimated a $23 
billion per year funding gap exists between current local investment in 
water and wastewater infrastructure and what is needed over the next 20 
years to replace aging and failing pipes and meet Clean Water Act and 
Safe Drinking Water Act mandates.
    The environmental gains made by the water and wastewater community 
over the past thirty years are impressive, but they are in jeopardy. 
According to the U.S. Environmental Protection Agency, the Nation will 
lose a generation of water quality progress without significant new 
investment in water and wastewater infrastructure. Recently, more than 
a million consumers in California were plunged into darkness as the 
nation's energy crisis deepened. Imagine what would happen if the 
nation's water and wastewater systems began to fail. Could we ask our 
citizens to tolerate untreated or unsafe water? I think not. Failure of 
wastewater systems could create a public health emergency, cause 
widespread environmental degradation, and lead to an erosion of our 
local economies.
    The $23 billion gap is documented in two reports released by the 
Water Infrastructure Network (WIN), most recently in February's Water 
Infrastructure Now: Recommendations for Clean and Safe Water in the 
21st Century (WINow), which has been endorsed by over 30 nationally 
recognized organizations. The WINow report makes specific 
recommendations on bridging the infrastructure funding gap through a 
renewed Federal commitment to the nation's municipalities. By 
authorizing an average of $11.5 billion per year in capitalization 
funds over the next 5 years, the Federal Government will provide States 
with the necessary funds to offer grants and loans to local water and 
wastewater agencies for repairs and replacement of aging 
infrastructure.
                             call to action
    It is our hope that this attempt to articulate the problem will 
lead Congress and the Administration to begin the lengthy process of 
coming to the assistance of local communities throughout the country. 
If we can answer any questions or provide additional information in the 
future to assist you in taking action, please feel free to ask. 
Utilities throughout America are prepared to answer your calls.
    Senator Voinovich, on behalf of wastewater utilities nationwide I 
would like to thank you for your recent initiative aimed at re-
energizing the nation's State revolving fund program. Such leadership 
is what is needed to bring us all to grips with the funding crisis 
facing our water infrastructure, and threatening our citizens.
    Thank you, again, for this opportunity to provide insight into this 
financial crisis that is facing our entire country.
                                 ______
                                 
    Statement of Patrick D. Gsellman, P.E., Manager, Environmental 
             Division, Akron Engineering Bureau, Akron, OH
                      summary of issues--akron, oh
    Akron, OH is located on the Cuyahoga River, in northeast Ohio, 
approximately 30 miles upstream from the city of Cleveland. The Akron 
wastewater planning area covers approximately 167 square miles and 
includes most of the Akron metropolitan area. There is a population of 
352,000 in the service area and includes all or a portion of 5 cities, 
4 villages and 7 townships.
    The sewer system includes approximately 1,165 miles of sewers 
consisting of 188 miles of combined sewers. There are 38 combined sewer 
overflows (CSO) within the city of Akron. Based on predictions from the 
hydraulic model typical annual CSO volume is 2,440 million gallons. 
Previous efforts by the city of Akron have resulted in the elimination 
of sanitary sewer overflows (SSO) in the city of Akron and the award of 
the Association of Metropolitan Sewer Association's (AMSA) gold award 
for no effluent violations in 2000.
    The city of Akron has proposed a Long Term Control Plan that will 
cost more than $248,000,000 to implement. This cost is in addition to 
the millions Akron has already spent to date to study, address and 
reduce CSO's, and the $25 million spent to eliminate SSOs. Akron has 
seen a significant decline in its industrial base since the 1960's, 
requiring the residential users to carry the burden. Akron already 
carries one of the highest residential sewer rates in the State for 
communities of similar population.
    The Akron Public Utilities Bureau is undergoing significant changes 
as result of the high water rates. The rates led to a Blue Ribbon Panel 
to study the Utility and the current Competitive Action Program. This 
program includes the water treatment facility, sewer maintenance, Water 
Pollution Control Station and Utilities Engineering. Significant 
reductions in operation costs are being realized and will allow the 
Utility to be competitive in the future. This will allow for the City 
to pay its fair share of needed improvements as long as the Federal 
Government contributes its fair share.
    As part of developing Akron's Long Term Control Plan, several 
options to fund the projects were evaluated. Given the significant 
total cost of these projects, it is likely that funds will have to be 
obtained from multiple sources, i.e. grants, low interest loans and 
revenues obtained by sewer rates. Grants are essential to the 
fundability and feasibility of the program. Without outside funding, 
sewer rates will more than double due just to the CSO program. The 
impact of additional operation and maintenance costs, system repair and 
replacement and normal inflation will likely see the rates triple. 
Current monthly sewer charges for a typical residential customer are 
approximately $30.00 per month for sewer only. The rate increases to 
$60.00 or $90.00 per month will adversely affect a significant portion 
of ratepayers, including those who can barely afford their current 
utility bills.
    The selected alternative for the city of Akron Integrated Plan 
incorporates storage conveyance tunnels, detention basins, treatment 
basins and sewer separations. A set of rating criteria was used to 
compare various alternatives. The criteria included storm water 
impacts, water quality improvements, operation and maintenance costs, 
public acceptance, community improvements and construction issues. The 
approach taken with the Long Term Control Plan (LTCP) was the 
``presumptive'' approach. The annual percent capture after the LTCP is 
94 percent.
    In addition to the funding, the issues of wet weather standards, 
use designation and urban stream habitat need to be addressed.
    Wet Weather Standards.--The current water quality standards do not 
(nor were they intended to) address wet weather events. Re-evaluation 
of water quality standards for wet weather is needed on a State and 
Federal level.
    Use Designations.--Reasonable and sincere re-evaluation of ``use 
designations'' has not been conducted by the State agencies as allowed 
by the CSO Guidance. EPA has reported that they do not have adequate 
funding to re-evaluate these requests, yet they expect local POTWs to 
expend hundreds of millions of dollars on CSO controls. A fair re-
evaluation of a stream's ``use designation'' is needed prior to the 
expenditure of millions of dollars financed by ratepayers.
    Stream Habitat.--Urban stream habitat is not adequately addressed 
in the Ohio Water Quality Standards. Variances for CSO receiving 
streams should be allowed until the proposed Urban Stream Habitat can 
be fully assessed.
    The city of Akron Public Utility is also faced with rapidly rising 
costs associated with storm water, total maximum daily loads (TMDL), 
and drinking water regulation.
    Akron continues to develop access to the receiving stream with bike 
paths, downtown development, Mustill Store restoration and Cascade Lock 
Park. Also, the National Heritage River designation and National Park 
will continue to attract people to the Cuyahoga River. We look forward 
to a solution that will cost-effectively address CSO issues while 
producing benefits to the Akron rate payers, enhance the parks and 
trails, show improvements in water quality and further the goals of the 
Clean Water Act.
    The significance of the Cuyahoga Valley National Park, National 
Heritage River status, State Resource waters, Metropolitan Parks, and 
the Ohio & Erie Canal National Heritage Corridor should all be factors 
in the allocation of grant funding.
    Proposals similar to the Water Infrastructure Network (WIN) are 
needed to provide for adequate funding now and in the future. Through 
water and sewer bills, local rate payers already pay about 90 percent 
of the total cost to build operate and maintain their water and 
wastewater systems. We need a long-term, sustainable, and reliable 
source of Federal funding for clean water.
    Wet Weather Standards.--The advent of the CSO program and other wet 
weather control regulations has focused recent attention on the need 
for wet weather water quality standards. The focus of wet weather 
standards has been on attainment of the criteria for waterborne 
bacteria, generally measured as either fecal coliform bacteria or more 
recently as E. coli. Typically many urban and suburban streams do not 
meet the recreational use criteria for bacteria during wet weather. The 
bacteria counts in streams rise during storms due to bacteria from a 
variety of non-point and point sources.
    Studies in any major population center have consistently shown non-
attainment of the existing ``dry weather'' criteria during and 
following even moderate wet weather events. Bacteria enter the streams 
from surface runoff, from septic system leach fields, and from both 
separate and combined sewer systems. Even areas with no sewer overflow 
often have bacteria concentrations that exceed the existing standards. 
Non-point sources of bacteria include pet wastes and wildlife 
(particularly geese) wastes.
    The issue of wet weather standards has been raised at the national 
level by the Water Environment Federation (WEF), AMSA and other 
organizations representing municipal sewer authorities. The USEPA has 
thus far, been unwilling to derive a tiered water quality standard for 
wet weather recreational use. Fortunately the USEPA has typically not 
pursued enforcement cases where recreational use attainment is the 
primary.
    There is no argument about the current standard being applicable 
and protective of human health during dry weather. The shift to the E. 
coli measure is also generally supported as being more representative 
of organisms that pose a risk to public health. The argument for a wet 
weather standard or variance has been put forward to provide a 
mechanism for avoiding consistent non-attainment where the source of 
that non-attainment is beyond the control of the municipal sewer 
authority. Also there is some question about the need for protection of 
contact recreational uses in urban areas where such contact does not 
typically occur during wet weather.
    Also a wet weather standard provides alternatives for control of 
CSO that will reduce costs and remain protective of water quality. Many 
remedies selected for control of CSO include chlorination in an attempt 
to meet recreational use standards for bacteria. The addition of 
chlorine has been shown to have detrimental effects on aquatic life use 
so dechlorination of CSO is also considered. If a wet weather standard 
were established it could effectively reduce the amount of chlorine 
used and reduce those risks and the cost of the chlor-dechlor process.
    The proposed standards that have been discussed with (but not 
accepted by) the USEPA include provisions for an increase in the 
allowable concentration during wet weather and mechanisms for 
determining what is a qualifying wet weather condition.
                            use designations
    During the early years of implementation of the Clean Water Act, 
States were tasked to develop use designations for all streams. The 
initial designations were often made without any detailed information 
about the existing use attained or attainable in a particular stream. 
Many streams were designated to meet a standard higher than what was 
``existing'' at the time of the designation. These ``default'' 
designations have resulted in conditions where streams are prevented 
from meeting a designated use by conditions that cannot be controlled 
by pollution control technologies alone. Habitat alteration, flow 
modification, and dams are some examples of conditions that occur 
commonly in streams where those factors alone might prevent attainment 
of an aquatic life use designation even absent and significant point or 
non-point sources of pollution.
    Subsequent re-designation has been difficult for State agencies 
because of the anti-backsliding provisions of the Clean Water Act. 
Citizens Groups often view a re-designation as a ``degradation'' of 
water quality, even if the existing water quality does not meet the 
existing designation.
    The implementation of TMDLs and the ongoing implementation of CSO 
controls, highlights the difficulties with current designations. The 
difference between use attainment, in different States, depends more on 
the process used for designation than it does on causes and sources of 
non-attainment. Many streams change from non-attainment to attainment 
as they cross State boundaries because of the variation in use 
designation. Since TMDLs are now required in many States for all waters 
that are in non-attainment as a result of point source pollution, many 
States have additional incentive to review the designation process. 
These incentives do not remove the difficulties involved with a 
perceived ``lowering'' of a designated use.
    Even within States the use designation process is often 
administered differently in different jurisdictions. On the Scioto 
River an impounded areas less than a mile long was re-designated as 
``modified warmwater habitat''; in the Cuyahoga River the sewer 
authority was told that a two mile long impounded area was ``too 
short'' and would unnecessarily ``segment'' the stream. In the Hocking 
River more than 3 miles of urban stream was re-designated as modified 
warmwater habitat ``channelized'' where the stream was straightened and 
had earthen banks of trapezoidal shape for a few stretches of about a 
mile with intervening stretches of natural stream banks and meandering 
channel shape. In the Little Cuyahoga River a variance (not a re-
designation) was requested for a stream where a stretch of over 3 miles 
is straightened, predominantly in a rectangular concrete channel and 
contains no significant stretches of natural channel. That variance was 
refused by Ohio EPA on the grounds again that this would segment the 
stream and discourage the municipality from attempting to improve the 
existing use which had never met the existing designated use since many 
years prior to the inception of the Clean Water Act.
    The cost of comprehensive use designation for streams is in the 
tens to hundreds of thousands of dollars depending on the size of the 
project. Clearly this expenditure can help to prioritize expenditure of 
further pollution controls to streams where use is appropriately 
designated and attainable.
                             stream habitat
    Urban settings provide unique conditions for stream habitat. 
Streams in urban areas have typically been extensively modified. The 
goal of storm water management in urban areas has always been to 
provide drainage and avoid any surface retention of water in cities. 
That goal creates habitat conditions dominated by runoff hydraulics. In 
wet weather these streams have high peak flows and velocities that 
create scour and destabilize existing conditions. In dry weather these 
streams may have flows lower than would be expected in a stream not 
dominated by a storm drainage system. These two stage systems (low base 
flow, high peak flow) are not well suited for maintaining aquatic life.
    Typically the property owners, the USACOE and City authorities have 
devoted a significant amount of engineering resources to stabilize 
these streams and prevent flooding during peak events. Most aquatic 
life use designations are developed based on habitat standards 
determined by ``natural'' streams with moderate change from pre-
Columbian drainage and land use. Urban streams represent an extreme 
condition where most first order (the smallest) many second order and 
some third order streams have been replaced by pipes. In areas where 
these streams have not been entirely culverted they are often 
straightened and regularly dredged to promote drainage and prevent 
flooding. The remaining streams of fourth order and higher are often 
disconnected from areas where populations of fish and 
macroinvertebrates can find conditions suitable for propagation or 
other functions essential to supporting the broad range of species that 
would be supported in a more diverse ecosystem. Often the larger 
streams are also extensively modified to provide other functions such 
as riverfront recreation or commercial navigation. In New York City as 
the most extreme example the ``streams'' in Central Park are entirely 
artificial and are fed primarily by tap water and drain into the 
combined sewer system.
    While Ohio has much less extreme modification to the natural 
environment than New York City, the condition of the streams in 
urbanized and even in many suburban areas is highly modified. Those 
modifications prevent adequate colonization of fish species that would 
be necessary to support a warmwater habitat aquatic life use. Given the 
importance of the aquatic life use as an indicator of good water 
quality, as developed in Ohio Water Quality standards, it is important 
that the standards recognize habitat conditions that would prevent 
attainment even if all urban pollution sources were completely 
controlled.
    Discussions have been initiated by several entities to develop an 
appropriate ``urban'' stream designation to address these conditions 
that prevent attainment of aquatic life uses. To date, the Ohio EPA has 
not been particularly open to developing an alternative to the existing 
designation system.
[GRAPHIC] [TIFF OMITTED] 78071.003

[GRAPHIC] [TIFF OMITTED] 78071.004

[GRAPHIC] [TIFF OMITTED] 78071.005

[GRAPHIC] [TIFF OMITTED] 78071.006

[GRAPHIC] [TIFF OMITTED] 78071.007

[GRAPHIC] [TIFF OMITTED] 78071.008

[GRAPHIC] [TIFF OMITTED] 78071.009

[GRAPHIC] [TIFF OMITTED] 78071.010

                              News Release
             corps continues partnership with ohio agencies
    Buffalo.--The U.S. Army Corps of Engineers, Buffalo District, the 
Ohio Environmental Protection Agency (EPA) and the Ohio Department of 
Health (DH) are working together to improve the investigations being 
performed by the Corps under the Formerly Utilized Sites Remedial 
Action Program (FUSRAP) in Ohio. By partnering, th technical experience 
and expertise of all of theagencies is combined to provide valuable 
input toward provide resolving complex cleanup issues.
    ``All of our agencies are committed to having an open and honest 
dialog on FUSRAP sites in Ohio and ensuring that we develop plans that 
are safe and fully protective of human health and the environment,'' 
said Lt. Col. Glen R. DeWillie, Buffalo District Commander. ``We are 
working together and coordinating the comprehensive evaluations being 
prepared for all of our sites.''
    The Corps is mandated by Congress to follow the Comprehensive 
Environmental Response Compensation and Liability Act (CERCLA) in 
evaluating FUSRAP sites ``Our ultimate goal in following CERCLA is to 
develop cleanup remedies that are fully protective of human health and 
the environment,'' said DeWillie. The district involves all 
stakeholders in partnering meetings to coordinate with the agencies and 
proactively seek their opinions and concerns so they can be properly 
addressed.
    The Corps, the Ohio EPA and the Ohio DH schedule monthly telephone 
conferences and correspond regularly to ensure all issues and concerns 
that could impact public health and safety are properly evaluated while 
developing cleanup alternatives for the Ohio sites that are fully 
protective. The Ohio sites are: the Luckey Site; the Painesville Site; 
the former Harshaw Chemical Company in Cleveland; Dayton Unit 1, Dayton 
Warehouse, Dayton Unit III, and Dayton Unit IV; and the Scioto 
Laborator Complex in Marion.
    Citizens interested in being added to any of the Ohio Site mailing 
lists or seeking additional information regarding the site can contact 
the USACE FUSRAP Public Information Center toll-free at 1-800-833-6390. 
The Internet website for the Buffalo District is http://
www.lrb.usace.army.mil/fusrap.E-mail can be addressed to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c2a4b7b1b0a3b282b7b1a3a1a7eca3b0afbbecafabae">[email&#160;protected]</a>
  

                                <greek-d>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
